<html>
<title> - FOOD FOR THOUGHT: HOW TO IMPROVE CHILD NUTRITION PROGRAMS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





       FOOD FOR THOUGHT: HOW TO IMPROVE CHILD NUTRITION PROGRAMS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EDUCATION REFORM

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             July 16, 2003

                               __________

                           Serial No. 108-27

                               __________

  Printed for the use of the Committee on Education and the Workforce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

90-132              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Cass Ballenger, North Carolina       Major R. Owens, New York
Peter Hoekstra, Michigan             Donald M. Payne, New Jersey
Howard P. ``Buck'' McKeon,           Robert E. Andrews, New Jersey
    California                       Lynn C. Woolsey, California
Michael N. Castle, Delaware          Ruben Hinojosa, Texas
Sam Johnson, Texas                   Carolyn McCarthy, New York
James C. Greenwood, Pennsylvania     John F. Tierney, Massachusetts
Charlie Norwood, Georgia             Ron Kind, Wisconsin
Fred Upton, Michigan                 Dennis J. Kucinich, Ohio
Vernon J. Ehlers, Michigan           David Wu, Oregon
Jim DeMint, South Carolina           Rush D. Holt, New Jersey
Johnny Isakson, Georgia              Susan A. Davis, California
Judy Biggert, Illinois               Betty McCollum, Minnesota
Todd Russell Platts, Pennsylvania    Danny K. Davis, Illinois
Patrick J. Tiberi, Ohio              Ed Case, Hawaii
Ric Keller, Florida                  Raul M. Grijalva, Arizona
Tom Osborne, Nebraska                Denise L. Majette, Georgia
Joe Wilson, South Carolina           Chris Van Hollen, Maryland
Tom Cole, Oklahoma                   Tim Ryan, Ohio
Jon C. Porter, Nevada                Timothy H. Bishop, New York
John Kline, Minnesota
John R. Carter, Texas
Marilyn N. Musgrave, Colorado
Marsha Blackburn, Tennessee
Phil Gingrey, Georgia
Max Burns, Georgia

                    Paula Nowakowski, Chief of Staff
                 John Lawrence, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EDUCATION REFORM

                 MICHAEL N. CASTLE, Delaware, Chairman

Tom Osborne, Nebraska, Vice          Lynn C. Woolsey, California
    Chairman                         Susan A. Davis, California
James C. Greenwood, Pennsylvania     Danny K. Davis, Illinois
Fred Upton, Michigan                 Ed Case, Hawaii
Vernon J. Ehlers, Michigan           Raul M. Grijalva, Arizona
Jim DeMint, South Carolina           Ron Kind, Wisconsin
Judy Biggert, Illinois               Dennis J. Kucinich, Ohio
Todd Russell Platts, Pennsylvania    Chris Van Hollen, Maryland
Ric Keller, Florida                  Denise L. Majette, Georgia
Joe Wilson, South Carolina           George Miller, California, ex 
Marilyn N. Musgrave, Colorado            officio
John A. Boehner, Ohio, ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 16, 2003....................................     1

Statement of Members:
    Boehner, Hon. John A., a Representative in Congress from the 
      State of Ohio, letter submitted for the record.............    76
    Castle, Hon. Michael N., a Representative in Congress from 
      the State of Delaware, prepared statement of...............     2
    Putnam, Hon. Adam, a Representative in Congress from the 
      State of Florida, statement submitted for the record.......    72
    Woolsey, Hon. Lynne C., a Representative in Congress from the 
      State of California, letter submitted for the record.......    77

Statement of Witnesses:
    Baranowski, Dr. Tom, Professor of Pediatrics (Behavioral 
      Nutrition), USDA Children's Nutrition Research Center, 
      Baylor College of Medicine, Houston, Texas.................    39
        Prepared statement of....................................    41
    Bost, Hon. Eric M., Undersecretary, Food, Nutrition, and 
      Consumer Services, U.S. Department of Agriculture..........    15
        Prepared statement of....................................    19
        Response to questions submitted for the record...........    78
    Carmona, Vice Admiral Dr. Richard H., The Surgeon General, 
      U.S. Public Health Service, U.S. Department of Health and 
      Human Services.............................................     4
        Prepared statement of....................................     7
    Clarke, Betsy, President, National WIC Association, and 
      Director, Minnesota WIC....................................    43
        Prepared statement of....................................    45
    Frank, Dr. Deborah, Professor of Pediatrics, Boston 
      University Medical School, Boston, Massachusetts...........    55
        Prepared statement of....................................    58
    MacDonald, Gaye Lynn, President, American School Food Service 
      Association, and Manager, Food Services, Bellingham Public 
      Schools, Bellingham Washington.............................    50
        Prepared statement of....................................    52
        Letter submitted for the record..........................    87

 
       FOOD FOR THOUGHT: HOW TO IMPROVE CHILD NUTRITION PROGRAMS

                              ----------                              


                        Wednesday, July 16, 2003

                     U.S. House of Representatives

                    Subcommittee on Education Reform

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 2175, Rayburn House Office Building, Hon. Michael N. 
Castle [Chairman of the Subcommittee] presiding.
    Present: Representatives Castle, Osborne, Upton, Wilson, 
Woolsey, Davis, Davis, Kucinich, Van Hollen, and Majette.
    Ex officio present: Representative Boehner.
    Also present: Representative Owens.
    Staff present: Amanda Farris, Professional Staff Member; 
Kevin Frank, Professional Staff Member; Parker Hamilton, 
Professional Staff Member; Kate Houston, Professional Staff 
Member; Stephanie Milburn, Professional Staff Member; Deborah 
L. Samantar, Committee Clerk/Intern Coordinator; Dave 
Schnittger, Communications Director; Denise Forte, Minority 
Legislative Associate/Education; Ricardo Martinez, Minority 
Legislative Associate/Education; Joe Novotny, Minority 
Legislative Assistant/Education; and Lynda Theil, Minority 
Legislative Associate/Education.
    Chairman Castle. The Subcommittee on Education Reform will 
come to order. A quorum being present, the Subcommittee has 
come to order.
    We are meeting today to hear testimony on ``Food for 
Thought: How to Improve Child Nutrition Programs.''
    Under Committee Rule 12(b), opening statements are limited 
to the Chairman and the ranking minority member of the 
Subcommittee. Therefore, if other members have statements, they 
may be included in the hearing record.
    With that, I ask unanimous consent for the hearing record 
to remain open 14 days to allow member statements and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record.
    Without objection, so ordered.
    Typically, at this time, I would read an opening statement, 
but I understand the Surgeon General needs to leave at 10:30, I 
believe, and we'll have other members who will come in as they 
come from their other meetings.
    I want to give them all an opportunity, if possible, to 
participate in the hearing, so I'm going to at this time 
suspend my opening statement, except to say that this is our 
first step on the reauthorization of the child nutrition 
programs, which sound innocent enough, but get extremely 
complicated, quite frankly, from the political point of view, 
as we have to deal with a whole variety of issues, a lot of 
which we're going to start hearing about today.
    At some later point, we will discuss those issues and then 
perhaps I'll fit in my opening statement, but I want to allow 
the time for this illustrious panel first.
    So with that, I will waive anything further and at this 
time reserve the right to do it later, and turn to Ms. Woolsey 
for her statement.
    [The statement of Mr. Castle follows:]

Statement of the Honorable Michael N. Castle, Chairman, Subcommittee on 
       Education Reform, Committee on Education and the Workforce

    Good Morning. Thank you for joining us today for this important 
hearing on improving child nutrition programs. These programs are 
central to providing the nation's children with access to safe, 
affordable, and nutritious food. This marks the first hearing to help 
prepare Members of this Committee for the reauthorization of the Child 
Nutrition Act of 1966 and the National School Lunch Act, which is 
scheduled for this year.
    There is general agreement on the importance of good nutrition for 
everyone, especially children. Child nutrition programs including the 
National School Lunch and Breakfast Programs; the Special Supplemental 
Nutrition Program for Women, Infants, and Children (WIC); and the Child 
and Adult Care Food Program help give lower-income children access to 
nutritious meals and snacks.
    Proper nutrition is essential for children to achieve full physical 
development and long-term health. In addition, a healthy diet is 
critical for a child's academic success. Numerous studies have shown 
that diet affects children's ability to learn. There are proven 
linkages between diet and cognitive development, concentration levels, 
and psycho-social behaviors.
    The federal child nutrition programs were conceived to offer 
wholesome meals and snacks to children in schools and child care 
centers and to support the health of lower-income pregnant women, 
breastfeeding mothers, and their young children. These programs 
represent a huge national investment totaling over $12 billion per 
year. While the resources spent have been significant, issues remain 
about how to best reach the goal of providing lower-income children 
with access to healthy, affordable meals.
    Childhood obesity is becoming a major health problem in the Unites 
States, and studies suggest that overweight children are significantly 
more likely to become overweight or obese adults. Children are 
increasingly suffering from conditions traditionally associated with 
adulthood, including Type 2 diabetes, high cholesterol, and high blood 
pressure. I am very concerned about childhood obesity and the fact that 
it is slowly becoming an epidemic.
    Last year the U.S. Surgeon General issued a report that identifying 
schools as a ``key setting'' for developing public health strategies to 
prevent and decrease overweight and obesity. Over the past several 
years, programs providing meals and snacks to children have made 
progress in improving lunch menus to meet Federal nutrition standards 
for fat and calories, but I believe more can be done to provide every 
child with a school environment that promotes healthy food choices and 
regular physical activity.
    In an effort to address this very issue, I introduced legislation, 
H.R. 2227, the Childhood Obesity Prevention Act, that would authorize 
grants to fund pilot programs at the state and local levels to 
encourage the development and implementation of programs to promote 
healthy eating and increased physical activity among children. This 
Committee will examine additional ways to address the important and 
complex issue of childhood obesity during the child nutrition 
reauthorization while supporting the role of local school districts to 
make decisions about the foods that are available to children in 
school.
    During reauthorization, this Committee also will consider the 
challenges faced by the WIC program as well as issues related to school 
meal reimbursement, the School Breakfast Program, and other relevant 
provisions aiming to strengthen the nation's child nutrition programs.
    Today, we will hear from experts who will help shed light on these 
programs--their merits and areas where they can be made stronger. Our 
witnesses' unique perspectives on child nutrition and health will offer 
insights that will be tremendously helpful to the Members of this 
Committee as we work to improve child nutrition programs. We look 
forward to their comments.
    With that, I would like to recognize Mrs. Woolsey
                                 ______
                                 
    Ms. Woolsey. Mr. Chairman, I, too, will waive a statement 
at this point and will do it later.
    Chairman Castle. Thank you, Ms. Woolsey.
    I will introduce the panel of witnesses at this time:
    Vice Admiral Richard Carmona is the United States Surgeon 
General--by the way, he has so many titles, I'm not sure what 
to call him, but we'll figure it out as we go along--as well as 
the Acting Assistant Secretary for the United States Department 
of Health and Human Services.
    Dr. Carmona was appointed by President George W. Bush and 
sworn in as the 17th Surgeon General of the United States 
Public Health Service on August 5, 2002.
    Prior to his current appointment, Dr. Carmona was Chairman 
of the State of Arizona Southern Regional Emergency Medical 
System and a professor of surgery, public health, family, and 
community medicine at the University of Arizona.
    With an obvious love of medicine and community, Dr. Carmona 
has worked as a paramedic, registered nurse, and surgeon.
    The Honorable Eric M. Bost is our other witness on this 
panel, who has been the Under Secretary for Food, Nutrition, 
and Consumer Services for the United States Department of 
Agriculture since June 18, 2001.
    As Under Secretary, he is responsible for the 
administration of the 15 USDA Nutrition Assistance Programs, 
including the Food Stamp Program, the Special Supplemental 
Feeding Program for Women, Infants, and Children, and the 
National School Lunch and School Breakfast Programs.
    Before holding his current position, Mr. Bost worked as the 
chief executive and administrative officer of the Texas 
Department of Human Services, where he headed one of the 
largest human service agencies in the country .
    Mr. Bost also served as the Deputy Director of the Arizona 
Department of Economic Security, the Human Services agency with 
responsibility of welfare reform, child welfare, and protective 
services for children and adults.
    Just for ground rules, essentially, we encourage our 
witnesses to follow the 5-minute guidelines. You have a green 
light for 4 minutes; you have a light for 1 minute; and a red 
light until somebody bangs a hammer or does something to stop 
the whole proceedings, at which point we will then have a 
question and answer period with the members who each will have 
5 minutes, as well.
    So we welcome both of you here, and we turn now to the 
surgeon general. Dr. Carmona, for his testimony.

  STATEMENT OF VADM RICHARD H. CARMONA, SURGEON GENERAL, U.S. 
   PUBLIC HEALTH SERVICE, AND ACTING ASSISTANT SECRETARY FOR 
        HEALTH, DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. Carmona. Good morning, Mr. Chairman and distinguished 
members of the Subcommittee. My name is Richard Carmona, and 
I'm the United States Surgeon General.
    It's a pleasure to be here with you today, and as an 
American and as a parent, I want to thank you for your 
leadership in this important area.
    Mr. Chairman, you've been a leader in developing innovative 
approaches to combat childhood obesity. Thank you for your 
commitment to the health and well-being of our children.
    As Surgeon General, I welcome the chance to talk with you 
about the public health crisis that affects every state, every 
city, every community, and every school across our great 
nation.
    This crisis is obesity. It's the fastest-growing cause of 
disease and death in America, and it's completely preventable.
    Nearly two out of every three Americans are overweight or 
obese. One out of every eight deaths in America is caused by an 
illness directly related to overweight and obesity.
    America's children are already seeing the initial 
consequences of a lack of physical activity and unhealthy 
eating habits. Fortunately there is still time to reverse this 
dangerous trend.
    Let's start with the good news. I am pleased to be able to 
report that most of America's children are very healthy. About 
82 percent of our nation's 70 million children are in very good 
or excellent health. Infant mortality is at an all-time low, 
childhood immunization is at an all-time high, and our children 
are less likely to smoke and are less likely to give birth as 
teenagers. These are important gains in pediatric health.
    But the bad news is that an unprecedented number of 
children are carrying excess body weight. That excess weight 
significantly increases our kids' risk factors for a range of 
health problems, including diabetes, heart disease, asthma, 
emotional and mental health problems.
    Every parent in this room wants the best for their 
children, but the fact is that we have an epidemic of childhood 
obesity. Today I will discuss three key factors that we must 
address to reduce and eliminate childhood obesity in America.
    That is, increased physical activity, healthier eating 
habits, and improved health literacy.
    Looking back to the 1960's, just over 4 percent of six-to-
17-year-olds were overweight. Today that rate has more than 
tripled, to over 15 percent, and the problem doesn't go away 
when children grow up. Nearly three out of very four overweight 
teenagers become overweight adults.
    I'm not willing to stand by and let this happen. America's 
children deserve much better than being condemned to a lifetime 
of serious, costly, and potentially fatal medical complications 
associated with being overweight.
    The facts are staggering:
    In the year 2000, the total annual cost of obesity in the 
United States was $117 billion. While extra value meals may 
save us pennies at the counter, they're costing us billions of 
dollars in health care and lost productivity. Physical 
inactivity and super-sized meals are leading to a nation of 
oversized people.
    This year, more than 300,000 Americans will die from 
illnesses related to overweight and obesity. Obesity 
contributes to the No. 1 cause of death in our nation, which is 
heart disease.
    Excess weight has also led to an increase in the Type 2 
diabetes. There are at least 17 million Americans with 
diabetes, and another 16 million have pre-diabetes. It can lead 
to eye disease, cardiovascular problems, kidney disease, and 
early death.
    Unfortunately, the ever-increasing problem of overweight 
among American children cannot be explained away by changes in 
genetic composition.
    We now know more than ever that the combination of genetic, 
social, metabolic, and environmental factors play a role in 
this children's weight problem, but the fundamental reason that 
our children are overweight is this: too many children are 
eating too much and moving too little.
    Our children did not create this problem. Adults did. 
Adults increased the portion size of children's meals, 
developed the games and television that children find 
spellbinding, and chose the sedentary lifestyles that our 
children now emulate; so adults must take the lead in solving 
this problem. In some cases, it's as easy as turning off the 
television and keeping the lid on the cookie jar.
    I'm very pleased that businesses like Kraft, Coca Cola, 
Nike, and others are supporting major efforts and making 
significant changes to help kids make healthier choices. These 
and other business leaders, foundations, schools and 
universities, and parents across the Nation are starting to 
make a difference in children's health.
    Especially now, during the summer, we need to encourage all 
children to be physically active for at least 60 minutes a day, 
not only sports, but simple things like taking the stairs, 
riding their bikes, and just getting out and playing.
    I'll be the first to say it won't be easy. My wife and I 
have four kids. Families live very busy lives, and it's tough 
to prepare healthy meals and have enough time to get in some 
physical activity every day, but it's so important, because the 
choices that children make, the behaviors they learn now will 
last a lifetime.
    To help promote lifestyles, I am visiting schools across 
America in my 50 Schools/50 States initiative, to talk with 
kids about avoiding drugs and alcohol, avoiding tobacco in 
every form, being physically active, eating right, and making 
healthy choice in everything they do every day.
    Do you know that the average American child spends more 
than 4 hours a day watching television, playing video games and 
surfing the web? We're seeing a generation of kids who grew up 
off the playground and on the PlayStation.
    We must all work together to help our children lead healthy 
lives. We need physical activity and health food choices in 
every school in America. We need better food choices and 
affordable prices in every neighborhood in America, and we need 
community planning that includes neighborhood playgrounds and 
safe walking paths.
    Some people want to blame the food industry for our growing 
waistlines. The reality is that restaurants, including many 
fast-food restaurants, now offer low-fat, healthy choices.
    For the meals we eat at home and the meals we eat out, it's 
still our decision what we eat, where we eat, and how much we 
eat. That concept is part of what I'm talking about with 
Americans of all ages, in increasing our health literacy.
    Health literacy is the ability of an individual to access, 
understand, and use health-related information and services to 
make appropriate decisions. Low health literacy contributes to 
our nation's epidemic of overweight and obesity. Experience 
with my own patients and students indicates that many Americans 
don't understand the impact of caloric intake versus 
expenditure.
    Parents are concerned about calories, carbohydrates, 
vitamins, and portion sizes. When kids are growing and 
developing, a restrictive diet may not be the best choice for 
every child. Just as with adults, one diet does not fit every 
child. As parents, we know that.
    But when we see a child gaining weight and not exercising 
enough, we see the social and psychological pain that it is 
causing. When we see a child's self-esteem drop day by day 
because he or she is left out of schoolyard games, or because 
he or she just can't keep up with the other kids on their 
bikes, we know that they need help and we must help those 
children.
    I'm pleased to hear that moms and dads are asking about how 
to establish healthy eating habits for their children. Moms and 
dads must be involved in these decisions for their children. 
Children come in all shapes and sizes, and sometimes a child 
just needs a little more physical activity and a little less 
food intake. It's about balance.
    To make healthy choices, parents and children need to 
understand information that fits into their busy lifestyles. 
All of us--government, academia, health care professionals, 
businesses, schools, and communities--need to work together to 
ensure that straightforward information about health eating and 
physical activity is available.
    I don't have all the answers today, but we can figure this 
out together. We can increase health literacy and reduce 
childhood obesity.
    President Bush and Secretary Thompson have been pioneers in 
getting prevention into the American mindset. We're starting to 
see some results, and we need your help. As Members of 
Congress, as members of your communities, and as parents, you 
are role models and leaders.
    Please work with me to support our efforts to improve 
Americans' health literacy, to put prevention first in all we 
do, and to end our nation's obesity epidemic before it has a 
chance to reach into another generation of Americans.
    With that, I will end my oral testimony. I would ask to be 
able to submit my entire written statement into the record, and 
I'd be happy to answer any questions; and Mr. Chairman, thank 
you for the privilege of speaking and allowing me to go first 
so I can catch my flight.
    [The prepared statement of Dr. Carmona follows:]

   Statement of Richard H. Carmona, M.D., M.P.H., F.A.C.S., Surgeon 
  General, U.S. Public Health Service, Acting Assistant Secretary for 
            Health, Department of Health and Human Services

    Good morning Mr. Chairman and distinguished members of the 
Subcommittee. My name is Dr. Richard Carmona, and I am the Surgeon 
General of the United States.
    As an American, I want to take this opportunity to thank you for 
your service to our nation. I've had the honor of working with many of 
you during my first 11 months as Surgeon General, and I look forward to 
strengthening our partnerships to improve the health and well-being of 
all Americans.
    Mr. Chairman, you have been a leader in developing innovative 
approaches to combat childhood obesity. Thank you for your commitment 
to the health and well-being of our children. The hearing you have 
called today will draw further public attention to this growing 
pediatric health crisis.
    As Surgeon General, I welcome this chance to talk with you about a 
health crisis affecting every state, every city, every community, and 
every school across our great nation.
    The crisis is obesity. It's the fastest-growing cause of disease 
and death in America. And it's completely preventable.
    Nearly two out of every three Americans are overweight or obese.
    One out of every eight deaths in America is caused by an illness 
directly related to overweight and obesity.
    Think of it this way: statistics tell us that of the 20 members 
serving on this subcommittee, at least two will die because of a 
completely preventable illness related to overweight or obesity. 
Because of overweight or obesity, two of you will spend less time 
serving your communities and enjoying your children and grandchildren.
    America's children are already seeing the initial consequences of a 
lack of physical activity and unhealthy eating habits. Fortunately, 
there is still time to reverse this dangerous trend in our children's 
lives.
    Let's start with the good news: I am pleased to be able to report 
that most of America's children are healthy.
    Overall, 82 percent of our nation's 70 million children are in very 
good or excellent health. Infant mortality is at an all-time low, 
childhood immunization is at an all-time high. Our children are less 
likely to smoke, and less likely to give birth as teenagers.
    These are important gains in pediatric health.
    But the bad news is that an unprecedented number of children are 
carrying excess body weight. That excess weight significantly increases 
our kids' risk factors for a range of health problems, including 
diabetes, heart disease, asthma, and emotional and mental health 
problems.
    As a father, I work hard to teach my children about the importance 
of physical activity and healthy eating. Every parent in this room 
wants the best for their children.
    But the fact is that we have an epidemic of childhood obesity. A 
study conducted in May by the New York City Department of Health and 
Mental Hygiene and the Department of Education found that, adjusted to 
National Standards, nearly one in four of the children in New York 
City's public elementary schools is overweight.
    Today I will discuss the three key factors that we must address to 
reduce and eliminate childhood obesity in America. They are:
    1. Increased physical activity;
    2. Healthier eating habits; and
    3. Improved health literacy.
    Mr. Chairman, I ask that my statement and the scientific 
information contained in it be considered as read and made part of the 
record. In the interest of time, this morning I will present only part 
of that statement to the subcommittee.
    Looking back 40 years to the 1960s, when many of us in this room 
were children, just over four percent of 6- to 17-year-olds were 
overweight. Since then, that rate has more than tripled, to over 15 
percent. And the problem doesn't go away when children grow up. Nearly 
three out of every four overweight teenagers may become overweight 
adults.
    I'm not willing to stand by and let that happen. American children 
deserve much better than being condemned to a lifetime of serious, 
costly, and potentially fatal medical complications associated with 
excess weight. The facts are staggering:
    In the year 2000, the total annual cost of obesity in the United 
States was $117 billion. While extra value meals may save us some 
change at the counter, they're costing us billions of dollars in health 
care and lost productivity. Physical inactivity and super-sized meals 
are leading to a nation of oversized people.
    This year, more than 300,000 Americans will die from illnesses 
related to overweight and obesity.
    Obesity contributes to the number-one cause of death in our nation: 
heart disease.
    Excess weight has also led to an increase in the number of people 
suffering from Type 2 diabetes. There are at least 17 million Americans 
with diabetes, and another 16 million have pre-diabetes. Each year, 
diabetes costs America $132 billion. It can lead to eye diseases, 
cardiovascular problems, kidney failure, and early death.
    Why are we facing this epidemic of overweight and obesity? Over 50 
genes associated with obesity have been located in the human gene map. 
But the ever-increasing problem of overweight among American children 
cannot be explained away by changes in genetic composition.
    Studies conducted by HHS' National Institutes of Health and the 
Centers for Disease Control and Prevention are already yielding 
important clues about the multiple factors that contribute to 
overweight and obesity. Studies are also providing new information 
about potentially successful interventions.
    We know more than ever about the combination of genetic, social, 
metabolic, and environmental factors that play a role in children's 
weight.
    But the fundamental reason that our children are overweight is 
this: Too many children are eating too much and moving too little.
    In some cases, solving the problem is as easy as turning off the 
television and keeping the lid on the cookie jar.
    Our children did not create this problem. Adults did. Adults 
increased the portion size of children's meals, developed the games and 
television that children find spellbinding, and chose the sedentary 
lifestyles that our children emulate. So adults must take the lead in 
solving this problem.
    I'm pleased that businesses like Kraft Foods, Coca Cola, and Nike 
are supporting major efforts and making significant changes to help 
kids make healthier choices.
    These and other business leaders, foundations, schools and 
universities across our nation are starting to make a difference in 
children's health. I encourage other organizations and every parent in 
America to join the fight against childhood obesity.
    We must teach our children to enjoy healthy foods in healthy 
portions. As parents, we should never use food as a reward or 
punishment.
    And especially now, during the summer, we need to encourage all 
children to be physically active for at least 60 minutes a day. Not 
only sports, but simple things like taking the stairs, riding their 
bikes, and just getting out and playing.
    And as we are getting our kids to make healthy choices, we also 
need to make them for ourselves. James Baldwin captured the essence of 
this when he said: ``Children have never been good at listening to 
their elders, but they have never failed to imitate them.''
    I'll be the first to say it won't be easy. My wife and I have four 
kids. I know first-hand that families live such busy lives that it's 
tough to prepare healthy meals and have enough time to get in some 
physical activity.
    But it's so important, because the choices that children make now, 
the behaviors they learn now, will last a lifetime.
    As adults we must lead by example. Personally, I work out every 
day. I do my best to make healthy choices in all I do. My bosses 
President Bush and Secretary Thompson also find time to exercise. In 
fact, Secretary Thompson put the Department of Health and Human 
Services on a diet and has led by example by losing over 15 pounds.
    President Bush, Secretary Thompson, and I have made disease 
prevention and health promotion a priority in our roles as leaders. As 
Surgeon General, prevention comes first in everything I do. Prevention 
is the vision behind the President's HealthierUS Initiative and the 
Secretary's Steps to a HealthierUS Initiative.
    One of the many challenges is that there are so many more 
incentives in our current health care system for treatment than for 
prevention. When I was a practicing physician in a hospital, I made a 
good living treating people who could have avoided my hospital entirely 
if they had made better lifestyle choices.
    Benjamin Franklin was absolutely right back in the 1700s: an ounce 
of prevention is worth a pound of cure. But more than 200 years later, 
prevention is still a radical concept to most Americans.
    At the Department of Health and Human Services, we're encouraging 
healthy habits more than ever through our work to eliminate health 
disparities; our many initiatives designed to encourage physical 
activity, healthy eating, and regular checkups; and our nationwide 
campaigns to discourage smoking and drug and alcohol abuse.
    To help promote healthy lifestyles, I am visiting schools across 
America in my 50 Schools in 50 States Initiative to talk with kids 
about avoiding drugs and alcohol, avoiding tobacco in every form, being 
physically active, eating right, and making healthy choices every day.
    Each time I'm out on the road, whether at a school or passing 
through an airport, I meet young people who are making choices that 
affect their health and well-being. I believe that what they see and 
hear in the media can have a profound effect on their choices.
    Secretary Thompson also appreciates that, and it's why he focused 
the Youth Media Campaign on getting young people excited about 
increasing the physical activity in their lives and on showing parents 
that physical activity and healthy eating are essential to their 
children's well-being.
    This week, the President's Council on Physical Fitness and Sports 
will launch a brand-new Presidential Champions Award. The award 
encourages a lifetime of activities for children and their parents or 
other role models.
    We need initiatives like the Youth Media Campaign and the 
Presidential Champions Awards because the average American child spends 
more than four hours every day watching television, playing video 
games, or surfing the web. We are seeing a generation of kids who grew 
up off the playground and on the PlayStation.
    We must all work together to help our children lead healthy lives. 
I caution people against playing the ``blame game.'' Instead of blaming 
children for being overweight, we need to encourage them and help them 
to make healthier choices.
    We need physical activity and healthy food choices in every school 
in America. We need better food choices at affordable prices in every 
neighborhood in America. And we need community planning that includes 
neighborhood playgrounds and safe walking paths.
    Some people want to blame the food industry for our growing 
waistlines. The reality is that restaurants, including many fast food 
restaurants, now offer low-fat, healthy choices.
    For the meals we eat at home, and the meals we eat out, it's still 
our decision what we eat, where we eat, and how much we eat. That 
concept is part of what I'm talking about with Americans of all ages: 
increasing our health literacy.
    Health literacy is the ability of an individual to access, 
understand, and use health-related information and services to make 
appropriate health decisions.
    Low health literacy contributes to our nation's epidemic of 
overweight and obesity. For example, some mothers are unaware that they 
can promote their baby's health through breastfeeding. Experience with 
my own patients and students indicates that many Americans don't 
understand the impact of caloric intake versus expenditure.
    Every morning people wake up and, while they're sitting at the 
kitchen table, they read the newspaper and the cereal box. Throughout 
the day they read the nutritional information on their meals and on 
their snacks. But do they really understand the information they're 
reading?
    The labels list grams of fat. But do you know how many grams of fat 
you should eat in a meal? Or in a day? Or how many is too many? Or too 
few? These are seemingly simple questions, but we're not giving 
Americans simple answers.
    Parents are hearing about overweight and obesity. So they're trying 
to figure out how much food they should feed their children. How much 
is too much? How much is not enough? They're concerned and confused 
about everything from calories and carbohydrates, to vitamins and 
portion sizes.
    When children are growing and developing, a restrictive diet may 
not be the best choice for every child. Just as with adults, one diet 
does not fit every child.
    As parents, we know that. But when we see a child gaining weight 
and not exercising enough, we see the social and psychological pain it 
causes. When we see a child's self-esteem drop by the day because she's 
left out of schoolyard games, or because he just can't keep up with the 
other kids on their bikes, we know that we need to help that child.
    I'm pleased to hear from parents and pediatricians that moms and 
dads are asking about how to establish healthy eating habits for kids.
    Parents should always talk to a pediatrician or family physician 
before putting any child on a diet or beginning any vigorous exercise 
plan.
    The reality is that often, if a child is overweight but still 
gaining height, the best thing parents can do is maintain the child's 
weight. Kids come in all shapes and sizes, and sometimes a child just 
needs a little more physical activity and a little less food intake. 
Again, it's not about blame--it's about balance.
    And to make healthy choices, parents and children need easy-to-
understand information that fits into their busy lifestyles. All of 
us--government, academia, health care professionals, businesses, 
schools, and communities--need to work together to ensure that 
straightforward information about healthy eating and physical activity 
is available.
    For example, Secretary Thompson announced last week that food 
labels will list trans fat content. By putting trans fat information on 
food labels, we're giving American families information to make smart 
choices to lower their intake of these unhealthy fats.
    The food pyramid is another great example. It's probably the most-
recognized nutrition guideline tool in America. HHS is looking forward 
to working with the Department of Agriculture to evaluate and update 
the food pyramid based on the latest scientific evidence.
    I don't have all the answers today. But we can figure this out 
together. We can increase health literacy and reduce childhood obesity. 
Secretary Thompson has been a pioneer in getting prevention into the 
American mindset. We're starting to see some results, and we need your 
help. As members of Congress, as members of your communities, and as 
parents, you are role models and leaders.
    As Surgeon General, I charge you to make healthy personal choices 
in your own lives, and to set good examples for all the children around 
you.
    And I ask you to work with me to support our efforts to improve 
Americans' health literacy, to put prevention first, and to end our 
nation's obesity epidemic before it has a chance to reach into another 
generation of Americans.
    Thank you. I would be happy to answer any questions.
                                 ______
                                 
    Chairman Castle. Without objection, your testimony will be 
submitted for the record.
    I'm going to ask Secretary Bost for a favor. Can we ask 
questions of Dr. Carmona now? He has to leave in 15 minutes.
    Mr. Bost. Absolutely.
    Chairman Castle. Would you be able to stay and then testify 
at 10:30?
    Mr. Bost. Yes. Not a problem.
    Chairman Castle. That's great. Thank you very much. That 
gives us a little bit of opportunity now. I will be brief in my 
questions so I can give other members an opportunity.
    First of all, I agree with what you're saying. In fact, as 
you've indicated, I've been involved with legislation in this 
area, and I'm extraordinarily concerned with childhood obesity 
because of the continuation into adulthood, and I don't know 
all the reasons for it, but I believe it's well-documented and 
is accurate and it's also well-documented and accurate that it 
does lead to health problems later in life, and I agree with 
some of your solutions, the 60 minutes of activities.
    I was just thinking, I hate to show my age, but my father 
wouldn't allow television in the house, and of course, 
obviously, when I was young, it had been invented, but they 
wouldn't allow it in the house.
    [Laughter.]
    Chairman Castle. And we had no video games, and we 
obviously couldn't surf the web, and those kinds of things.
    The gentleman from Michigan can hold his comments to 
himself, if he doesn't mind.
    [Laughter.]
    Chairman Castle. So some of these things happened 
naturally, and obviously, it's not natural now. There are a lot 
of very interesting activities these kids can follow.
    I also notice, when I go to restaurants, the portions are 
larger, much less the portions that are served at home.
    Is there a thought here in terms of our society? I mean are 
corporations, the fast-food providers, the restaurants at 
fault? Are we not educating our kids correctly as far as 
nutrition is concerned?
    In addition to the things that you are doing in the schools 
and the states, and obviously stating the facts--and I think a 
hearing like this is helpful unto itself--are there other 
societal areas that we should be looking to in terms of the 
fat--I was going to say the fact--the fact that we are perhaps 
eating too much and growing larger than is healthy?
    Dr. Carmona. Mr. Chairman, I think as you've alluded to in 
your questioning, this is a multi-factorial problem. There is 
no single solution.
    I think that, you know, there is nobody that is truly at 
fault. I think there are a number of issues that have occurred, 
as our society and our culture has changed over the last few 
decades, as we've become more sedentary because of TV, because 
of movies, because of video games; as we've become a fast-food 
society because of all of the things that we need to accomplish 
in a day.
    All of these things have merged together to create a young 
more sedentary population who doesn't pay much attention to 
what they're eating, and also quality, but quantity of what 
they're eating, and this has resulted in this epidemic of 
obesity.
    So really, it's a problem that I see that we all need to 
address. That is, your leadership in Congress, we as the 
Surgeon General, Health and Human Services, parents, schools, 
teachers, business, which is why, you know, I think wisely, the 
President and the Secretary have directed me, and I strongly 
agree, to work with industry, to work with business, to form 
partnerships so that we can all change the environment that our 
children grow up in and provide healthier lives for them.
    Chairman Castle. Thank you. Ms. Woolsey.
    Ms. Woolsey. I have to tell a little story.
    I have an almost three-and-a-half-year-old grandson, and I 
was babysitting a couple weeks ago, and we were sitting on the 
floor playing Power Rangers, and I saw one of the little 
knicky-knacky things they get from McDonald's, and I said, 
well, you know, ``tell me about this, Teddy.''
    And he started telling me what it was all about, and then 
he said, ``Amma''--that's what he calls me--``you don't have to 
do this, but you know, the next time you babysit me, you could 
take me to McDonald's.''
    And I mean--I laughed, of course, and said, 'You know, it 
looks like you already go to McDonald's. You need me to take 
you someplace you've not been.''
    Now, this is a family where I know how my son was raised, 
and he's got a three-and-a-half-year-old that knows all about 
McDonald's.
    So my question is--and this is not an obese little kid. He 
never stops. He never sits down.
    Are poor children more or less overweight? Are there any 
studies about poor kids that would--you know, I mean, they 
supposedly, they eat less if they're that poor, but what do 
they eat?
    I mean, is there anything that we should be knowing about 
that?
    Dr. Carmona. There are studies that have been done that 
have socioeconomic correlates, as well as correlates with 
gender and with ethnicity, and what in general is found is that 
minority children, for instance those that are Latino, 
Hispanic, blacks, tend to have a slightly higher percentage of 
obesity.
    In some areas, some poor children, some poor groups tend to 
have more obesity associated with them, also, and a lot of 
times there's crossover, because it happens to be the same 
minority children who happen to be from the lower socioeconomic 
groups--not always, but sometimes.
    So there is some data to support that.
    However, I believe that the same factors play there, a 
sedentary lifestyle. Sometimes culture is involved, how we 
prepare our foods.
    You know, being of Hispanic origin myself, I know how my 
grandmother used to prepare food, and it wasn't uncommon that 
they made it with lard that was stored in the back of the 
refrigerator, because that's how it was brought from her 
grandmother, my great-grandmother.
    So sometimes, the culture plays a role in how the foods are 
prepared, and this is where health literacy is so important, 
because very often, the culture doesn't take into account new 
scientific advances. This is the way our family has done things 
over time.
    So health literacy becomes important that we have to 
educate people as to better, improved, more appropriate ways to 
prepare their food, for instance, that would result in less fat 
and less obesity.
    Ms. Woolsey. Well, thank you, and I'm not going to ask 
another question. I want to make a very short comment.
    That is, we're the perfect Committee, because we're both 
education and nutrition, so literacy is something we have to 
wrap our arms around.
    Dr. Carmona. Thank you, ma'am.
    Chairman Castle. Thank you, Ms. Woolsey. Mr. Osborne.
    [No response.]
    Chairman Castle. Mr. Upton.
    Mr. Upton. Good to be with you again. You made some very 
good points here, particularly that the behavior that our kids 
learn today is the behavior that does indeed last a lifetime.
    I just want to make a point. I've introduced bipartisan 
legislation with my colleague, Mr. Kind, who is from Wisconsin 
on the other side of the aisle, that in fact is an important 
step toward encouraging kids to eat good food, by tying it into 
local farm products.
    We have a bill that has $10 million in new authorization 
that allows grants up to $100,000 per school district to 
actually work with local farmers and growers to get some of 
that local produce.
    I look at Southwestern Michigan, whether it's blueberries 
or asparagus or other vegetables that I have trouble getting my 
kids to eat right now, but I know that if they get in that 
habit, in fact, they're going to keep those habits forever, and 
we're hoping to include this as part of the bill, and your 
testimony I think underscores that importance.
    So good to see you, and I yield back.
    Dr. Carmona. Good seeing you. Thank you.
    Chairman Castle. Thank you. Sometimes we have trouble 
having our Presidents eat some of those green foods that you're 
talking about. We have to work on that.
    [Laughter.]
    Chairman Castle. Ms. Majette is recognized.
    Ms. Majette. Good morning, Mr. Chairman and good morning, 
doctor.
    I agree with everything that you've said in your testimony, 
and with the written testimony that I have here before me, and 
one of the concerns that I have is that with respect to the 
increased physical activity and getting children to understand, 
and parents to understand the importance of that regular 
activity, we face a challenge in Georgia and in other places 
across the country with respect to funding in the public 
schools.
    What has happened is that as we look to reduce the costs of 
educating our children, physical education programs are being 
cut, and I think that has had a direct impact on the ability of 
parents and children to be able to have that increased physical 
activity and have that built in as a part of their regular 
school day.
    Is there any way that you can help us in addressing that 
situation? What would be your view on that situation?
    Dr. Carmona. Yes, ma'am. Thank you.
    I think it's an excellent question, because the trend in 
increases in physical inactivity is increasing, and one of the 
things that we have already begun to do, through programs with 
HHS, our Healthier U.S., our STEPS program and such, is to 
increase physical activity.
    In my own practice as the Surgeon General, as I am moving 
about the country, in for instance the 50/50 program that I'm 
going, as I visit schools around the country and I meet with 
school administrators and such, I encourage them to make sure 
that physical activity is not removed from their curriculum, as 
I've gone around the country and given public addresses to 
large groups of school administrators and teachers and 
superintendents, also encouraging them to consider keeping that 
in the curriculum, because the ramifications of removing it are 
very significant, and that's why we're here.
    So I'm doing everything I can to shed light on this 
significant problem. Part of it is raising the awareness that I 
think some are not aware of regarding what the potential 
outcome is of removing the physical education.
    So with your help, of course, with Congress, in making this 
an area of importance nationally, with raising health literacy 
so people understand these issues, I think we can stop this 
from occurring, but we really first have to raise the 
consciousness, which I understand is the genesis of your 
remarks and what you're trying to do, and I will continue to do 
so.
    Ms. Majette. Thank you. I yield back.
    Chairman Castle. Thank you, Ms. Majette. Mr. Osborne.
    Mr. Osborne. Thank you, doctor, for being here today.
    One thing that has occurred to me is that maybe somewhat of 
a parallel problem that we've faced is smoking, and probably 
have been proactive in attacking smoking for a longer period of 
time, and I would suspect that there aren't very many people in 
the United States who don't realize the dangers of smoking, 
because of the impact of the advertising campaign.
    On the other hand, I would suspect that there are 
relatively few people in the country who understand the dangers 
of obesity, and so I think that awareness is critical, and I 
think we can do some things regarding school lunch, which will 
help, and maybe done some things regarding education in the 
schools so kids understand nutrition better.
    But to reach parents is the key thing, because they're the 
ones that are preparing the meals most of the time, and turning 
off the TV or not, and so the thing that I'm interested in is 
some type of a fairly massive advertising campaign which would 
maybe raise this issue to the level of smoking.
    I know that takes money. Maybe we'll get some cooperation 
from the food industry. Maybe some people will give us some 
PSAs.
    But I wondered just what your plans were in that regard as 
to reaching the American public in a rather large scale effort.
    Dr. Carmona. Thank you, sir, and I think it's an excellent 
point.
    Again, we're already beginning to move in this direction. 
One of the things we want to do is raise the issue of health 
literacy, because we really feel that that is the currency of 
success. You need to understand, after you have the awareness, 
understand how to utilize this information and what it means to 
your and your children.
    I think your comparison to cigarettes is an excellent one, 
but I would draw the parallel that Luther Terry, my 
predecessor, in 1964 released the first Surgeon General's 
Report on Smoking. We are 40 years down the line, and we are 
still struggling with that.
    Often, many of these cultural transformations are inter-
generational. Even with a lot of time and commitment and money, 
it takes time, and I think it's an incremental approach, even 
if we saturate the media and have good PSAs.
    So I think it's the way to go, and maybe we can learn some 
lessons from the lessons of tobacco, which we've seen for 40 
years and we see where we are today, where cigarette smoking, 
for instance, still is the largest killer of all Americans, 
over 400,000 a year, so that we still have a significant 
problem, although we have made huge strides, but it's taken us 
a long time and inter-generationally.
    One of the things I mentioned a little earlier was that, 
you know, we have been doing everything we can to partner with 
the private sector, as you alluded to, not just for funding, 
but to get their true partnership and commitment from those 
people who manufacture the foods, the fast-food agencies, those 
who make physical activity equipment, and figure out new and 
innovative ways to continue to bring the message to the 
American public, to the parents especially, and to the children 
to look cleverly at the markets, like the private sector does, 
and segment those markets.
    I mean, how do we best motivate youngsters, I mean 
adolescents, teenagers, and so on? Well, the private sector 
does that very well. They know how to segment the markets.
    So we've had conversations with Sesame Street, with MTV, 
with Disney, to look at the best practices so that we can 
penetrate those markets and try and start changing the 
behavior.
    Mr. Osborne. Thank you.
    Chairman Castle. Thank you, Mr. Osborne.
    And the final member who will be able to ask questions, 
because of the time limitations, perhaps for 3 minutes, is Mr. 
Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    Doctor, in light of your stated concern about obesity and 
hyperactivity among our schoolchildren, does the administration 
have any plans to deal with the presence of junk food, 
processed foods, and sugar-based, caffeinated products in our 
schools?
    Dr. Carmona. Thank you, sir.
    We've already begun working on that. The Secretary and I 
have met with industry leaders in the food industry, both fast 
food and food preparation industry, to form partnerships, to 
again raise their literacy, if you will, as to this epidemic 
and what they can do to help us.
    We've been very pleased at the responses that we have 
received from the private sector thus far, willing to change 
menus, to improve health literacy, and help us get the word 
out.
    We've also met with various school districts and school 
organizations regarding the issues of the type of foods they 
have for snacks in the machine issue. As you know, those are 
often local issues, controlled by the local school boards, 
those decisions.
    So we feel it is our obligation to raise the awareness that 
if they choose to have snacks that are available, that they are 
nutritious snacks, and that parents, school boards, and the 
leadership in the schools become very involved in what the 
children eat and can't eat during those schools hours, because 
it's very important.
    Mr. Kucinich. Thank you.
    Chairman Castle. Thank you, Mr. Kucinich.
    We actually have you on time, and we thank you, Dr. 
Carmona, the Surgeon General, for being here with us. We 
obviously wish it could be longer.
    I think you will find that this Committee, and I hope I'm 
not speaking out of school, but this Committee is very if not 
extremely supportive of all that you are doing in this area, 
and we appreciate it and we hope you continue to carry out the 
good work, as we continue to work with this bill and will 
continue to work with your office, as well, in terms of getting 
the best legislation possible.
    So we wish you luck for the rest of the day, and good luck 
making your airplane.
    Dr. Carmona. Thank you, Mr. Chairman, and thank you for the 
courtesy of allowing me to leave early, and I sincerely look 
forward to working with all of you, attacking this very 
important problem before us. Thank you.
    Chairman Castle. Thank you very much. We appreciate it.
    We will now turn to Secretary Bost, who has already been 
introduced. Don't leave, everybody. We have not only Secretary 
Bost but we have a very good panel after that, continuing to 
discuss the same issue, so hopefully, everybody can stay and 
absorb some interesting information concerning these problems 
of nutrition.
    Secretary Bost, we're delighted to have you here. Thank you 
very much for your patience, by the way.

   STATEMENT OF HON. ERIC M. BOST, UNDERSECRETARY FOR FOOD, 
     NUTRITION, AND CONSUMER SERVICES, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Mr. Bost. Oh, absolutely. Good morning. Thank you, Mr. 
Chairman and members of the Committee.
    I'm Eric M. Bost, Under Secretary for Food, Nutrition, and 
Consumer Services at the United States Department of 
Agriculture.
    I'm happy to be here today to talk about the 
administration's recommendations for the reauthorization of the 
Child Nutrition Programs and the Special Supplemental Program 
for Woman, Infants, and Children (WIC).
    You have my written testimony, so my remarks will highlight 
the improvements we recommend for these programs.
    What guides our recommendations?
    The opportunity to make a difference in children's lives in 
evident and our responsibility is clear, but we can't do it 
alone. That's why last spring, Deputy Under Secretary Bierman 
and I conducted listening sessions around the country.
    We listened to parents, providers, school administrators, 
students, WIC participants, who came and told us what they 
thought about our programs, what they liked, what they didn't 
like, and what they recommended we change.
    Through this process, we gained important insights to shape 
our proposal. We established three guiding principles essential 
to the proposal we will bring to you today:
    One, access to program benefits for all eligible children;
    Two, support for healthy school environments to address the 
epidemic of overweight and obesity among our children;
    And three, commitment to program integrity to ensure the 
best possible targeting of program benefits to eligible 
children.
    Turning to the recommendations, Ensuring program access:
    In our commitment to ensure program access, we propose, 
first, to consolidate the school meals programs into one 
program;
    Second, increase the regular free and reduced-price 
breakfast rate to the severe need rate for all schools 
participating in the program;
    Next, we propose to expand the 14-state pilot project often 
referred to as the Lugar Pilot;
    Fourth, exclude the military housing allowance to improve 
access to those families who make the ultimate sacrifice for 
our country;
    And finally, streamline the application process for both 
families and schools by requiring a single application per 
household and providing for year-long certifications.
    Healthy school environment:
    The prevalence of overweight and obesity among America's 
youth is an issue we must address. You have heard the 
statistics from the surgeon general. We also know why we have 
the problem. The reasons are clear and somewhere uncomplicated.
    First, if you eat too much, and if you eat too much of the 
wrong thing, and if you get too little physical exercise, you 
will be overweight, and you are at risk of being obese.
    We also know the environmental influences at work: the 
availability of sugary, high-fat foods; the move away from 
sports and exercise toward TV and computer screens; the lack of 
strong programs of nutrition education and physical education 
in many schools.
    We all bear the responsibility for this problem and we all 
have a very important role to play.
    For example, parents need to model healthy eating and 
physical activity behavior. Parents must also guide the choices 
of their children when they are too young to make informed 
choices alone.
    Families and communities can make healthy eating and 
exercise shared activities, such as Colorado on the Move. 
Teachers can find ways to build nutrition and physical 
education into their curricula; and of course, the Federal 
nutrition assistance programs have a very essential and 
important role to play.
    Some things that we're currently doing at USDA:
    As part of the President's Healthier U.S. initiative, we 
promote the Eat Smart, Play Hard campaign that motivates 
healthy eating and more physical activity;
    We promote healthy eating right from the start through our 
breast-feeding promotion and support activities through our WIC 
program;
    We are expanding and improving program-based nutrition 
education and other services;
    We promote the eating of fresh fruits and vegetables and 
whole grains;
    And we encourage schools to establish healthy school 
environments.
    We work with schools to more closely align the meals they 
serve with the dietary guidelines for Americans, but we must do 
more.
    As part of reauthorization we propose to:
    Support expanded funding for delivery of nutrition messages 
and materials;
    Require schools to offer low-fat milk as a beverage option 
for schools;
    Seek authority to continue the fruit and vegetable pilots 
through the end of school year 2005;
    And finally, establish a health school environment that 
supports the President's Healthier U.S. initiative.
    The administration proposes a multi-departmental 
implementation of Healthier U.S. in elementary and middle 
Schools through demonstration projects. The school districts 
will be asked to volunteer for the demonstration projects and 
will be provided financial and other incentives to implement 
one or more of the four keystones of Healthier U.S.
    One, eat a nutritious diet;
    Two, be physically active each day;
    Three, get preventative screenings;
    Four, make healthier choices.
    The Departments of Agriculture, Education, and Health and 
Human Services will coordinate to achieve the goals of the 
demonstration projects. The evaluation component will provide 
information regarding these outcomes.
    It's a leadership role, a supportive role, a proper role 
for government to give good nutrition a fighting chance by 
providing financial support to local schools that take action 
to promote children's health.
    Our responsibility demands action. The action is real, it's 
important, and it supports local decisionmaking. It's outcome-
driven and results-oriented.
    Through leadership and support and partnership with the 
school districts, local schools, teachers, administrators, and 
parents, we take a step to improve the school environment 
through these incentive-based demonstrations projects that 
include an evaluation component that lets policy be guided by 
outcome.
    Food safety is another integral and essential part of a 
health school environment that this administration supports. We 
recommend requiring school food authorities employ safe 
handling procedures in the preparation and service of meals.
    Program integrity:
    We cannot really succeed in our efforts without ensuring 
effective and efficient management of the resources that we 
have available. It is important to us not only from a 
management perspective but also in our role as public stewards.
    As you know, we have a problem with the accuracy of 
certifications in the National School Lunch Program. While we 
do not know the exact scope of the problem, we do know that we 
have a problem and it appears from some information that the 
problem may be getting worse.
    This is important, not only because improper certifications 
create a risk that nutrition assistance benefits are not 
getting to those who are eligible, but also because our school 
lunch certification data are used to distribute billions of 
other dollars in Federal, state, and local education aid.
    With that said, any solution to the accuracy of 
certification in the National School Lunch Program will--and I 
repeat, will just as clearly as I can--ensure access to program 
benefits for eligible children and also ensure that no undue 
administrative burdens are added to the schools.
    These recommendations include strong steps that we can take 
to begin to improve the process, protect the eligible children, 
and ensure their ability to participate in the program, and 
streamline the application and certification process.
    WIC:
    The successful public nutrition program, WIC, is also up 
for reauthorization. The President has been very clear 
regarding his commitment to this vital program by requesting 
unprecedented levels of funding for WIC.
    Currently, over 7.5 million at-risk, low-income women and 
their young children are served every month. As part of the 
administration's reauthorization package, we propose:
    Increased budget authority for WIC management information 
systems;
    Development and support;
    Expanded availability of breast-feeding peer counselors;
    Establishment of a pilot project to determine how WIC can 
help prevent childhood obesity;
    And authorization of a national evaluation of WIC every 5 
years to ensure the program's effectiveness.
    Mr. Chairman, I appreciate the commitment and longstanding 
support of you and the members of the Committee. I look forward 
to working with the Committee to enhance the effectiveness of 
the programs and further the positive impact they have on the 
health and nutrition of children and their families today and 
tomorrow.
    Thank you again for the opportunity to present the 
administration's proposal. I will be happy to answer any 
questions that you may have at this time.
    [The prepared statement of Mr. Bost follows:]

    Statement of Eric M. Bost, Under Secretary, Food, Nutrition and 
           Consumer Services, U.S. Department of Agriculture

    Thank you, Mr. Chairman. I am Eric Bost, Under Secretary for Food, 
Nutrition and Consumer Services (FNCS) at the U.S. Department of 
Agriculture (USDA). I am pleased to be here today to talk about the 
Administration's recommendations for the upcoming reauthorization of 
the Child Nutrition Programs and the Special Supplemental Nutrition 
Program for Women, Infants and Children (WIC).
    Within USDA,
    Food, Nutrition, and Consumer Services is the lead mission area for 
improving the health and nutrition of all Americans, especially 
children as well as our most vulnerable individuals and families. Our 
agency oversees 15 nutrition assistance programs that touch the lives 
of 1 out of 5 people in this country every year. The National School 
Lunch Program alone serves an average of 27 million children each 
school day. Fifty-eight percent of these children receive a nutritious 
lunch free or at a reduced price. Nearly eleven million also take part 
in school breakfast, after-school snacks, and summer meals. Programs 
like these present us with an extraordinary opportunity to reach young 
Americans and send out strong, consistent messages about achieving and 
maintaining a healthy lifestyle. Through our school meals programs, 
summer feeding, child care and WIC programs, we are making important 
strides towards improving the quality of children's diets and raising 
their awareness of healthy choices.
    Over a year ago, as we began considering possible improvements to 
the Child Nutrition Programs and WIC, we knew that an inclusive 
process, bringing together the suggestions of interested groups and 
individuals from across the country, would serve us well. So we 
traveled to nine cities to hear from advocacy groups, school lunch and 
child nutrition professionals and the public, about what was working 
and what needed improvement. From this process, we gained significant 
insight into the ways in which our programs could better meet their 
goals.
    We have been guided by the belief that ensuring the strength and 
integrity of the nutrition safety net depends on programs being readily 
accessible by all those eligible for them, a strong commitment to 
encourage children to make positive choices about what they eat, how 
much they eat, and how active they are; and good stewardship of program 
resources, combining effective oversight with a minimum of red tape.
    The reauthorization process gives the Administration and Congress 
the opportunity to empower local schools, parents, and communities to 
move toward a nutrition environment that values and fosters the health 
of our children. We believe that reauthorization of these programs 
should be guided by the following principles:
    <bullet> Ensuring access to program benefits for all eligible 
children. To effectively and efficiently ensure access, we propose 
streamlining the application process and the administration of programs 
to minimize burdens on both schools and parents;
    <bullet> Supporting healthy school environments to address the 
epidemic of overweight and obesity among our children by providing 
financial incentives to schools that meet the dietary guidelines; and
    <bullet> Improve the accuracy of program eligibility 
determinations, while ensuring access to program benefits for all 
eligible children, and reinvesting program savings to support program 
outcomes.
    This Administration believes that these principles provide the 
focus and framework needed to address the challenges and opportunities 
our nation faces in promoting good nutrition and health for all 
children.
Ensuring Program Access
    Streamlining these programs by fostering common program rules and 
policies is an important step toward minimizing administrative burdens 
for those who operate the programs and ensuring easier access for 
parents to enroll their children. Over the years, school cooperators 
have requested streamlining of the Child Nutrition Programs, noting 
that in order to provide the full array of year-round services that are 
offered, they have to participate in four programs, with four different 
sets of rules. Further, cooperators argue that the restrictions placed 
on each of the various meal services increase administrative costs and 
result in schools limiting the meal services offered to children in an 
effort to simplify administration of programs.
    This Administration proposes to streamline the operations of the 
School Meals Programs under the auspices of one program, the School 
Nutrition Program. USDA expects that streamlined operations will permit 
schools to provide meals to children, 365 days a year. This proposal 
would allow schools to offer a full array of meals under one set of 
rules. Simplifying the administrative burden would allow schools to 
operate under one State administrative office and enable them to 
provide meals to children during vacations and holidays without having 
to apply for the Summer Food Service Program or the Child and Adult 
Care Food Program. We also recommend increasing the regular free and 
reduced-price breakfast rates to the severe need rate for all schools 
participating in the program.
    We are interested in expanding access to the other programs that we 
administer, with a special focus on the Summer Food Service Program. 
This is one of my top priorities for FNCS. We are committed to 
improving access to nutritious food for children in the summer months, 
when school is not in session. The Food and Nutrition Service (FNS) 
launched a major effort last year, along with providers and advocates, 
to expand the number of sponsors, feeding sites, and participants in 
the Summer Food Service Program, and we continue to work directly at 
the local level, selecting unserved or underserved counties to develop 
potential sponsors, sites and vendors for this program.
    But to meet our commitment to improve access for all children who 
are eligible, we must work closely with our program partners; 
individuals and organizations in communities across America who deliver 
the nutrition assistance programs, and work to make the programs 
accessible and effective. Faith-based organizations have played an 
important role in raising community awareness about program services, 
assisting individuals who apply for benefits, and delivering benefits. 
President Bush has made working with the faith-based community an 
Administration priority, and we intend to continue our efforts to reach 
out to that community to help accomplish our goal of ensuring access to 
all eligible children.
Healthy School Environment
    The prevalence of overweight and obesity among America's youth is 
an epidemic requiring immediate attention. The percentage of young 
people who are overweight has more than doubled in the last 20 years 
for children aged 6-11 and almost tripled for adolescents aged 12-19. 
And we know that overweight among children is the precursor to obesity, 
and its related health problems, among adults.
    Obesity is one health issue that affects every single one of us--
through our families, our friends, our communities, our workplaces, and 
even our taxes. It causes more health problems than smoking, heavy 
drinking, or even poverty.
    The immediate reasons for overweight among our children are clear 
and uncomplicated: too many of them eat too much, they eat too much of 
the wrong things, and they get too little physical activity. But these 
seemingly simple factors are influenced by many forces--the too-easy 
availability of sugary, high-fat foods; enticement away from sports and 
exercise toward television and computer screens; the lack of strong 
programs of nutrition education and physical education in many 
schools--that contribute to the increasing numbers of overweight and 
out-of-shape children.
    We all bear some responsibility for this problem, and we all have 
important roles to play.
    Parents need to model healthy eating and physical activity; 
currently 6 in 10 adults are overweight, and children learn from what 
parents do at least as much as what they say. At the same time, parents 
must guide the choices of their children while they are too young to 
make informed choices alone. Families and communities can make healthy 
eating and exercise shared activities. Teachers can find ways to build 
nutrition and physical education into their curricula, and school 
administrators can work to create a healthy school environment. The 
media can help as well, by promoting nutrition and physical activity at 
times that truly reach children and their caregivers.
    And, of course, the Federal nutrition assistance programs have an 
essential role to play. We operate programs in over 93% of the schools 
across the Nation, serving over 27 million children each day. And USDA 
has been working for more than a decade to do our part:
    <bullet> As part of the President's HealthierUS Initiative, we are 
pursuing a vigorous nutrition promotion campaign, ``Eat Smart. Play 
Hard.'', to motivate healthy eating and more physical activity;
    <bullet> We are promoting healthy eating right from the start by 
expanding breastfeeding promotion and support activities;
    <bullet> We are expanding and improving program-based nutrition 
education, and other nutrition services to motivate people to eat 
healthfully; and
    <bullet> We are working to encourage schools to establish healthy 
school environments that offer nutritious foods and increase 
opportunities for physical activity through activities such as our 
HealthierUS Memorandum of Understanding with the Department of Health 
and Human Services and the Department of Education.
    Additionally, USDA has worked with schools to more closely align 
the meals they serve with the Dietary Guidelines for Americans. Today, 
over 80 percent of NSLP schools offer meals that are consistent with 
good health. We have supported these changes by improving the quality, 
variety, and nutritional content of the commodities we provide to 
schools, and by providing food service workers with training and 
technical assistance to help them prepare more nutritious and appealing 
meals.
    But there is more that we must do, and reauthorization offers us a 
prime opportunity.
    <bullet> We support expanded funding for USDA to support the 
delivery of Team Nutrition messages and materials.
    <bullet> We support requiring schools to offer low fat milk as a 
beverage option for school meals.
    <bullet> And we propose to establish a Healthy School Environment 
that supports the President's HealthierUS and No Child Left Behind 
initiatives through financial incentives to schools that choose to meet 
certain criteria.
    And so, the Administration proposes a multi-departmental approach 
to implementing HealthierUS in schools which is outcome driven.
    The Administration proposes demonstration projects in schools 
across the country that operationalize the four keystones of 
HealthierUS:
    <bullet> Nutrition--Eat a nutritious diet;
    <bullet> Physical Fitness--Be physically active each day;
    <bullet> Prevention--Get preventive screening; and
    <bullet> Avoid Risk Behaviors--Make healthy choices.
    Critical to the demonstration projects is an evaluation component 
that will provide information regarding outcomes to inform future 
policy. School districts will be asked to volunteer for the 
demonstration projects, and will be offered incentives to support the 
implementation of HealthierUS in their schools. Understanding the 
importance of local choice, schools will be able to identify if they 
want to implement one or more of the four keystones--incentives will be 
attached to each keystone and a special ``HealthierUS'' designation 
will be awarded to those schools that implement all four. The 
Departments of Agriculture, Education, and Health and Human Services 
will coordinate to achieve the goals of the demonstration projects.
    For example, to earn a ``HealthierUS'' nutrition incentive, a 
school could design a nutrition program that:
    <bullet> Serves program meals that meet Federal nutrition 
standards;
    <bullet> Offers healthful food options in vending machines, school 
canteens, and their a la carte menu service;
    <bullet> Promotes the consumption of fruits and vegetables; and
    <bullet> Delivers nutrition education and participates as a Team 
Nutrition School. Team Nutrition Schools enroll for this program to 
encourage nutrition education and related good nutrition practices at 
their schools.
    Nutrition experts could decide the specifics of these and other 
potential criteria. But the thrust of our recommendation is to give 
good nutrition a fighting chance by financially supporting local 
schools that wish to take action to promote children's health. Such an 
action empowers parents, school administrators, teachers, local 
communities, and States to improve the health of their children--a 
proper role for government, and a wise investment in the future.
    The challenge of obesity did not appear overnight; it will not be 
solved overnight, and we cannot solve it alone. But our 
responsibilities to promote the Nation's health demand action now. 
Without it, the problem will only get worse. The cost in increased 
health problems among future generations is a price that is too high to 
pay.
    We look forward to working with the Committee to develop a 
demonstration project as work to reauthorize the Child Nutrition 
Programs. The Federal government cannot create a healthy school 
environment on its own, nor can it mandate one to local schools. But it 
can offer leadership and support for schools and communities that are 
willing to invest in these efforts for the sake of our children. In 
conjunction with local school districts, we can use nutrition education 
and promotion to teach and motivate children to choose a healthy diet. 
We must also support local schools that make serious efforts to improve 
the school-eating environment and promote physical education in the 
school's curriculum, and consider financial and other incentives to 
reward their successes.
    Food safety has always been an integral part of food service for 
the Child Nutrition Programs and is an essential part of the healthy 
school environment this Administration supports. To promote food 
safety, we recommend requiring school food authorities to employ safe 
handling procedures in the preparation and service of meals to ensure 
the delivery of safe, nutritious food. It is vital that the food we 
serve in all our nutrition programs be safe and nutritious under all 
conditions.
Fighting Hunger and Obesity
    Does the epidemic of obesity mean that we have won the war on 
hunger? No. In spite of the success of our nutrition assistance 
programs, hunger remains a problem. In data for 2001, 3.5 million U.S. 
households were classified as food insecure with hunger. Low-income 
households may be eligible for more than one nutrition assistance 
program, but only five percent of eligible families receive benefits 
from food stamps, school lunch, school breakfast, and WIC in the same 
year. The majority of households participate in only one program.
    Hunger and obesity co-exist in the United States and are no more 
mutually exclusive than cancer and heart disease. The Federal 
government has a responsibility to address both, and we are committed 
to ensuring access both to enough food and to the skills and motivation 
to make healthy lifestyle choices.
Program Integrity
    However ambitious our agenda for the Child Nutrition and WIC 
Programs, we cannot realize and sustain effective change without 
careful attention to program stewardship and integrity. This is true 
for two reasons. First, program waste and abuse divert taxpayer 
resources from investment in the improvements we seek. Second, and 
perhaps more importantly, we cannot sustain these programs without 
continued public trust in our ability to manage them effectively. For 
these reasons, I consider program integrity as fundamental to our 
mission as program access or healthy eating. Program reauthorization 
provides a tremendous opportunity to improve the program by decreasing 
benefits currently paid in error and reinvesting the savings in 
targeted initiatives that increase program access and improve the 
quality of meals.
    As this Committee knows, a great deal of attention--and some 
conflicting information--has emerged in recent months regarding the 
accuracy of certifications in the National School Lunch Program. USDA 
has been examining this issue for a number of years, and while we do 
not have data that allow us to estimate the exact level of error in the 
program, we have clear indications from a number of different sources 
that there are problems with the school meals certification process. 
Further, the evidence suggests that these problems have worsened over 
time.
    Currently, households report their income on forms sent out at the 
beginning of the school year, and school lunch providers are required 
to determine program eligibility based on the data; only a small 
percentage of the information is verified. Improper certifications 
create the risk that nutrition assistance benefits intended for poor 
children go to those who are not eligible. Furthermore, data on 
children certified for free and reduced-price meals is used to 
distribute billions in Federal, State, and local education aid, so 
errors in this data can undermine targeting of essential services to 
those most in need.
    It would be irresponsible for USDA not to take steps to address the 
problem, and we have a plan for action. But before I present it to you, 
let me emphasize that the Bush Administration is committed to ensuring 
that all eligible children have access to free and reduced-price meals. 
We have had a continuing dialogue with the Congress, this Committee 
staff, the school food service community, and program advocates, and 
have been working to develop and test policy changes that improve 
accuracy but do not deter eligible children from participation in the 
program and do not impose undue burdens on local program 
administrators. The recommendations that we will pursue include:
    <bullet> Require direct certification for free meals through the 
Food Stamp Program. Direct Certification is a simplified method of 
determining some children's eligibility for free meals without having 
the family complete a free or reduced price application. The school or 
the State agency obtains documentation from the State or local Food 
Stamp Program or Temporary Assistance for Needy Families office that 
enables the school to certify these children as eligible for free 
school lunches. As provided for in the President's budget, this would 
increase access among low-income families and reduce the application 
burden for their families and schools. The process of direct 
certification is significantly more accurate than paper applications.
    <bullet> For those who must continue to apply through paper-based 
applications, enhance verification of those applications by drawing 
verification samples early in the school year, with all verifications 
to be completed within 45 days; expanding the verification sample; and 
including both a random sample and one focused on error-prone 
applications in each school.
    <bullet> Minimize barriers for eligible children who wish to 
remain in the program by requiring a robust, consistent effort in every 
State to follow-up with those who do not respond to verification 
requests. USDA would require that an initial contact to the household 
be in writing, and in the event of no response to the initial contact, 
multiple attempts at a follow-up telephone contact would be required.
    <bullet> Streamline the process for those who must still submit 
paper applications by requiring a single application for each 
household.
    <bullet> Provide for year-long certifications in both paper-based 
applications and direct certifications, eliminating the need to report 
income changes during the year.
    <bullet> Provide funding to support these new/enhanced 
administrative efforts. Let me note that while we consider this 
enhanced verification process an important step to improve integrity, 
we should not require that these expanded efforts be placed in the 
hands of already overburdened food service workers.
    <bullet> Initiate a series of comprehensive demonstration projects 
to test alternative mechanisms for certifying and verifying applicant 
information, including use of wage data matching that identifies 
eligible and ineligible households and a nationally representative 
study of overcertification error and the number of program dollars lost 
to program error.
    These recommendations include both strong steps that we can take 
immediately to address the issue, and a plan to continue research and 
demonstration efforts to build on these early steps with further 
improvements over time. Further, we expect to learn more about the 
problem of certification inaccuracy, and potential solutions in the 
coming months as the results of our research and analysis continue to 
emerge.
    The Administration has committed to reinvest any savings that 
result from an improved certification system back into the program--and 
especially to the low-income children who rely on it. Our commitment to 
maintaining access to the program for these children is fundamental, 
and the proposal I have outlined offers a substantial response to the 
certification accuracy problem without jeopardizing children's 
eligibility, or unduly burdening our schools. I look forward to working 
with you to pursue these improvements.
Special Supplemental Nutrition Program for Women, Infants and Children
    I would now like to talk about the Special Supplemental Nutrition 
Program for Women, Infants, and Children (WIC). WIC has proven to be 
one of the most successful public health nutrition programs ever 
created by Congress.
    Each month, WIC provides over 7.5 million at risk, low-income 
pregnant, breastfeeding and postpartum women, infants and very young 
children with supplemental food packages targeted to their dietary 
needs, nutrition education and referrals to health and social services. 
Nearly one-half of the infants born in this country receive WIC 
benefits.
    The success of WIC is well documented. Participation in WIC leads 
to better pregnancy outcomes--fewer infant deaths, fewer premature 
births, and increased birth weights. Medicaid savings for newborns and 
their mothers in the first 60 days after birth average between $1.77 
and $3.13 for every dollar spent on WIC. These results, we believe, are 
attributable to the unique design of the program, which is comprised 
of:
    <bullet> A nutrition prescription that allows pregnant and new 
mothers to purchase food dense in nutrients that are often lacking in 
the WIC population;
    <bullet> Individualized nutrition education and counseling; and
    <bullet> Critical referrals to other health care and social 
service assistance programs.
    As we study improvement to the WIC Program during reauthorization, 
the Administration is especially supportive of improving nutrition 
services and expanding Federal support for technology and innovation. 
In the area of technology and innovation, this Administration supports 
$30 million in annual budget authority. This money would be earmarked 
for WIC Management Information System (MIS) development and support. 
Many WIC State agencies are operating outdated systems. These funds 
would help to strengthen these systems, which are critical for 
effective program management.
    Additionally, promising improvements would result from authorizing 
a national evaluation of WIC's effectiveness every five years; 
expanding the availability of breastfeeding peer counselors to provide 
support to breastfeeding mothers; and authorizing obesity pilot 
projects to evaluate whether WIC can help prevent childhood obesity.
Conclusion
    Mr. Chairman, I appreciate the commitment and long-standing support 
of this Committee in recognizing the importance of good nutrition as 
part of an overall healthy lifestyle for all Americans. As we prepare 
to reauthorize the child nutrition programs, we are mindful of the 
critical contribution they make to life-long eating habits and good 
health.
    But, the Federal government cannot--and should not--do this job 
alone. Meeting this challenge requires all of us parents, family 
members, our schools, our communities, local and national 
organizations, industry and all levels of government, State as well as 
Federal.
    Mr. Chairman, this Administration looks forward to working with 
your Committee in reauthorizing the Child Nutrition Programs and WIC to 
enhance their effectiveness and further their impact on the health and 
nutrition of families today and in the future.
    This concludes my prepared remarks. I would be happy to answer any 
questions you might have at this time.
                                 ______
                                 
    Chairman Castle. Well, thank you, Secretary Bost.
    Mr. Bost. Thank you.
    Chairman Castle. You touched on a lot more subjects than I 
can ask about in a very brief period of time, and I'm 
appreciative of that, and unfortunately, we can only hit on 
certain things.
    I'm going to sort of stay with the health theme here for a 
while. Obviously, we have to worry about the WIC program and 
others and the funding of those kinds of things, too.
    But one question I have. We fuss about this. But I'm 
worried about the educational component in all this, but not 
education, per se, perhaps, as much as a combination of 
education and culture--that is, what we see on TV or whatever.
    Are we accepting, in the culture of the United States, not 
just TV, but in general, the fact that we have overweight kids 
that may lead to overweight adults which may lead to health 
problems, or are we trying to make some sort of a statement, 
other than those of us who take ourselves very seriously and 
come to these hearings and say these things, saying it, are we 
doing it in a way that's really going to get to people?
    Ms. Woolsey mentioned, or asked whether or not there's a 
greater problem in lower-income communities, and I have to 
believe, to some extent, there is, again because of lack of 
perhaps education and culture.
    They probably don't read Nutrition Newsletter, or whatever 
it may be, and perhaps don't get the information on the health 
connection.
    What are we doing, or what do you feel comfortable that we 
should be doing as a government in terms of cultural outreach, 
as well as the pure education?
    I mean, I know at my state fair, I hand out literature from 
our various agencies. I wonder if anybody ever reads it or if 
it's written in a way that anybody would want to read it. I 
mean, it's not the Da Vinci Code, it's something that's just 
not very interesting to a lot of people. So I'm concerned about 
that.
    In other words, how do we reach people? What can we do to 
reach people without pointing a finger and lecturing them?
    Mr. Bost. Well, I think that there are several things that 
we're currently doing in the Department that we're ultimately 
responsible for in terms of, for example, the Eat Smart and 
Play Hard campaign that essentially targets essentially 
children and to some extent their parents.
    Also, there's a Changing the Scene Kit that we actually 
have distributed to schools that teachers are able to use as a 
part of their curriculum in terms of making some informed 
decisions and choices.
    We also do a lot of work with stakeholders in terms of 
being able to get the message out.
    However, it's really important to note, because you hit on 
something that the Surgeon General also mentioned. It is really 
my belief that in this country at this juncture, we don't see 
this as a serious problem yet. It is a major problem.
    For example, 65 percent of all children in this country 
have a TV in their room--65 percent. They spend their time 
looking at TV as opposed to involved in any level of physical 
activity. They eat more. That contributes to issues of obesity.
    It's those types of issues that we need to start to address 
if we're going to start to turn this issue around.
    In terms of some specific things that we're doing to 
address the cultural aspects of this problem, one of the best 
programs that we have available to us, that's in our tool box, 
and I'll use that, is our WIC program.
    Our WIC program is a wonderful program in terms of 
providing hands-on, very individual-based nutrition education 
and counseling to mothers with their child and while their 
child is present, and so that's why we're doing some things to 
expand that program.
    In addition to that, one of the simple things that we could 
do is to encourage breast-feeding.
    Research indicates that those children that are breast-fed, 
for whatever reason, are not as likely to be obese when they 
get older. It's good for the child. It's also good and healthy 
for the mother.
    So this is a program that we have that is very important in 
terms of, one, addressing the issues of obesity that we're all 
facing, but it also goes a long way toward addressing some of 
the cultural issues that you spoke to.
    Last but not least, we are and have looked at some of the 
programs around the country that go a long way toward 
addressing some of the cultural based issues that you spoke to.
    For example, went to Alabama, met with staff in Alabama to 
talk about a program that they're devising and actually working 
with clients to start to address some of the issues that 
they're facing.
    For example, Alabama has one of the highest rates of heart 
disease of any state in the country. That's based on the way 
the types of foods that they eat are prepared. Almost 
everything is fried.
    The work that is being done at Alabama University is to 
work with persons to essentially say, ``There is nothing wrong 
with that fried catfish that you want to eat today, but maybe 
next time, why don't you broil it? Maybe the next time, why 
don't you grill it?''
    So we're providing people with some information that they 
can use, but also we're hopeful that we're able to move them in 
the direction where they're able to make some healthier 
decisions and choices.
    Chairman Castle. Thank you, Secretary Bost.
    I yield to Ms. Woolsey for 5 minutes.
    Ms. Woolsey. Thank you. I'm going to ask three questions. 
I'm not going to say anything else.
    One, what is the Department doing to ensure that funding 
will be there for these good programs you just outlined for us?
    Two, why demonstration programs when we know these programs 
work?
    Three, what do you need us to do at our reauthorization so 
that we can fulfill your wishes with WIC?
    Mr. Bost. Let's talk about your first question, 
Congresswoman Woolsey.
    If you look at all of the things that I laid out, I laid it 
out in terms of a package, and they all interrelate and they 
all fit together.
    Providing the Department and me with some latitude to put 
those pieces of the puzzle together will afford us an 
opportunity to have some money at our disposal so that we're 
able to do some of the things that I talked about.
    If you take some of those pieces away, then essentially 
it's a push-pull and money won't be available to do many of the 
things that I talked about, and so that's why it's so important 
that I presented these things as a package, because they all 
interrelate with each other.
    We're looking at using some of the improved efficiencies 
that I'm hoping to gain in this program that we will take money 
and put it back into the program, and so it's and not really 
savings. It's a redirection of money that we hope to be able to 
utilize.
    In terms of demonstration projects, you say that we know.
    Well, we have some data that would lead us to believe that 
there are some thing that are working, but I think it's really 
important that we look at providing schools with the 
opportunity to volunteer for some of the demonstration projects 
so that we can take that information and make informed 
decisions and choices that we can utilize across the entire 
country.
    Let me add some specificity to that.
    I had an opportunity to attend a conference, maybe six to 8 
weeks ago, at the University of California at Davis. The 
leading researchers around the country were there to talk about 
this issue of meeting the needs of poor people and obesity.
    And one of the things that they said was that we don't have 
enough research, we don't have enough data to make some 
informed decisions about exactly what we need to do in the 
future in terms of dealing with this issue, because it comes 
down to a basic issue of getting people to change their 
behavior in terms of decisions and choices that they make 
regarding how they eat.
    So we have some information, but the demonstration projects 
would allow us an opportunity to get, hopefully, better data 
and information.
    Ms. Woolsey. And the WIC, you want just a big basket of 
money and then you'll take care of WIC?
    Mr. Bost. Well, we're in support of the President's budget. 
The President's budget provides us, we believe, with a 
significant level of resources to meet the needs of people in 
this country that are eligible to participate in the WIC 
program.
    Ms. Woolsey. Is there anything in the budget that will help 
with the connection between a nutritious breakfast and 
learning, and for not just elementary kids but particularly for 
teenagers who don't, in some way to get them to want to eat 
breakfast?
    Mr. Bost. Well, interestingly enough, as you know, we are 
into the last year of the breakfast pilot, and--
    Ms. Woolsey. That would be mine.
    Mr. Bost. Yeah, that was yours--and we are continuing to 
review the results of that pilot information to make a 
determination of things that we need to do to extend it to 
older children.
    The one thing that we saw from the pilot was the fact that 
younger children essentially, I think 96 percent currently do 
already participate in breakfast for young children.
    For older children, and I'm specifically talking about 
teenagers now, the issue of tying breakfast to what's in it for 
them is something that we've started to talk about.
    Teenagers, as you know, are a different animal, and those 
who have had some can appreciate, what I'm saying, is the fact 
that we're trying to take a different approach in terms of just 
trying to go beyond the issue of nutrition education, but 
essentially saying what's in it for them.
    For example, one of the programs that I looked at in 
Eastland, Texas was that the high school had some of the 
athletes talk to the middle school and younger kids about 
eating healthy and eating breakfast and exercising, and it 
resonated, because you had kids that they looked up to to do 
that.
    So we're looking at those types of activities and trying to 
be innovative and creative so that we're able to look at making 
some changes to address some of these issues.
    Ms. Woolsey. I'd like to remind you, though, that it has to 
be available to them. You can't tell a kid they have to have a 
nutritious breakfast and then it's just not even there.
    So thank you.
    Mr. Bost. Absolutely.
    Ms. Woolsey. Thank you very much, Mr. Secretary.
    Mr. Bost. Absolutely.
    Chairman Castle. Thank you, Ms. Woolsey.
    Mr. Osborne.
    Mr. Osborne. Thank you, Mr. Chairman.
    Thank you for being here today. We had a chance to talk 
yesterday, so I understand much of what you're trying to do.
    I'd like to focus on a couple of areas here.
    One is, you mentioned in your testimony program integrity, 
and apparently right now, for lunch and breakfast programs, 
it's pretty much self-report in terms of your income level, and 
there's some concern about how accurate these reports are.
    And I guess one of the real concerns also that we have is 
that ofttimes, Title 1 money is distributed based on how many 
students participate in these programs, so if the data is 
inaccurate to start with, then the distribution of not just 
lunch and breakfast money but also Title 1 money can result.
    So to get this accurate, I think, is really important, and 
I think you're trying to do some things here, and I just 
wondered if you could amplify that a little bit for us as to 
what you feel you might be able to get done and what savings 
might result, and get into that a little bit.
    Mr. Bost. Well, interestingly enough, this is an issue that 
I faced when I became Under Secretary, and it's one that we've 
looked at.
    Before I get into some of the initiatives that I've, one, 
laid out, and that we hope to implement, we're looking at 
striking that balance, striking the balance of ensuring that we 
maintain or improve the integrity of our program without either 
inhibiting or preventing eligible children from participating, 
and of course not bringing an additional administrative barrier 
on the schools.
    So I'm looking at those types of initiatives that we can 
put in place that's going to be able to strike that balance so 
that all of those things occur, and we believe that some of the 
ideas that I laid out, and I'll talk about them again, will go 
a long way toward addressing some of those issues.
    First and foremost, utilization of direct certification 
through our Food Stamp program.
    Essentially, that would mean that those children and their 
families that are currently enrolled in the Food Stamp program 
would automatically be eligible for free meals.
    It would mean that they wouldn't have to produce any 
documentation at all, and so that would go a long way toward 
ensuring that they're eligible, and would be somewhat easier on 
the schools, because they would have to match up the tapes, and 
we're going to provide them with some additional monies 
essentially to do that.
    Year-long certification, which essentially means that 
they're able to do it after you've done it one time, regardless 
of the changes that may occur in your family situation, you're 
still certified for the course of the year.
    One, streamline the process for those, with a single 
application per household instead of multiple applications for 
children in the family, and of course, I think the issue that 
everyone has a significant amount of concern about is the 
enhanced verification to actually go back and check on those 
that happen to produce paper-based applications.
    But the issue for me is that we're also building into this 
process a very robust followup system to ensure that we reach 
any child that may be eligible to participate, that for 
whatever reason, may fall through the cracks.
    Very clearly, as clearly and succinctly as I can make it 
today, there's a real commitment on myself, on the part of the 
Secretary, and the President of this country to ensure that 
every single child that is eligible to participate in this 
program, that we don't do anything to prevent that from 
occurring.
    And for those, for whatever reason, whether it be through a 
misstep on their part or some administrative problem, we don't 
want that to occur, because essentially, you're taking money 
away from eligible children who should receive that free, 
whether it be lunch or breakfast.
    And so we've laid out some proposals that we feel will go a 
long way toward beginning to address this issue.
    As I've said to the stakeholders, I'm interested in putting 
something to start something out. It can't be a demonstration 
project. I think we have to go beyond that, because we won't 
receive any information or address the issue.
    I'm interested, since the all-star game was on last night, 
I'm interesting in getting to first base.
    I'm not interested in hitting a home run, because I don't 
think that we have enough reliable data to hit that home run, 
but I am interested in getting to first base, because I'm 
committed to ensuring that we improve the integrity of this 
program. I think the time is overdue for us to at least try.
    Mr. Osborne. Thank you. I yield back.
    Chairman Castle. Thank you, Mr. Osborne.
    Ms. Majette is recognized for 5 minutes.
    Ms. Majette. Thank you, Mr. Chairman, and thank you, 
doctor, for being here this morning.
    I'm very encouraged by what you've said in your testimony 
and by what you just said about the trying to streamline the 
process and make it easier to identify people who should 
participate, and making sure they continue to participate.
    Can you be a little more specific in terms of the plans 
that you have? Are there things in place, or are you 
anticipating putting things in place that will address the 
different language barriers that exist with respect to getting 
people involved in the programs?
    Mr. Bost. Well, interestingly enough, I think right now we 
interpret applications into 18 different languages already, and 
staff are continuing to work on doing that.
    We also have out reach services to help those persons that 
might have some difficulty in terms of completing applications 
to participate in our programs.
    But interestingly enough, with direct certification, it 
doesn't require a person to fill out an application. They're 
automatically enrolled if they're receiving or participating in 
the Food Stamp program.
    So that's why it goes a long way toward making it easier 
for the client and child to participate in the program, because 
essentially it doesn't mean that they have to do anything.
    If they're currently enrolled and participating in one of 
our programs, they will be automatically enrolled in the 
National School Lunch Program, receiving a free lunch.
    So that's why we believe that it goes a long way toward 
one, improving the integrity of the program, and two, making it 
easier for children to participate.
    Ms. Majette. Would that same coordination take place with 
other agencies that are also providing support for low-income 
children and families?
    I mean, we have the CHIP program, Medicaid, the Low-Income 
Home Energy Assistance Program, community service block grants. 
We are considering the reauthorization of Head Start.
    And one of the big issues that has been raised is the 
coordination of services.
    Is there some way that you see that we can continue that, 
along the lines of coordinating these various services, 
identifying people who are receiving some of these services, 
and having them be able to have a one-stop application process 
for all of these to make it easier to have access?
    Mr. Bost. Well, interestingly enough, that's one of the 
things that we're looking at and I did consider.
    Let's talk about Medicaid and S-CHIP, and why we went to 
Food Stamps. For Food Stamps, essentially, the eligibility 
requirements are the same.
    For CHIP, they vary from state to state, the eligibility 
requirements in terms of 133 percent of poverty level up to 200 
percent of the poverty level. So essentially, it was difficult 
in terms of essentially doing that.
    Another example that I'd also like to give you that we 
looked at regarding S-CHIP was the fact that even in some 
states, I think it's Arizona and one other state, that the 
eligibility requirements are different depending even on the 
age of the child.
    And so to start, we thought it would be exceptionally 
difficult and an administrative nightmare and would not make it 
easier for the schools to do, but essentially more difficult 
for the schools to do in terms of starting.
    With that said, however, we are looking at the possibility 
of providing states with a state option to add some of the 
other programs that you talked about, but one of the things 
that I would say to you is that, depending, or dependent upon 
what state and how many people were enrolled, it would add a 
significant cost to this proposal that we would not be able to 
fund. That would be one consideration.
    And two, I'm always sensitive to any additional 
administrative paperwork that we would put on the schools when 
they've told me that they want me to try to take some off.
    Ms. Majette. Do you think it would be easier if we just 
drew a bright line and had a national level that wouldn't 
require this continuing state-by-state parsing it out?
    And I'm asking that question because we're struggling here 
with this whole notion of now giving back to the states, just 
giving them the money and letting them figure it out.
    Isn't it simpler if we have one standard that everybody can 
work with and eliminate a lot of that duplication of paperwork 
and effort?
    Mr. Bost. Well, interestingly enough, it would probably 
make it easier for us to administer the program. I don't know 
if some of the states would be happy with that decision.
    Ms. Majette. But it would make it easier for--
    Mr. Bost. It would make it easier for me.
    Ms. Majette. --for you?
    Mr. Bost. But we're also in the business of affording the 
states a great deal of latitude and flexibility in terms of 
providing services to clients and students and children, 
because we believe that they do know best.
    So the issue is, it's not necessarily what I think. It's 
what would be in the best interests of meeting the needs of 
children, and that's always my focus.
    Ms. Majette. Thank you.
    Mr. Bost. Thank you.
    Chairman Castle. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, and thank you, Mr. 
Bost, for being here today, and I particularly appreciate the 
Surgeon General and yourself promoting exercise, promoting 
better nutritional habits, and I know that we're very fortunate 
that you also recognize the role of parents in promoting 
exercise.
    We've got leaders right here--Chairman John Boehner has 
been promoting young people in golf. I'm going to be doing my 
part next week--
    [Laughter.]
    Mr. Boehner. Will the gentleman yield?
    Mr. Wilson. Yes.
    Mr. Boehner. Of course, the gentleman realizes I take a 
walk every morning?
    Mr. Wilson. And walk too, yes.
    [Laughter.]
    Mr. Wilson. And I've seen the Chairman walking. It's very 
impressive.
    [Laughter.]
    Mr. Wilson. And I will be doing my part next week. I'll be 
going with my teenager, 15, to film our Boy Scout camp, for a 
100-mile backpacking trip, so I'm trying to do my part.
    But on the issue today, with more and more evidence 
pointing to the health benefits of fresh fruits and vegetables, 
what step is the Department making to promote fresh fruits and 
vegetables available in the various school meal programs?
    Mr. Bost. Well, interestingly enough, as a part of our 
commodity program, we've increased the availability of fresh 
fruits and vegetables, one, that are part of our surplus 
program, and two, that are on the list essentially for schools 
to actually request.
    I think last year alone we purchased $7 billion worth of 
fresh fruits and vegetables that we actually distributed to 
school, and also we have an MOU with the five-a-day people in 
Health and Human Services to continue to get the word out about 
its consumption, and last but not least, we're also 
recommending an expansion of the fresh fruits and vegetables 
pilot that took place in the four states/100 schools and the 
Indian reservation.
    Fresh fruits and vegetables are indeed very, very 
important, but also, whole grains are also, eating a balanced 
meal also, eating in moderation--all of those things are very 
important when we talk about encouraging people to move toward 
having a healthy lifestyle.
    I'm really trying to get away from talking about all of us 
being too chubby, because it kind of turns us off. I'm trying 
to get us all to move in the direction of encouraging all of us 
to get a healthy lifestyle.
    One of the questions that I was curious about with Chairman 
Boehner's golfing thing was, do you walk, do you carry your own 
bags, or do you ride a cart? So that's a question, you know.
    [Laughter.]
    Mr. Wilson. I wouldn't dare ask that question.
    Mr. Boehner. On Saturday, I walked.
    Mr. Bost. OK. So when we talk about playing golf, you know, 
that's one of the things that we'd have to consider.
    Mr. Wilson. But we do have a national junior golf program 
that the Chairman has been very active in.
    Another point in regard to fresh fruits and vegetables, I 
have a keen interest, with Congressman Majette, in that we feel 
that the peaches from the Southeastern United States are 
particularly helpful in promoting a glow of health, and so as 
you look around for fruits, I do want to raise that peaches are 
in ample supply.
    Ms. Majette. Will the gentleman yield?
    Mr. Wilson. Yes.
    Ms. Majette. And I do want to point out that every year we 
have the annual Peachtree Road Race, which is the largest 10-K 
in the entire country, and so people are able to enjoy that and 
get their exercise, and I guess they eat peaches later.
    Mr. Bost. Interestingly enough, let me take 30 seconds to 
respond to that by essentially saying the peach people come and 
see me, they would come and see me every day if we would let 
them.
    Mr. Wilson. Yes.
    Mr. Bost. They visit quite frequently, and believe me, we 
understand the importance of peaches, and one of the products 
that the kids love that's in one of the schools is the small 
tub of frozen peaches that the children really, really like, 
and it's a part of many of the fruit and vegetable bars that 
I've seen around the country.
    So I think peaches are well represented.
    Mr. Wilson. Well, it's certainly a great interest of the 
Congresswoman and myself, and being from South Carolina, we 
always like to point out that our sister state, which is much 
larger in terms of population and is known as the Peach State, 
is second in the Southeast after South Carolina in production.
    And I yield the balance of my time.
    Chairman Castle. On that high note, Mr. Owens.
    Mr. Owens. Thank you, Mr. Chairman.
    I would like to--I appreciate the endeavors of the 
Subcommittee, since I'm not a member of the Subcommittee, but I 
have a great interest in the child nutrition programs and free 
lunch programs, because New York City, with more than a million 
students, and 60 percent of those being eligible for free 
lunches, has the largest free lunch program in the country.
    There's a couple of questions I have, which get off the 
subject of peaches and onto the subject of milk.
    You mentioned that breast-feeding is highly desirable and 
youngsters who are breast-fed come to have a tendency to be 
less obese. In another point in your testimony, you mention the 
fact that you're encouraging low fat milk to be utilized.
    Now, we've had debates in the past on this Committee, and I 
don't know whether things have changed or not, but can you tell 
me, do we still require that all programs in the Department of 
Agriculture must serve whole milk?
    Mr. Bost. It is my understanding that that is a 
requirement.
    Mr. Owens. That's a requirement in the law, right?
    Mr. Bost. Yes, and that's why as a part of child nutrition 
reauthorization, we're also recommending that skim milk be 
offered as a choice, also.
    Mr. Owens. Well, is that a violation of the law if you 
recommend that skim milk be offered? Because we've had great 
debates here in this very room about skim milk being offered as 
an alternative and the law says whole milk must be served.
    Now you mentioned low fat milk before. Is that a violation 
of the law?
    Mr. Bost. No. What we're saying is, we're saying you can 
continue to offer whole milk, but we want schools to offer skim 
milk, also, and so not--
    Mr. Owens. The law allows you to do that?
    Mr. Bost. Well, no, not yet.
    Mr. Owens. The law does not allow you to offer skim milk as 
an alternative?
    Mr. Bost. Well, that's why we're here as a part of child 
nutrition reauthorization. That's part of my recommendation.
    And I'm saying that the law, as I understand it, says that 
you have to offer whole milk.
    What I am recommending is that I want the schools to also 
offer skim milk.
    Mr. Owens. That's part of the revision of the law that 
you're offering?
    Mr. Bost. That is correct. That is part--
    Mr. Owens. Do you have the President's support for this?
    Mr. Bost. Yes. That is one of my recommendations.
    Mr. Owens. Why do you think we have this requirement for 
whole milk?
    Mr. Bost. I can't speak to that. Apparently that happened 
before my time.
    Mr. Owens. That happened before people became more diet-
conscious, you think, in terms of these programs?
    Mr. Bost. You're asking me to suppose, and--
    Mr. Owens. Are there any other requirements for any other 
food? Do we have to serve Texas beef or Iowa pork, or are there 
any other mandates of that kind--
    Mr. Bost. No.
    Mr. Owens. --other than whole milk?
    Chairman Castle. How about Delaware chickens?
    [Laughter.]
    Ms. Woolsey. California wine.
    Mr. Boehner. Will the gentleman yield?
    Mr. Owens. I'd be happy to yield to the gentleman from 
Wisconsin, is it?
    Mr. Boehner. Mr. Bost, why wouldn't we serve to kids what 
they're willing to drink in terms of their preference of milk? 
Maybe it's skim milk, maybe it's 1 percent, maybe it's 2 
percent.
    Why wouldn't we allow a food service director to 
determine--and it wouldn't take them long to determine--what 
the children in their school, what type of milk they'd prefer 
to drink?
    Mr. Bost. I agree, we do. What we're saying in this 
specific instance, we also would like for them to be able to 
offer skim milk, too.
    Most recently, I was up in the school district up in 
Bellingham, Washington. Gaye Lynn MacDonald, who is here, does 
an outstanding job in terms of providing those types of 
choices, and I saw skim, 1 percent, 2 percent, chocolate. I saw 
all of those varieties there.
    But it's my understanding that the law says you have to 
offer whole milk.
    What I'm saying is, or the recommendation that we're making 
is, we would also like for them to say, ``We would like for you 
to also offer skim milk, low fat milk, given the fact that some 
of our children are increasingly becoming overweight.''
    Mr. Owens. Reclaiming my time, would the chair join me to 
make sure that we pull that out of the law, that requirement 
that whole milk must be offered?
    I don't think you can subsidize the chocolate milk and you 
can't subsidize the skim milk, but the subsidized milk is the 
whole milk.
    Mr. Boehner. As a member of the Ag Committee who has dealt 
with dairy policy for the last dozen years, I think I 
understand the political ramifications of why the law says what 
it says. Maybe I shouldn't be so blunt. It's total nonsense.
    Mr. Owens. I appreciate the Chairman--
    Mr. Boehner. If we want kids to drink milk, we ought to 
give them a variety of types of milk that they may drink. I 
like 2 percent. You may like skim.
    Mr. Owens. Would you join me in--
    Mr. Boehner. I'd be happy to.
    Mr. Owens. --removing that mandate?
    Mr. Boehner. I'd be happy to.
    Mr. Owens. Thank you very much. Thank you.
    Chairman Castle. Thank you, Mr. Owens.
    Ms. Woolsey, I understand, has requested an additional 5 
minutes for further questioning, and I yield to her for 5 
minutes.
    Ms. Woolsey. Thank you for letting me do this, and thank 
you, Mr. Secretary, for coming before us today. You've been 
really thorough.
    When you talk about reviewing the eligibility and 
certification verification, we have to be very careful that 
we're not spending more money to do something we're not going 
to save anything from in the long run.
    So, I mean, how are you making sure that will happen?
    And two, wouldn't it--I'm going to take you to where I want 
to be on this.
    I think it would be totally more effective if we just do 
away with that middle level reduced lunch fee in the first 
place, because that costs everybody money to implement, and it 
sets up the who's eligible, who isn't, who's embarrassed and 
who isn't.
    So would you do me a big ole favor and respond to that?
    Mr. Bost. Absolutely.
    Interestingly enough, Ms. Woolsey, that was one of the 
things that I looked at over a year or so ago when I looked at 
putting some of these proposals together, and to do away with 
reduced price would cost us anywhere between $600-and-700 
million.
    In terms of the package that I laid out, I did not think 
that, one, that was supported by the President's budget, and I 
didn't think that, in terms of the complete package that I was 
interested in putting together and the priorities that it 
established, that I could afford to do that, and that's why it 
is not one of the recommendations. That's the first point that 
I'd like to make.
    The second point that I'd like to make is the fact that we 
believe, based on the proposals that I've laid out for you this 
morning, that several things will happen, but at least two 
things will happen:
    One, it will make it easier for eligible children to 
participate in our program;
    Two, that it will save some money that we will be able to 
put back into the program;
    Three, it will improve the overall integrity of the 
program;
    And last but not least, it will probably increase the 
number of eligible children participating in the program.
    And I don't believe--well, initially, it may cost some 
money to set the system up, but in the long term, it will end 
up saving us a significant amount of money that we will be able 
to use to meet the needs of eligible children that are not 
participating in this program.
    Ms. Woolsey. Excuse me. There is a concern that many 
eligible families will opt out of the program rather than be 
scrutinized, because they will think it's going to harm them in 
other ways, and these will be kids that need to be part of the 
program. How are we going to prevent that?
    Mr. Bost. You're absolutely right, and that's one of the 
things that we're looking at, and that's why we're building 
into it a very robust followup system to address some of those 
concerns.
    Ms. Woolsey. Well, OK. Well, we're wanting to help you with 
that.
    Mr. Bost. Absolutely.
    Ms. Woolsey. Because we have to be super sensitive that we 
don't harm those that need it the most.
    Mr. Bost. And I think, and hopefully I was very clear, that 
we agree with that, and we're not interested in harming any 
eligible children.
    Ms. Woolsey. Thank you very much.
    Mr. Bost. Thank you.
    Chairman Castle. Thank you, Secretary Bost. We very much 
appreciate you being here, your very thorough testimony, and 
your willingness and ability to answer questions, and also your 
patience for waiting--
    Mr. Bost. Not a problem.
    Chairman Castle. --with our scheduling problems with Dr. 
Carmona, but we thank you and we look forward to working with 
you as we take up this legislation, which won't be until after 
the summer break, so it will be sometime in the fall.
    Mr. Bost. Thank you, Mr. Chairman, and we also look forward 
to working with you as we move forward in terms of improving 
the lives of children in this country.
    Chairman Castle. Good. This panel, then, is dismissed, and 
we will now form the second panel. We'll just take a minute or 
two to do this, so please don't take too much of a break.
    If the staff can help with this and the other panelists 
will come forward, we'll get to them just as soon as they're 
ready.
    The Subcommittee will come to order.
    As some of you may recall who were here before, we did not 
do our opening statements, which I'm entitled to and the 
ranking member, Ms. Woolsey, is also entitled to do, and we're 
going to proceed with those now, although I'm going to try to 
slice and dice a little bit here to speed things along so we 
can get to the panel as soon as possible.
    I think everybody here is cognizant of the fact by now that 
this is the first hearing to help prepare us as the 
Subcommittee for the reauthorization of the Child Nutrition Act 
of 1966, and the National School Lunch Act, which is scheduled 
for this year.
    There is general agreement on the importance of good 
nutrition for everyone, especially children.
    Child nutrition programs, including the National School 
Lunch and Breakfast Programs; the Special Supplemental 
Nutrition Program for Women, Infants, and Children, which we 
know as WIC; and the Child and Adult Care Food Program help 
give lower-income children access to nutritious meals and 
snacks.
    Proper nutrition is essential for children to achieve full 
physical development and long-term health. In addition, a 
healthy diet is critical for a child's academic success.
    Numerous studies have shown that diet affects children's 
ability to learn. There are proven linkages between diet and 
cognitive development, concentration levels, and psycho-social 
behaviors.
    The Federal child nutrition programs were conceived to 
offer wholesome meals and snacks to children in schools and 
child care centers and to support the health of lower-income 
pregnant women, breast-feeding mothers, and their young 
children.
    These programs represent a huge national investment, 
totaling over $12 billion per year. While the resources spent 
have been significant, issues remain about how to best reach 
the goal of providing lower-income children with access to 
healthy, affordable meals.
    Childhood obesity is becoming a major health problem in the 
United States, and studies suggest that overweight children are 
significantly more likely to become overweight or obese adults.
    Children are increasingly suffering from conditions 
traditionally associated with adulthood, including Type 2 
diabetes, high cholesterol, and high blood pressure. I am very 
concerned about childhood obesity and the fact that it is 
slowly becoming an epidemic.
    Last year, the U.S. Surgeon General issued a report that 
identified schools as a ``key setting'' for developing public 
health strategies to prevent and decrease overweight and 
obesity.
    Over the past several years, programs providing meals and 
snacks to children have made progress in improving lunch menus 
to meet Federal nutrition standards for fat and calories, but I 
believe more can be done to provide every child with a school 
environment that promotes healthy food choices and regular 
physical activity. Obviously, we've heard a lot about that 
already today.
    In an effort to address this issue, I introduced 
legislation, H.R. 2227, the Childhood Obesity Prevention Act, 
that would authorize grants to fund pilot programs at the state 
and local levels to encourage the development and 
implementation of programs to promote healthy eating and 
increased physical activity among children.
    This Committee will examine additional ways to address the 
important and complex issue of childhood obesity during the 
child nutrition reauthorization while supporting the role of 
local school districts to make decisions about the foods that 
are available to children in school.
    During reauthorization, the Committee will also consider 
the challenges faced by the WIC program as well as issues 
related to school meal reimbursement, the School Breakfast 
Program, and other relevant provisions aiming to strengthen the 
nation's child nutrition programs.
    Today, we will hear from experts--already heard from a 
couple--who will help shed light on these programs, their 
merits, and areas where they can be made stronger.
    Our witnesses' unique perspectives on child nutrition and 
health will offer insights that will be tremendously helpful to 
the members of the Committee, as we work to improve child 
nutrition programs, and we look forward to the comments of all 
of you.
    And I turn to Ms. Woolsey for her opening statement.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Authorizing the child nutrition programs is going to be a 
huge challenge. There are so many programs, so many issues to 
consider, and so little money.
    With yesterday's report on the national deficit being the 
largest in U.S. history, and worsening, I am truly worried, and 
we are going to be truly challenged when we work on this.
    I know that there have been proposals to use 
recertification to find additional funds, and while I'm not 
totally ruling it out at this point, I do want to express my 
very deep commitment to doing nothing in this reauthorization 
that would result in more hungry children or fewer hungry 
children having access to meals and snacks both in and out of 
school.
    The primary goal of this reauthorization just has to be an 
increase in the opportunities for low-income infants and 
children to have nutritious food at home, in child care centers 
and homes, at school, and when school is out for the day or the 
year.,
    Anytime the economy takes a turn for the worse, as it has 
done for a while now, you can see it first in the number of 
low-income children who don't have enough to eat, particularly 
at home. We need to figure out ways to get more food to hungry 
kids, particularly kids in the working poor families.
    In addition to that, we should be trying to help all 
children make healthy eating choices.
    I certainly don't mean that we or anyone else should become 
the food police, but schools can be offered incentives to make 
healthy food available to children and schools can educate so 
that children will choose those healthy foods.
    I have a few specific issues that are near and dear to my 
heart, such as the expansion of the Universal School Breakfast 
Pilot, and adding teenagers to it, but this is our first 
hearing, and I plan to listen. I plan to ask questions. I plan 
to learn from all of these wonderfully knowledgeable witnesses.
    I thank you all for coming. You are a great resource to us. 
So thank you for having this hearing, Mr. Chairman, and thank 
you all for coming today.
    Chairman Castle. Thank you, Ms. Woolsey, and with that, we 
will now turn to our panel.
    I'll introduce each of you and then we'll follow as we did 
before. Each of you will testify and then we'll take turns 
asking questions here.
    Our lead-off hitter today, referring to the all-star game 
again, I guess, is Dr. Tom Baranowski, who is Professor of 
Pediatrics specializing in behavioral nutrition at the 
Children's Nutrition Research Center at Baylor College of 
Medicine.
    Dr. Baranowski's research is directed toward understanding 
children's eating and physical activity choices and evaluating 
programs to help change these behaviors. His specific areas of 
interest are in fruit, juice, and vegetable consumption, 
obesity prevention, and physical activity behaviors.
    In addition to his current involvement as primary 
investigator for four grant-funded nutrition and physical 
activity research studies, Dr. Baranowski is also serving on 
advisory committees at the Institute of Medicine, National 
Academy of Sciences, and the National Institutes of Health.
    He's accompanied today by Dr. Karen Cullen, who is an 
Associate Professor of Pediatrics at the Children's Nutrition 
Research Center at Baylor College of Medicine, and her work 
focuses on development of programs that improve children's 
fruit and vegetable consumption and reduces their dietary fat 
intake.
    Dr. Cullen has participated in the development of several 
five-a-day programs for children and adolescents, and she is 
currently evaluating an innovative snack bar, fruit juice, and 
vegetable intervention program for middle school students that 
was implemented in 10 Houston area middle schools, and she'll 
be assisting Dr. Baranowski during the question period.
    The second witness who will actually testify today is Ms. 
Betsy Clarke, who is the Director of Supplemental Nutritional 
Nutrition Programs for the Minnesota Department of Health. Ms. 
Clarke is a founding member of the National Association of WIC 
Directors, which is now known as the National WIC Association, 
or NWA.
    She previously held NWA offices of Vice President and State 
Director Representative, and is currently serving as President 
of the National WIC Association.
    Ms. Clarke, along with other NWA partners, helped develop 
the WIC infant formula purchasing, which contributes over $1.5 
billion per year to WIC funding nationally.
    Our next witness will be Gaye Lynn MacDonald. Ms. MacDonald 
is Manager of Food Services at Bellingham Public Schools in 
Bellingham, Washington and the President of the American School 
Food Service Association.
    The American School Food Service Association represents 
food service operations, staff, and school food directors 
across the nation. ASFSA has 52 state affiliates, hundreds of 
local chapters, and over 55,000 members.
    Accompanying Ms. MacDonald today is my constituent, Ms. 
Angelucci, who is the Legislative Chair of the Delaware School 
Food Service Association as well as the Food Service Supervisor 
in the Colonial School District located in New Castle, 
Delaware, and was probably sent here today to keep me straight, 
if I had to guess.
    Our final witness, our cleanup hitter, using the baseball 
analogy again, is Dr. Deborah Frank, who is a pediatrician and 
the Director of the Grow Clinic for Children at the Boston 
Medical Center.
    Dr. Frank also serves as a Professor of Pediatrics at the 
Boston University Medical School and as an Assistant Professor 
of Public Health at the Boston University School of Public 
Health.
    Cited is a respected authority in her field, Dr. Frank 
focuses on child advocacy and fighting child hunger. Throughout 
her career, Dr. Frank has served on numerous anti-hunger 
committees and advisory boards.
    Before the panel begins, let me apologize. All of us serve, 
as you may know, on more than one Committee.
    I happen to serve on the Financial Services Committee, and 
we're having a markup and votes over there, so I may have to 
just rise abruptly and go running out of here in order to make 
votes and actually participate in something that's important. 
Mr. Osborne has been kind enough to sit in when that happens.
    So if I disappear, it's for valid legislative reasons that 
I disappear. Any of us have those problems from time to time.
    You're an extremely qualified group of witnesses, and we're 
delighted to have you here, and we look forward to your 
testimony, and now we will start with Dr. Baranowski.

     STATEMENT OF TOM BARANOWSKI, PROFESSOR OF PEDIATRICS 
  (BEHAVIORAL NUTRITION), USDA CHILDREN'S NUTRITION RESEARCH 
CENTER, BAYLOR COLLEGE OF MEDICINE, HOUSTON, TEXAS, ACCOMPANIED 
    BY KAREN W. CULLEN, ASSOCIATE PROFESSOR OF PEDIATRICS, 
    CHILDREN'S NUTRITION RESEARCH CENTER, BAYLOR COLLEGE OF 
                    MEDICINE, HOUSTON, TEXAS

    Dr. Baranowski. Thank you, Mr. Castle. It's an enormous 
privilege for us to present to the U.S. Congress.
    The U.S. currently faces an obesity epidemic which will 
have enormous consequences for the health care system and 
health care costs. The children in the United States are the 
heaviest in the world, and they're still getting fatter.
    This rapid rise in obesity is almost certainly due to 
changes in our environment and in our behaviors, not in 
genetics, since changes in the gene pool require many 
centuries.
    Having children eat more fruit and vegetables and get more 
physical activity would both be protective against obesity.
    With over 95 percent of children in school, schools are an 
important environment. Schools are a major source of children's 
nutrition and physical activity information via the curriculum, 
a major food environment, and provide opportunities for 
physical activity. Schools also can reach out to parents.
    Elementary schools are a major source of fruit and 
vegetables for students, but when children get to middle 
schools with snack bars, their consumption of fruit and 
vegetables declines, and their consumption of higher fat and 
sugar foods increases.
    Also, in many low-income middle schools, there is a sigma 
attached to eating the National School Lunch Program meal on 
the part of students, teachers, and staff. Many even very-low-
income students would rather buy foods from the snack bar and 
vending machines than eat the free lunch, to avoid the stigma.
    Comments from students were that, ``We know what to eat ... 
we eat this way because we can,'' which suggests that the lack 
of knowledge of what to eat to be healthy is not the primary 
problem.
    We have also reviewed the literature on school-based 
obesity prevention programs. Many different types of programs 
have been tried. Few of these programs were effective at 
changing obesity.
    The bottom line was that the problem is complex and there 
are no simple, safe, easy-to-implement, and inexpensive 
solutions to this enormous problem. As a society, we have to 
make an investment in our children to avoid obesity and its 
serious consequences.
    We believe that there are things that could be done to 
improve the situation. Schools alone cannot be blamed for the 
epidemic of obesity. The schools alone cannot solve the 
problems, but they can play an important role in reversing the 
current situation.
    First, our research has shown that children tend to eat the 
foods that are available to them--not rocket science, but a 
fact.
    This suggests that we should encourage schools to offer a 
variety of healthier foods. This would include offering more 
attractively prepared and packaged fruit and vegetables offered 
in ways that children like to eat them, offer more access to 
water in a form desired by children, and better market these 
items to children within the school to enhance their 
attractiveness--or ``coolness''--to eat.
    Second, since many children in middle and high schools are 
not currently eating the National School Lunch Program lunch, 
we need to reduce the stigma.
    Making the School Lunch Program attractive to all students 
will require addressing the quality and costs of the pre-
prepared foods used in those school food services, innovative 
approaches and changes in the school food guidelines, and 
marketing a revised and enhanced National School Lunch Program 
to children.
    Third, some have advocated for restricting foods in the 
schools.
    While we agree that some foods are better for health, like 
fruit and vegetables, and others may be less desirable, all 
foods can have a place in a healthy diet.
    Health through optimal nutrition is a question of balance, 
variety, and moderation. Simply restricting foods in school 
will work for some children, but many will go elsewhere to buy 
foods they want, with the school losing the child's dollar.
    Effective programs will likely introduce healthy 
alternatives in a form attractive to children, within the 
context of a marketing program to change the perceptions of the 
student body, faculty, and staff, a nutrition education 
curriculum that promotes healthful dietary change, and controls 
placed on portions available to children of the less desirable 
products, like small bags of potato chips.
    Fourth, physical activity is another necessary component of 
the solution.
    Restoring physical education to schools that have dropped 
or limited it would be important. Increasing the amount of 
physical activity during the physical education period is an 
important step, since many students are active for only short 
periods of time during PE.
    But how best to accomplish this is complex in a PE period 
that may have 200 students, only three PE teachers, and only 
one gym. How best to engage children in physical activity when 
they may not want to poses challenges. Marketing research on 
school physical activity is needed.
    Other areas to be explored include programs for after-
school physical activity, walking to school, making the streets 
safer and child-friendly streets for walking and bicycling, and 
reducing TV watching. Any new programs introduced should be 
thoroughly evaluated to ensure they attain the desired ends.
    A major limitation on action at this time is that the 
primary contributors to the obesity epidemic are not clear. 
Researchers have identified several likely causes, including 
increased consumption of fast foods and soft drinks, low 
consumption of fruit, vegetables, water, and milk, excessive TV 
watching, poor physical education, low physical activity, and 
various other contributing factors.
    While there is likely an element of truth to all these, 
some of these factors are more likely, and some are larger 
contributors than others. Research is necessary to better 
understand the problem.
    The research should not stop efforts to deal with obesity 
now, but would give clearer guidance to effective steps that 
could be taken in the future.
    Although we may learn the most important factors 
contributing to obesity, we may not know how to effectively 
change them. Behavioral research is needed to develop and test 
procedures to encourage change and to understand the processes 
by which change occurs.
    The National Institutes of Health, the U.S. Department of 
Agriculture, the National Academy of Sciences, and other 
agencies have extensively funded the biological sciences for 
billions of dollars per year to very good advantage. It has 
taken 40 years of major investment to get to the point of 
knowing the molecular processes that predispose to disease and 
to divine effective cellular and molecular solutions for 
disease processes.
    Since the current obesity epidemic is largely environmental 
and behavioral in origin, a similar investment must be made in 
behavioral research.
    Why do we eat the foods that we eat? Why are some of us 
physically active and others not? How can we help people to 
make effective choices for health, in part through healthier 
environments?
    Changing a small number of behaviors--for example, 
increasing fruit and vegetable consumption and physical 
activity--could have broad health effects, preventing heart 
disease, several cancers, stroke, diabetes, and many other 
adult chronic diseases. This would appear to be an outcome 
worth the investment.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Baranowski follows:]


  Statement of Tom Baranowski PhD and Karen W. Cullen, DrPH, RD, USDA 
    funded Children's Nutrition Research Center, Baylor College of 
                         Medicine, Houston, TX

    Dr. Cullen and I are Behavioral Nutritionists from the Children's 
Nutrition Research Center of the Baylor College of Medicine in Houston, 
Texas. We study the factors that influence children's diet intake and 
physical activity, and design and evaluate programs to help children 
and their families improve these behaviors.
    The U.S. currently faces an obesity epidemic which will have 
enormous consequences for the health care system and health care costs. 
The children in the U.S. are the heaviest in the world and they are 
still getting fatter. This rapid rise in obesity is almost certainly 
due to changes in our environment and in our behaviors, not in 
genetics, since changes in the gene pool require many centuries. Having 
children eat more fruit and vegetables and get more physical activity 
would both be protective against obesity.
    With over 95% of children in school, schools are an important 
environment. Schools are a major source of children's nutrition and 
physical activity information via the curriculum, a major food 
environment and provide opportunities for physical activity. Schools 
can also reach out to parents.
    Elementary schools are a major source of fruit and vegetables for 
students, but when children get to the middle schools with snacks, 
their consumption of fruit and vegetables decline, and their 
consumption of higher fat and sugar foods increases. Also, in many low 
income middle schools, there is a stigma attached to eating the 
National School Lunch Program (NSLP) meals, on the part of students, 
teachers and staff. Many even very low income students would rather buy 
foods from the snack bar and vending machines than eat the free NSLP 
lunch to avoid the stigma. Comments from students were that ``we know 
what to eat...we eat this way because we can,'' which suggests the lack 
of knowledge of what to eat to be healthy is not the primary problem.
    We have also reviewed the literature on school based obesity 
prevention programs. Many different types of programs have been tried. 
Few of these programs were effective at changing obesity. The bottom 
line was that the problem is complex, and there are no simple, safe, 
easy to implement and inexpensive solutions to this enormous problem. 
As a society we have to make an investment in our children to avoid 
obesity and its serious consequences.
    We believe that there are things that could be done to improve the 
situation. Schools alone cannot be blamed for the epidemic of obesity. 
They cannot solve the problems alone, but they can play an important 
role in reversing the current situation.
    First, our research has shown that children tend to eat the foods 
that are available to them. This suggests that we should encourage 
schools to offer a variety of healthier foods. This would include 
offering more attractively prepared and packaged fruit and vegetables 
offered in ways children like to eat them, offer more access to water 
in a form desired by children, and better market these items to 
children to enhance their attractiveness (``coolness'' to eat).
    Second, since many children in middle and high schools are not 
currently eating the NSLP lunch, we need to reduce the stigma. Making 
the NSLP meal attractive to all students will require addressing the 
quality and costs of the pre-prepared foods used in most school food 
services, innovative approaches and changes in the school food 
guidelines and marketing a revised, enhanced NSLP to children.
    Third, some have advocated for restricting foods in the schools. 
While we agree that some foods are better for health (like fruit and 
vegetables) and others may be less desirable, all foods can have a 
place in a healthy diet. Health through optimal nutrition is a question 
of balance, variety and moderation. Simply restricting foods in school 
will work for some children, but many will go elsewhere to buy the 
foods they want (with the school losing the student's dollar). 
Effective programs will likely introduce healthy alternatives in a form 
attractive to children, within the context of a marketing program to 
change the perceptions of the student body, faculty and staff, a 
nutrition education curriculum that promotes healthful dietary change, 
and controls placed on portions available to children of the less 
desirable options (e.g. small bags of chips).
    Fourth, physical activity is another necessary component of the 
solution. Restoring physical education to schools that have dropped or 
limited it would be important. Increasing the amount of physical 
activity during a physical education (PE) period is an important step 
since many students are active for only short periods during PE. But 
how best to accomplish this is complex in a PE period that may have 200 
students, only 3 PE teachers and only one gym. How best to engage 
children in physical activity when they may not want to, poses 
challenges. Marketing research on school PA is needed. Other areas to 
be explored include programs for after school physical activity, 
walking to school, making the streets safer and child friendly for 
walking and bicycling, and reducing TV watching. Any new programs 
introduced should be thoroughly evaluated to ensure they attain the 
desired ends.
    A major limitation on action taken at this time is that the primary 
contributors to the obesity epidemic are not clear. Researchers have 
identified several likely causes including increased consumption of 
fast foods and soft drinks, low consumption of fruit, vegetables, water 
and milk, excessive TV watching, poor physical education, low physical 
activity and various other contributing factors. While there is likely 
an element of truth to all these, some factors are more likely, and 
larger contributors, than others. Research is necessary to better 
understand the problem. This research should not stop efforts to deal 
with obesity now, but would give clearer guidance to effective steps 
that could be taken in the future.
    Although we may learn the most important factors contributing to 
obesity, we may not know how to effectively change them. Behavioral 
research is needed to develop and test procedures to encourage change 
and to understand the processes by which change occurs.
    The National Institutes of Health, U.S. Department of Agriculture, 
National Academy of Sciences and other agencies have extensively funded 
the biological sciences for billions of dollars per year to very good 
advantage. It has taken 40 years of major investment to get to the 
point of knowing the molecular processes that predispose to disease, 
and divine effective cellular and molecular solutions for disease 
processes. Since the current obesity epidemic is largely environmental 
and behavioral in origin, a similar investment must be made in 
behavioral research. Why do we eat the foods we eat? Why are some of us 
physically active and others not? How can we help people make effective 
choices for health, in part through healthier environments? Changing a 
small number of behaviors (e.g. increasing fruit and vegetable 
consumption and physical activity) could have broad health effects, 
preventing heart disease, several cancers, stroke, diabetes, and many 
other adult chronic diseases. This would appear to be an outcome worth 
the investment.
                                 ______
                                 
    Chairman Castle. Thank you, Dr. Baranowski.
    Ms. Clarke.

   STATEMENT OF BETSY CLARKE, DIRECTOR, WOMEN, INFANTS, AND 
 CHILDREN PROGRAM, STATE OF MINNESOTA, AND PRESIDENT, NATIONAL 
                        WIC ASSOCIATION

    Ms. Clarke. Thank you, Mr. Chairman.
    Chairman Castle. Can you--that may be a little hard to do--
get that as close to you as you can, make sure it's on, and all 
those kinds of things?
    Ms. Clarke. OK.
    Chairman Castle. Good. Thanks. Great.
    Ms. Clarke. Good morning. Thank you, Mr. Chairman, members 
of the Committee.
    We appreciate your invitation to present for the National 
WIC Association and our view on reauthorization of the WIC 
Program.
    At the outset, I would like to thank you, Mr. Chairman, and 
members of the Committee, for your commitment to WIC, as well 
as President Bush and Secretary Veneman for their support.
    The National WIC Association is proud of the strong 
bipartisan commitment WIC has had since its inception. WIC has 
an extraordinary, nearly 30-year record of preventing 
children's health problems and improving their health, growth, 
and development. WIC children enter school ready to learn.
    In the December 2001 Report to Congress, the GAO identified 
six challenges, and with your permission, I'd like to highlight 
our proposed responses.
    First, Coordinating Nutrition Services with Health and 
Welfare Programs.
    WIC has become the single greatest entry point for health 
services contact for many WIC families.
    To achieve better coordination of WIC Services with other 
programs, to eliminate unnecessary clinic visits for working 
families, to provide for more adequate nutrition counseling 
time, and to streamline paperwork, the National WIC Association 
recommends giving states the option to extend certification 
periods for up to 1 year for children and breast-feeding women.
    Meeting Increased Program Requirements with Available 
Resources.
    WIC resources are being stretched in unimaginable ways. 
Currently, WIC staffs are mandated to provide participant 
information on a wide variety of subjects, some of which relate 
to WIC's mission, while others do not.
    Each minute of an unfunded mandate results in the loss of 
over 125,000 hours of nutrition education interventions 
annually. The GAO identified at least nine new program 
requirements that have been added to WIC since 1988 without 
additional funding.
    WIC is proud to play the role that we play in our public 
health system. However, expecting so much of WIC while 
providing no commensurate resources challenges the WIC 
infrastructure, staff, and the families WIC serves.
    Indeed, these unfunded mandates may eventually contribute 
to a lessening of WIC's ability to achieve the outstanding 
health and nutrition outcomes demonstrated by numerous program 
evaluations.
    Responding to Health and Demographic Changes in WIC's 
Populations.
    WIC's population, like the general population, has 
experienced increases in the prevalence of overweight and 
related health issues. In addition, there have been dramatic 
increases in the ethnic diversity of WIC's population.
    The National WIC Association recommends:
    First, while WIC programs have been actively engaged in 
obesity prevention efforts, the program's definition of 
nutrition education may be self-limiting.
    The National WIC Association recommends expanding the 
definition of nutrition education to allow but not mandate 
anticipatory guidance related to physical activity, feeding 
relationships, and child development.
    Second, the current WIC food package is now nearly 30 years 
old, and no longer consistent with current science. WIC 
agencies have independently taken steps to combat the nation's 
obesity epidemic by modifying the food package within current 
regulations.
    Agencies provide low-fat milk and cheese, reducing the 
cholesterol, fats, and calories of the food package. Simply 
put, the WIC food package is not a cause of obesity. But more 
can be done.
    In the year 2000, the National WIC Association recommended 
changes to the WIC food package to reflect current nutrition 
science, improve dietary intake, and reduce the incidence of 
obesity, including broader choices and foods that reflect 
diverse cultural dietary patterns.
    While Under Secretary Bost and his FNS team are to be 
commended for their efforts to publish a proposed rule on the 
WIC food package and applauded for their referring the food 
package evaluation to the Institute of Medicine, the time has 
passed for WIC to provide healthful changes in and enhance the 
food package.
    The National WIC Association recommends USDA report to 
Congress within 6 months of authorization on National Academy 
of Sciences' Institute of Medicine's review of the food package 
and that USDA publish, within 6 months of the release of the 
IOM Report, a proposal to revise the WIC food package.
    Third, in the interim period, NWA asks Congress to direct 
USDA to allow states to implement pilot or demonstration 
projects which would allow for food substitutions such as 
fresh, frozen, and canned fruits and vegetables and food items 
responsive to the needs of WIC's culturally diverse 
populations.
    Fourth, NWA recommends that the Institute of Medicine 
reevaluate the WIC food package every 10 years, recommending 
changes to reflect current nutrition science.
    Fifth, the competitive bid requirement for infant formula 
has resulted in significant savings to the WIC program, 
allowing WIC to serve roughly one in five participants.
    NWA urges Congress to ensure that this vital and highly 
successful program element is protected. The current funding 
formula does not allow states sufficient NSA funds to support 
funded participation levels or to maintain and protect client 
services, integrity, or USDA initiatives.
    NWA recommends that states have the option to convert 
unspent food funds to NSA and apply a portion of the cost 
savings dollars received to nutrition services.
    With that, finally, Mr. Chairman and members of the 
Committee, NWA looks forward to working with you in this 
reauthorization process.
    I'll answer any questions.
    [The prepared statement of Ms. Clarke follows:]

Statement of Betsy Clarke, MS, President, National WIC Association, and 
                     Director, Minnesota State WIC

    Thank you Mr. Chairman and members of the Committee, for your 
invitation to present the National WIC Association's views on 
reauthorization of the Special Supplemental Nutrition Program for 
Women, Infants and Children, known as WIC. As NWA's President, I am 
speaking on behalf of the thousands of nationally recognized WIC health 
professionals, nutritionists and dietitians who are committed to 
addressing the nutrition and healthcare needs of WIC families. Our 
members serve over 7.5 million participants through 2,100 WIC agencies 
in 10,000 WIC clinics each month. They are the front lines battling to 
improve the quality of life for our most vulnerable populations.
    With your permission I would also like to introduce a member of the 
NWA team accompanying me today who is available here in Washington to 
address any questions you may have following the hearing--the Rev. 
Douglas A. Greenaway, Executive Director of the Association.
    At the outset, I would like to thank you Mr. Chairman and members 
of the Committee for your long-term commitment to WIC and the other 
Child Nutrition Programs as well as the President and Secretary Veneman 
and their teams for their tremendous support of WIC. NWA is proud of 
the strong bi-partisan commitment WIC has engendered since its 
inception. The future of our nation's low-income women, infants and 
children depend upon your support.
    WIC is a short-term intervention program designed to influence 
lifetime nutrition and health behaviors in a targeted, high-risk 
population. It has an extraordinary, nearly 30-year record of 
preventing children's health problems and improving their health, 
growth and development. WIC children enter school ready to learn. They 
show better cognitive performance.
    Quality nutrition services are the centerpiece of WIC: nutrition 
and breastfeeding education, nutritious foods, and improved healthcare 
access for low and moderate income women and children with, or at risk 
of developing, nutrition-related health problems. WIC serves almost 
one-half of all infants born in this country and roughly 1 in 4 of all 
children between one and four years of age.
    WIC's committed, results oriented, entrepreneurial staff stretch 
resources to serve all eligible women and children and ensure program 
effectiveness and integrity.
    Mindful of the challenges WIC faces in delivering high-quality 
nutrition services, during the last reauthorization cycle NWA asked 
Congress to invite the General Accounting Office, GAO, to examine those 
challenges.
    In its December 2001 report to Congress entitled, ``Food 
Assistance: WIC Faces Challenges in Providing Nutrition Services,'' GAO 
identified six challenges: coordinating nutrition services with health 
and welfare programs, meeting increased program requirements with 
available resources, responding to health and demographic changes in 
WIC's populations, meeting increased program requirements, improving 
the use of information technology to enhance service delivery and 
program management, assessing the effects of nutrition services, and 
recruiting and retaining skilled staff.
    To these, NWA has added an additional challenge: visioning the 
future landscape of WIC. A copy of our legislative proposals, including 
suggested bill language, has been attached to our written testimony.
    With your permission, I would like to highlight our proposed 
responses to these challenges:

Coordinating Nutrition Services with Health and Welfare Programs
    Local public health departments are reducing or eliminating 
referral and case management services. WIC is consistently challenged 
to coordinate with other health and welfare program services. Indeed, 
in the current environment of fewer services, WIC has become the single 
greatest point of health services contact for many WIC families.
    To achieve better coordination with healthcare services, eliminate 
unnecessary clinic visits, reduce invasive blood work for infants and 
children, provide for more nutrition counseling time and streamline 
paperwork for clients and clinic, NWA recommends giving states the 
option to extend certification periods for up to one year for children 
and breastfeeding women, or until women stop breastfeeding, whichever 
is earlier.
    To offer families flexibility for physical presence because of 
distance, transportation, weather, other local conditions or special 
needs hardships, NWA recommends that where participants are receiving 
on-going health services from a provider that the physical presence 
requirement for children be required to be met one time, at some time 
during the certification period and not necessarily at the time of 
certification.

Meeting Increased Program Requirements with Available Resources
    NWA and USDA/FNS have worked together over the past two years to 
reinvent the way nutrition education is delivered to participants. We 
continue to work to enhance these efforts. Both the quality of time and 
the availability of time that WIC nutrition staff have available to 
spend with WIC participants is critical to the success of the nutrition 
and health care intervention.
    WIC resources are being stretched in unimaginable ways. Currently, 
WIC staffs provide participants with information on a wide variety of 
subjects ranging from alcohol and drug abuse to voter registration. 
Some of these responsibilities relate to the mission of WIC, others do 
not. Each minute of an unfunded mandate results in the loss of over 
125,000 hours of nutrition education interventions annually.
    The GAO has identified at least nine new program requirements that 
have been added to WIC since 1988 without a commensurate increase in 
nutrition services administrative funding.
    The GAO writes in its report that ``with the reduction in the 
number of public health departments serving women and children, public 
health officials have increasingly turned to WIC to help address the 
health needs of low-income children. According to CDC, WIC has become 
the single largest point of access to health related service for low-
income preschool children. Consequently, the CDC has turned to WIC to 
provide services traditionally funded by other federal, state and local 
health funds, such as identifying children who are not immunized.''
    WIC is proud of the significant and critical role that we play in 
our public health system. However, expecting so much of WIC while 
providing no commensurate resources as we assume these additional 
responsibilities challenges not only WIC infrastructure and staff, but 
increasingly the families that WIC works so hard to serve. Indeed, 
these unfounded mandates may eventually contribute to a lessoning of 
WIC's ability to achieve the outstanding health and nutrition outcomes 
demonstrated by numerous program evaluations.
    To protect the quality of WIC nutrition and healthcare services and 
the limited nutrition services administrative dollars that are 
available to WIC, NWA recommends that the administrative costs that WIC 
encumbers related to providing services for other programs should be 
reimbursed by those programs.
    Moreover, to guarantee the integrity and quality of WIC nutrition 
and healthcare services and to maintain the nutrition and health 
mission of WIC, NWA recommends exempting WIC from services that are 
inconsistent with the intent and purpose of the Program.
    To preserve the integrity of basic WIC services--nutrition benefits 
and coordinated healthcare, to streamline paperwork and reduce 
administrative costs and reduce service barriers, NWA recommends 
exempting WIC from the requirements of the National Voter Registration 
Act and the requirement to offer voter registration applications and 
document these opportunities for all applicants and participants.

Responding To Health and Demographic Changes in WIC's Populations
    WIC's population, like the general population has experienced 
dramatic increases in the prevalence of overweight and related health 
issues. In addition, there have been dramatic increases in the diverse 
ethnicity of WIC's population. To respond to the health and demographic 
changes in WIC's populations, NWA recommends a six-point approach.
    First, while WIC Programs across the nation have been actively 
engaged in obesity prevention efforts since the turn of the millennium, 
the Program's definition of nutrition education may be self-limiting. 
To positively affect our nation's most serious nutritional problems--
obesity and related health consequences, NWA recommends expanding the 
definition of nutrition education to allow, but not mandate, 
anticipatory guidance related to physical activity, feeding 
relationships and child development as part of approved nutrition 
education activities.
    Second, the current WIC food package is now nearly 30 years old and 
no longer consistent with current dietary guidelines and science. WIC 
agencies have independently, within allowable guidelines, taken steps 
to combat the nation's epidemic of overweight and obesity by modifying 
the food package within the current regulations. For example, agencies 
provide low and reduced fat milk and cheese, reducing the total 
cholesterol, fats and calories of the food package. Agencies also 
tailor the food package to assist participants in weight management and 
to meet other dietary needs. Simply put, the WIC food package in and of 
itself is not a contributing factor to obesity.
    Nevertheless, in 2000, NWA recommended changes to the WIC food 
package to reflect current nutrition science, improve dietary intake 
and reduce the incidence of obesity including broader choices of grain 
products, addition of fresh, frozen or canned fruits and vegetables, 
reduced quantities of juice for infants, offering low-fat milk as the 
standard, reduced quantities of cheese and foods that reflect diverse 
dietary cultural patterns.
    While Under Secretary Bost and his team at the Food & Nutrition 
Service are to be commended for their efforts to publish a proposed 
rule on the WIC Food Package, a proposal has yet to be published. The 
time has past for WIC to provide healthful changes and enhance the food 
package, improving WIC nutritionists' flexibility in prescribing foods 
and responding to America's obesity epidemic.
    NWA recommends USDA report to Congress within 6 months of enactment 
of reauthorization legislation on the status of the National Academy of 
Sciences' Institute of Medicine (IOM) review of the WIC food packages 
and efforts to adopt a comprehensive food package proposal that 
reflects the need for fresh, frozen and canned fruits and vegetables 
and culturally appropriate foods responsive to participants nutritional 
needs and consistent with national nutrition guidelines. Also that USDA 
publish within 6 months of the release of the IOM report to Congress a 
comprehensive proposed rule to revise the WIC food package to meet 
these minimum changes.
    Third, in the interim period as we await the report of the 
Institute of Medicine and USDA to Congress, NWA asks Congress to direct 
USDA/FNS to allow states to implement pilot or demonstration projects 
which would allow for food substitutions, including fresh, frozen or 
canned fruits and vegetables and food items responsive to the needs of 
the diverse cultural populations WIC serves.
    It should be noted, Mr. Chairman, that NWA supports a federally 
approved WIC food list that includes national, store and private label 
brands, giving states flexibility to select WIC foods to manage food 
costs and nutritional options for participants.
    Fourth, NWA supports USDA's current intentions to have the National 
Academy of Sciences' Institute of Medicine re-evaluate the WIC food 
package. To ensure that WIC foods continue to provide healthful food 
supplements for WIC families and complement nutrition education efforts 
NWA further recommends that the National Academy of Sciences' Institute 
of Medicine re-evaluate the WIC food package at least every 10 years, 
recommending changes to reflect current national nutrition science and 
concerns.
    Fifth, the competitive bidding requirement for infant formula has 
resulted in significant savings to the WIC Program. Indeed, USDA 
reports that use of competitive bidding reduces federal WIC costs by 
approximately $1.5 billion a year. Roughly 1 in 5 WIC participants are 
able to participate in WIC because of the infant formula cost 
containment program. It generated $1.7 billion last year in non-tax 
revenue for WIC. Efforts to weaken this program will have unintended 
consequences on the Program and NWA opposes efforts to weaken 
competitive bidding requirements and urges Congress to work closely 
with the Association and USDA to ensure that this vital program element 
is protected.
    Among the Federal Regulations related to the competitive bidding 
requirement are regulations which potentially put formula fed WIC 
infants at health risk. These regulations set a maximum amount for 
infant formula to be issued to WIC participants each month at a rate of 
8 lbs. (3.6 kg) per 403 fluid ounces of concentrate for powdered 
formula. Infant formula manufacturers offer powdered formula in a 
variety of can sizes, which they change periodically.
    Because the maximum amount cannot be exceeded and because the 
powdered can size variations rarely exactly match the authorized 
amount, WIC clients are provided less formula and nutritional benefit 
than infants need for optimal growth. To avoid a substantial, 
cumulative shortage over the certification period and potential health 
risks, NWA recommends that USDA allow State WIC agencies to round up to 
the next whole can size of infant formula to ensure that all infants 
receive the full-authorized nutritional benefit of at least 944 
reconstituted fluid ounces, at standard dilution, per month for 
powdered infant formula.
    Sixth, to be income eligible to participate in the WIC Program an 
applicants' gross income (i.e. before taxes are withheld) must fall at 
or below 185 percent of the U.S. Poverty Income Guidelines. For a 
family of 4, this amounts to $33,485 or $644 weekly. Because families 
increasingly find their income stretched to meet rising healthcare, 
housing and transportation costs and are frequently placed in a 
position of nutritional insecurity, NWA recommends that Congress 
respond to the income challenges of the working poor by increasing the 
income guidelines to 200 percent of the U.S. Poverty Income Guidelines.

Meeting Increased Program Requirements
    The WIC shopping experience is intended to reinforce the WIC 
nutrition education experience and provide WIC families with a full 
complement of not only WIC foods, but a full market basket of foods to 
ensure comprehensive, quality meals for WIC families.
    To insure cost competitiveness and reasonable food prices, NWA 
recommends that with the exception of non-profit agencies, pharmacies 
and vendors required to ensure participant access, all WIC vendors 
should be food stamp authorized and offer participants a full market 
basket of foods.
    The WIC Farmers' Market Nutrition Program (FMNP) funds are provided 
through a legislatively mandated set-aside in the WIC appropriation. If 
the entire WIC allocation is needed to maintain WIC caseload, FMNP 
would not be funded. This unstable situation leaves the status of FMNP 
in doubt from year to year and does not allow planning and management 
of resources with confidence for the upcoming growing season. For 
participating FMNP states Federal funds support 70 percent of the total 
cost of the program. The remaining 30 percent of the program's cost 
must come from a state match.
    NWA recommends that Congress separate the funding for WIC and FMNP 
to eliminate direct competition for funds and enhance collaboration 
between WIC and FMNP. Separation of funding will ensure resources for 
WIC benefits, that WIC caseload funds are not diverted to FMNP and that 
FMNP stands on its own.
    The current funding formula does not allow states sufficient 
Nutrition Services Administrative (NSA) funds to support funded 
participation levels, maintain, protect and improve client services and 
program integrity or USDA initiatives.
    NWA recommends that states 1) have the option to convert unspent 
food funds to NSA by a change in the Act which will allow states to 
increase the spend forward amount from 1 percent + .5% for management 
information systems (MIS) to 1.5 percent + .5% or 2 percent for MIS as 
well as 2) apply a portion of the rebate dollars received to nutrition 
services in accordance with the proportional nutrition services/food 
split used in allocating food and NSA grant dollars. Currently, cost 
containment savings may only be used for food.
    While states currently have the ability to use vendor and 
participant recovered funds for program purposes, states would like to 
extend this ability to the use of funds recovered from local agencies.
    NWA recommends that states have the ability to utilize collections 
of WIC program recovered funds in a consistent manner.
    USDA has promulgated interim regulations concerning infant formula 
cost containment without the benefit of public comment, without 
consideration for failing to consider State agencies' experience with 
bidding and contracting and preventing States' from negotiating the 
best contract for individual circumstances.
    NWA urges Congress to direct USDA to partner with the Association 
to review the interim regulations on infant formula cost containment 
and propose regulatory changes to appropriately respond to States' 
concerns thereby ensuring maximum participant benefits.

Improving the Use of Information Technology to Enhance Service Delivery 
        and Program Management
    Technology provides a critical foundation for quality WIC services 
and Program Integrity. Funding WIC technology from existing resources 
compromises WIC's ability to deliver services and develop responsive 
MIS systems. Lack of adequate funding prevents more than half--56%--of 
WIC state agencies from meeting USDA core functions.
    To develop and maintain MIS and electronic service delivery 
systems, and to link with other health data systems NWA recommends that 
Congress provide an additional $122 million annually outside the 
regular NSA grant to implement MIS core functions, upgrade WIC 
technology systems, maintain MIS and electronic services and expedite 
the joint NWA/USDA 5 year plan for state MIS systems.
Assessing the Effects of Nutrition Services
    To support rigorous research and evaluation documenting WIC's 
continued success, NWA recommends the flexible use of Special Project 
Grants funds, state WIC funds and other grant resources for health 
outcomes research and evaluation to identify effective nutrition 
education and breastfeeding promotion and support services, to test 
innovative service delivery and food prescriptions, and to support 
USDA's partnership with NWA to achieve WIC research and evaluation 
objectives.

Recruiting and Retaining Skilled Staff
    The recruitment and retention of quality professional staff 
continues to be a challenge for WIC. Programs are not able to offer 
competitive salaries or benefits and must increasingly rely on 
paraprofessionals to deliver nutrition services.
    To assist in this effort, NWA recommends that Congress revise the 
National Health Service Corps Program to include WIC nutrition interns, 
registered dietitians and nutritionists in student loan forgiveness 
programs.

Visioning the Future Landscape of WIC
    Over the course of the past decade there has been discussion about 
the value or appropriateness of converting WIC from a domestic 
discretionary program to a mandatory program. Little is known about the 
real consequences of affecting such a conversion.
    NWA recommends that before policy makers entertain conversion of 
the Program's funding mechanism from a discretionary to a mandatory 
program, that Congress fully study the consequences of such a change 
and its impact on eligibility, participation, and services prior to 
implementing a conversion.
    Finally, Mr. Chairman and members of the Committee, as the nation's 
premier public health nutrition program, WIC is a cost-effective, sound 
investment--insuring the health of our nation's children. Our Executive 
Director, Douglas Greenaway, the members of NWA and I look forward to 
working with you in this reauthorization process. We remain ready to 
answer any questions or provide additional information you may request.
                                 ______
                                 
    Chairman Castle. Thank you, Ms. Clarke. We appreciate your 
testimony.
    Ms. MacDonald.

    STATEMENT OF GAYE LYNN MacDONALD, PROGRAM MANAGER, FOOD 
SERVICES, BELLINGHAM, WASHINGTON PUBLIC SCHOOLS, AND PRESIDENT, 
AMERICAN SCHOOL FOOD SERVICE ASSOCIATION; ACCOMPANIED BY PAULA 
 ANGELUCCI, FOOD SERVICE SUPERVISOR, COLONIAL SCHOOL DISTRICT, 
NEW CASTLE, DELAWARE, AND CHAIR, PUBLIC POLICY AND LEGISLATIVE 
   COMMITTEE, DELAWARE SCHOOL FOOD SERVICE ASSOCIATION; AND 
                     MARSHALL MATZ, COUNSEL

    Ms. MacDonald. Mr. Chairman and members of the Committee, I 
am Gaye Lynn MacDonald, President of the American School Food 
Service Association and, as you introduced, the Manager of Food 
Services for Bellingham Public Schools.
    I appreciate your acknowledgement of Paula Angelucci, and 
also present today is our counsel, Marshall Matz.
    I would like to begin by thanking you and the Committee for 
holding this important hearing, and in addition, I would like 
to thank you for your leadership in the 1998 reauthorization of 
child nutrition programs.
    We are delighted to be with you this morning to discuss 
these programs and explore how we might improve the programs.
    I have written testimony that I have asked to be included 
in the record, but I will briefly summarize it for you.
    The success and security of a culture is often measured by 
how it nurtures its children. A traditional Masai greeting, 
``Kasserian Ingera'' asks, ``And how are the children?'' If the 
children are well, the society is well, and the future is 
secure.
    How are the children in the United States? Children are 
hungry in our urban cities and rural communities, yet, as we 
have heard, there is also the paradox of overweight and 
obesity, and we believe that school meal programs are proven, 
effective tools to address these problems.
    We are here to share with you stories of the real people 
who our members see in school meal programs every day.
    ASFSA believes that 2003 is a pivotal year for child 
nutrition. Reauthorization of child nutrition programs offers 
an excellent opportunity for the Congress to consider changes 
that will improve health outcomes for children and further the 
goals of No Child Left Behind. Congress should reauthorize 
these programs that expire in 2003.
    Additionally, we would advance for your consideration a 
number of proposals to strengthen school and community based 
nutrition programs, and I will frame those proposals in three 
areas: program access, healthy children, and program integrity.
    In terms of program access, many children from families 
qualified in the reduced price category are not participating 
in the lunch and breakfast programs because they can't afford 
the fee of 40 cents for lunch or 30 cents for a breakfast.
    While that may not seem like a lot of money to those of us 
in this room, to families with incomes between 130 percent and 
185 percent of the poverty line, many with more than one child, 
it is often too much. The reduced price fee is a major barrier 
to the working poor, particularly at the end of the month when 
we see the reduced category participation rates decline.
    As you know, in the WIC programs, all those with family 
incomes below 185 percent of poverty and who otherwise qualify 
receive benefits without charge. The same income guidelines 
should be extended to school nutrition programs.
    The reduced category is by far the smallest of the current 
school meal categories of free, reduced, and paid. In fact, 
less than 10 percent of the meals served are served to children 
in the reduced price category.
    The reduced price co-pay should be eliminated and meals 
should be available at no cost to all children with family 
income up to 185 percent of poverty, and reimbursed to schools 
at the free rate. This change provides necessary support to 
working families who are already struggling to keep up with 
increases in housing, fuel, health, and child care costs.
    Mr. Chairman, ASFSA's recommendation to provide school 
meals at no charge to children in these households up to 185 
percent of poverty has significant support nationwide.
    The North Carolina State Board of Education, the Colorado 
Association of School Business Officials, the Texas Department 
of Agriculture, three local school boards, as well as the State 
Education Association in your home state of Delaware, among 
many others, have passed resolutions in support of this 
proposal, and the list is growing.
    In fact, we have a number of resolutions with us to submit 
with our testimony.
    Additionally, industry has also expressed support for this 
initiative. They know the value of a healthy, well-educated 
workforce, and are anxious to assist in strengthening these 
programs.
    The cost of this proposal, while justified, is significant. 
May we suggest that it might be possible to phase in this 
change by raising the eligibility guideline for free school 
meals until it reaches the WIC guideline of 185 percent.
    In short, Mr. Chairman, I'm hoping that we can join hands 
on the principle of eliminating the reduced price category over 
whatever timeframe we can afford.
    In terms of healthy children, we are deeply committed to 
the health of our nation's children, and are working 
collaboratively to further positive health outcomes. We are 
about good nutrition, not just providing food.
    We have several recommendations that would enhance the 
school nutrition environment, and have provided them to staff.
    In terms of program integrity, we take very seriously our 
responsibility to administer these programs. We are aware of 
the concerns raised by reports indicating there may be errors 
in the number of children being approved for free and reduced 
meals.
    We are continually working with the Department on this 
issue and we believe that reasonable income verification 
requirements are necessary, but that eligible students should 
not be intimidated by excessive income verification 
requirements, for the greater the regulatory burden on the 
program, the greater the cost to produce a meal.
    We applaud enhancing proven strategies, such as expansion 
of direct certification to improve program integrity.
    I would sum up by adding that we also have a food safety 
statement that has been included with our testimony.
    We do appreciate we're meeting at a difficult time. 
However, it is our responsibility as those who work in child 
nutrition programs to share our views on what is needed to 
assure that healthful meals and nutrition education are 
available to all children.
    We look forward to working with the Committee and the 
Congress, and will be pleased to answer any questions.
    [The prepared statement of Ms. MacDonald follows:]

   Statement of Gaye Lynn MacDonald, President, American School Food 
                          Service Association

    Mr. Chairman, Members of the Committee, I am Gaye Lynn MacDonald, 
President of the American School Food Service Association (ASFSA), and 
the Program Manager of Food Services for Bellingham Public Schools in 
Bellingham, Washington. With me this morning is Paula Angelucci, Chair 
of our Public Policy and Legislative Committee for the Delaware School 
Food Service Association and Food Service Supervisor for the Colonial 
School District in New Castle Delaware, and our Counsel, Marshall Matz.
    Let me begin by thanking you and the Committee for holding this 
important hearing. We are delighted to be with you this morning to 
discuss child nutrition and explore how we might further improve these 
important federal programs. The federal child nutrition programs are a 
major success story, serving over 28 million children each school day.
    ASFSA believes that 2003 is a pivotal year for child nutrition. 
Reauthorization of child nutrition programs offers an excellent 
opportunity for the Congress to consider changes that will improve 
health outcomes for children and further the goals of No Child Left 
Behind. Congress should reauthorize those programs that expire in 2003 
(WIC, Commodity Distribution, State Administrative Expense, the 
National Food Service Management Institute and the Summer Food Service 
Program). Additionally, ASFSA advances, for your consideration, a 
number of proposals to strengthen school and community based child 
nutrition programs.
    Mr. Chairman, ongoing studies confirm that a hungry child cannot 
learn effectively. A hungry child is distracted from learning and is 
more likely to experience discipline and health problems. It is 
critically important that child nutrition programs be effectively 
extended and easily accessible to all children who are eligible.

PROGRAM ACCESS
    * Many children from families qualified in the reduced price 
category are not participating in the lunch and breakfast programs 
because they can't afford the fee of $.40 for a lunch or $.30 for a 
breakfast. While that may not seem like a lot of money to those of us 
in this room, to families with household incomes between 130% and 185% 
of the poverty line, many with more than one child, it is often too 
much.
    The reduced price fee is a major barrier to the working poor, 
particularly at the end of the month when we see the reduced category 
participation rates decline.
    As you know, in the WIC program, all those with family incomes 
below 185% of poverty, and who otherwise qualify, receive benefits 
without charge. This same income guideline should be extended to the 
school nutrition programs. The reduced price category is by far the 
smallest of the current school meal categories---free, reduced, and 
paid - less than 10% of the meals served are served to children in the 
reduced price category. The reduced price co-pay should be eliminated 
and meals should be available at no cost to all children with family 
income up to 185% of poverty. Schools should be reimbursed for these 
meals at the free rate. This change provides support to working 
families who are already struggling to keep up with increases in 
housing, fuel, health and childcare costs.
    Mr. Chairman, ASFSA's recommendation to provide school meals at no 
charge to children in households with income up to 185% has significant 
support nationwide. The North Carolina State Board of Education, the 
Colorado Association of School Business Officials, the Texas Department 
of Agriculture and three local school boards as well as the State 
Education Association in Delaware, among many others, have passed 
resolutions in support of this proposal.
    The cost of this proposal, while justified, is significant. May we 
suggest that it might be possible to phase in this change by raising 
the eligibility guideline for free schools meals until it reaches the 
WIC guideline of 185%.
    * Consistent with a GAO analysis showing the gap between the cost 
to produce a school lunch we propose the federal reimbursement rates 
for all meal categories be increased. The current reimbursement rate of 
$2.19 for a free lunch is simply inadequate. The rates for reduced and 
``paid'' meals are not adequate either resulting in higher and higher 
prices being charged to the paying child. The gap between the costs of 
doing business and reimbursement rates widens each year as costs 
escalate at a rate greater than the federal rates increase. And, as I 
will share later, federal nutrition guidelines are expensive to 
implement.
    * It is also our recommendation, that Congress extend the USDA 
commodity program to the school breakfast program. Schools currently 
receive 15 3/4 cents in USDA commodities for each reimbursable lunch 
served. This commodity assistance is very helpful and much appreciated, 
not only by schools but also by the agriculture communities in the 
states. The school breakfast program, however, receives no USDA 
commodity assistance. We recommend that USDA contribute $.05 in 
commodities for each breakfast served in the program.

HEALTHY CHILDREN
    The American School Food Service Association is deeply committed to 
the health of our nation's children and is working collaboratively to 
further positive health outcomes. We are about good nutrition not just 
providing food. As you know, we strongly supported amending the 
National School Lunch Act to require implementation of the Dietary 
Guidelines for Americans.
    According to the most recent USDA study on the subject, schools are 
making very significant progress in implementing the Dietary Guidelines 
in school meal programs. The fat content of a reimbursable meal is down 
significantly, and an increasing variety of fruits and vegetables are 
more readily available. Program operators have modified food 
preparation methods and re-written product specifications to lower fat, 
sodium and sugars. Industry has responded to our requests and familiar 
student favorites like pizza, burgers and fries are part of meals 
meeting the Dietary Guidelines.
    We are proud of the meals our members serve but it is not realistic 
to expect children to select a lunch in school that is much different 
from the meals they consume outside of school. Further, the school 
lunch program--the USDA reimbursable meal--has significant competition 
inside and outside the school. Every day program operators are caught 
between the challenges of very limited resources, pressure to cover all 
direct and indirect costs or to even be a ``profit center'' for the 
district, competition from other groups selling food on campus and the 
demands of the customer.
    Our customer is no longer a captive market. Young people are making 
more and more of their own decisions beginning at a very early age and 
have options other than a school meal available. For example, a la 
carte is increasingly available at all grade levels and many high 
schools have open campuses and a limited number of lunch periods both 
of which encourage students to leave school for lunch.
    * ASFSA recommends that an additional $.10 per meal be provided to 
schools to further improve the nutritional quality of school meals. 
There are significant costs associated with meeting nutrition 
standards, such as continuing to increase the availability and variety 
of fruits and vegetables and to purchase products consistent with the 
Dietary Guidelines.
    * The recent ``Call to Action to Prevent Overweight and Obesity'' 
recommends that schools ``adopt policies ensuring that all foods and 
beverages available on school campuses and at school events contribute 
toward eating patterns that are consistent with the Dietary Guidelines 
for Americans''. We urge the Congress and the Administration to 
implement the recommendation of Secretary Tommy Thompson, and the 
Surgeon General, with regard to foods available in school.
    * Financial support for nutrition education continues to fade into 
oblivion. Not many years ago nutrition education was a federal 
entitlement program, a small program, but one that provided some 
guaranteed funding. Nutrition education is now a discretionary program 
without any funding. Students cannot learn to make healthy food choices 
without access to age appropriate nutrition education. At a minimum, we 
propose an entitlement of 1/2 cent per meal be allocated to states to 
develop state and local infrastructures to deliver nutrition education.

PROGRAM INTEGRITY
    Mr. Chairman, ASFSA members are public employees. We take very 
seriously our responsibility to administer the programs consistent with 
the law. We are aware of concerns raised by reports indicating that 
there MAY be errors in the number of students receiving free and 
reduced-price benefits in the federal school meal programs. It is a 
subject we have discussed with USDA at great length. The Department has 
stated in its testimony that the extent of this problem is unclear.
    We believe that:
    <bullet> Reasonable income verification requirements are necessary 
to guarantee that the program is administered consistent with current 
law.
    <bullet> Eligible students should not be intimidated by excessive 
income verification requirements and
    <bullet> The greater the regulatory burden on the program, the 
greater the cost to produce a meal.
    <bullet> Expanding and enhancing proven strategies, including 
direct certification, improves the integrity of the program.
    In an effort to respond appropriately and reasonably, ASFSA offers 
these recommendations:
    <bullet> Make school meal application approval valid for the full 
year.
    <bullet> Expand the use of categorical eligibility, such as is 
currently authorized for TANF and Food Stamps, and expand the use of 
direct certification for the school meals application process. This is 
a proven approach that improves program integrity. Categorical approval 
should be expanded to include state children's health insurance 
programs, Medicaid and SSI, where state eligibility guidelines for 
these programs are compatible with school meal eligibility guidelines. 
Furthermore, ASFSA supports requiring states to provide approved lists 
to local school districts for direct certification
    <bullet> Conduct rigorous, representative demonstration projects 
to determine if there is an error problem in the school meal programs 
and the true extent of that error if it does exist; and evaluate the 
impact of a variety of proposed changes to the current system for 
evaluating and verifying paper applications on eligible children to 
ensure that, in addressing program integrity, we don't have the 
unintended consequence of denying benefits to children who depend on 
these programs.

FOOD SAFETY
    Last, but definitely not least, allow me to comment on food safety. 
Maintaining high food safety standards in the federal nutrition 
programs is critical to their success and is an ongoing high priority 
for ASFSA. Data shows that in the majority of schools nationwide the 
foodservice staff demonstrates very high standards and performance in 
safe handling of food. We support the public expectation that foods be 
handled using consistently monitored and reinforced food safety 
training and techniques for foodservice staff--as is found in most 
school meal programs across the Country. The United States has the most 
abundant and safest food supply in the world. But food safety it is not 
an area in which to take any chances, particularly when we are talking 
about the nation's children.
    Therefore, ASFSA has outlined legislation that ensures the 
development and implementation of food safety systems in all schools 
participating in the federal school lunch program. The legislation 
includes funding for development of such a program, for training 
consistent with the program, for facility improvements necessary to 
meet these standards and development of a reasonable implementation 
time frame.

CONCLUSION
    Mr. Chairman, Members of the Committee, we present to you a very 
full agenda for the child nutrition programs. We do appreciate that we 
are meeting at a very difficult time for the United States, and that 
the Congress has many issues to address. However, the health and well 
being of our children is paramount to the security and future 
development of our Country. It is our responsibility, as those who work 
in child nutrition programs, to share our views on what is needed to 
assure that healthful meals and nutrition education are available to 
all children. The success of a culture is often measured by how it 
nurtures its children. A traditional Masai greeting-- ``Kasserian 
Ingera'' asks ``and how are the children?'' It is our joint 
responsibility to assure that the children in the United States of 
America are well.
    We look forward to working with the Committee, and the Congress, on 
the 2003 child nutrition reauthorization legislation. We would be 
pleased to answer any questions that you may have. Thank you very much 
for your continuing support of child nutrition.
                                 ______
                                 
    Chairman Castle. Thank you, Ms. MacDonald.
    You mentioned some resolutions, and actually other 
materials that may be attached to your written testimony. The 
statements and written testimony of all of you are admitted for 
the record. If you have anything in addition to that, that also 
can be admitted for the record, so please submit it when you 
can, if that's the case.
    Ms. MacDonald. Thank you. Yes.
    Chairman Castle. Dr. Frank.
    We need to move that over. Correct.

 STATEMENT OF DEBORAH A. FRANK, M.D., PROFESSOR OF PEDIATRICS, 
  BOSTON UNIVERSITY SCHOOL OF MEDICINE; DIRECTOR, GROWTH AND 
 DEVELOPMENT PROGRAM, DEPARTMENT OF PEDIATRICS, BOSTON MEDICAL 
    CENTER; AND PRINCIPAL INVESTIGATOR, CHILDREN'S SENTINEL 
      NUTRITION ASSESSMENT PROGRAM, BOSTON, MASSACHUSETTS

    Dr. Frank. Chairman Castle, Ranking Member Woolsey, I am 
honored to come before such a well-informed and concerned 
Committee as a pediatrician representing a group that you 
really haven't heard about much, which is malnourished babies.
    I am also one of the principal investigators of the 
Children's Sentinel Nutrition Assessment Program, or CSNAP, 
which since 1998 has monitored the impact of current public 
policies and economic conditions on the nutritional and health 
status of low-income children less than 3 years old, those who 
aren't visible to most other systems, including the school 
system, because they're so little, in six medical institutions.
    In the time I have available, I would first like to give 
you a crash course, which you don't need as much as I thought 
you did, compacting into a few paragraphs a month or two of 
medical school to explain why pediatricians are so deeply 
concerned about the nutrition of mothers and children.
    From the pediatric perspective, reauthorizing and enhancing 
national investment in child nutrition programs is really a 
life or death matter, and I assure you if it wasn't, I wouldn't 
be here on a Wednesday, which is my clinic day, but I would be 
back where I belong, on the fifth floor of Boston Medical 
Center, doctoring malnourished babies.
    It is not only health professionals, though, who are 
concerned, but all who work in public-private partnerships to 
serve poor and near-poor children of working and unemployed 
families.
    I would like to request to insert in the record the 
National Call to Congress signed by 2,300 of these 
organizations.
    Chairman Castle. Without objection, that will be included 
in the record.
    [The information referred to has been retained in the 
Committee's official files.]
    Dr. Frank. From my perspective, food is something that is 
always needed, and so that I'm here to talk about the 
physicians' concern for all these programs, including WIC, 
child and adult care food programs, school meals, summer and 
after-school feeding, which hasn't been mentioned but is really 
crucial, and the feeding programs for children who tragically 
are residing in homeless and domestic violence shelters.
    All these programs serve families that lack the financial 
resources, never mind the information, for the healthy eating 
that the Surgeon General recommended.
    As clinicians, we know that food insecurity is not a 
political problem or a sentimental issue. It's a health 
problem.
    Food insecurity threatens human health at all stages of 
life, but particularly in prenatal life and early childhood, 
when the critical growth of body and brain occur.
    Hunger threatens the well-being of the next generation in 
the womb. A mother's nutritional status when she enters 
pregnancy and her weight gain during pregnancy are critical 
determinants of whether the baby will be low birth weight.
    Low birth weight, in turn, is the most important 
contributor to infant mortality, which is the doctors' fancy 
way of saying dead babies, and although the Surgeon General is 
correct that that's going down, in fact there are still huge 
disparities in whose babies die.
    The majority of low-birth-weight babies do survive in this 
country, but the lower the birth weight, the more likely the 
child will suffer from lasting impairments, including 
blindness, deafness, cerebral palsy, and school failure.
    WIC, as you know, has been repeatedly shown to decrease the 
risk of low birth weight and thus of all its lifelong 
consequences.
    After birth, even subtle deficits in nutrition continue to 
exert major influences on health, development, and learning.
    As my distinguished colleague, the Surgeon General, would 
have told you if you had asked him, from his career as a trauma 
surgeon, malnutrition impairs the body's ability to heal. At 
all ages, malnutrition decreases immune function, leading to an 
infection/malnutrition cycle.
    For many low-income, food-insecure families, where food 
supplies, particularly as my colleague said, at the end of the 
month, are marginal even for feeding well children, once a 
child has developed a nutritional deficit from a normal 
childhood illness, a stomach flu, there is no additional food 
for repletion.
    The child is then left malnourished and more susceptible to 
the next infection, which is more likely to be more prolonged, 
more severe, and require costly medical interventions.
    Here, too, in CSNAP, we found that WIC works. Income-
eligible infants under a year of age who did not receive WIC 
were significantly more likely to be underweight or short and 
to be in fair or poor health than comparable infants who did.
    This relationship between food security and physical 
illness persists beyond infancy. In our same data set, with a 
larger sample of kids up to 36 months, we found that 21 percent 
of these very young children live in food-insecure households 
and that those in food-insecure households were 25 percent more 
likely to have been hospitalized since birth than those whose 
households were food secure.
    I don't have to tell you that two or days in the hospital 
would fund several WIC packages.
    WIC supplies only a portion of the calories needed for 
children older than 4 months of age. Thus, in addition to WIC, 
the child care feeding programs are also crucial to child 
health, reaching preschoolers in family and center-based day 
care, whose mothers work long hours and do not necessarily have 
either the time or the financial resources to prepare adequate 
meals.
    I had one patient whose mother was sending lettuce to the 
day care providers that didn't provide meals. That was it, for 
one.
    Early and concurrent malnutrition have effects that last a 
lifetime, and that you have heard, but under-nutrition as well 
as over-nutrition has serious and lasting effects.
    Malnutrition is an important but entirely preventable cause 
of school failure from impairments of cognition, attention, and 
behavior, as the Chairman noted.
    As you know, participation in school breakfast programs has 
been repeatedly shown to decrease absenteeism, raise children's 
academic test scores, and decrease behavioral acting out in 
school.
    No amount of standardized testing will alleviate the impact 
of hunger on children's ability to learn. To educate children, 
first you must feed them, and you must feed their mothers, so 
that from conception through high school, tomorrow's future 
workforce will be sufficiently well-nourished to participate 
fully in a global information economy.
    I would suggest to you, and I know my time is running 
short, that we have found that in 2002-2003--we're probably one 
of the only programs that has current data, up through May 
2003--the need for these child nutrition programs is greater 
than even when you reauthorized it before, in 1998 to 1999.
    We found, in our two hospitals, in our hospitals that we've 
just had time to analyze in the 2 minutes for this thing, a 29 
percent increase in the families with these young children that 
are food-insecure, and an 83 percent increase in the need of 
children to be hospitalized, which just staggered us at the 
time.
    Now, I'm aware that some people have suggested that child 
nutrition programs contribute to childhood obesity. These 
commentators have no medical credentials, and there's no 
medical data which supports that claim.
    Child nutrition programs are crucial to assure that 
children and their families can eat every day, so they can eat 
wisely, and not gorge when food is available in fear of being 
hungry tomorrow.
    You have heard the established determinants of childhood 
obesity, none of which have been caused by or even associated 
with participation in child nutrition programs.
    I would also like to insert a paper from colleagues of mine 
at Brandeis University entitled ``The Paradox of Hunger and 
Obesity in the United States.''
    Chairman Castle. Without objection, it will be inserted.
    [The information referred to has been retained in the 
Committee's official files.]
    Dr. Frank. As I conclude, I realize that you're probably 
feeling absolutely overloaded with facts and figures, and 
especially since I'm the cleanup hitter.
    But pediatric clinicians can't really forget that 
statistics reflect the lives of real children and real 
families, and I can tell you as a doctor, in my daily 
experience, child nutrition programs work well, and the 
children need them, and those who need them and don't get them 
suffer greatly.
    I wish you could have been with me at the end of last 
summer in clinic, when I talked to a little 6-year-old who had 
been malnourished and was better. We had found him a campership 
in a Salvation Army day camp, which is almost as hard as 
getting a kid into Head Start, which is also a very good 
treatment for malnutrition.
    He had clearly had a really good summer, and gained almost 
a pound, and I asked him what did he do in day camp, expecting, 
of course, to hear about swimming and so on.
    He looked at me with his eyes shining, and he said, ``We 
sang songs about God and ate breakfast, lunch, and snack.'' 
None of these meals would have been available to this child 
without the summer feeding programs.
    Distinguished members of this Committee, I am here to urge 
you to prescribe a miracle drug for America's families, by 
expanding and enhancing child nutrition programs at all levels.
    This miracle drug, which maybe we could call it 
``foodamycin,'' decreases premature birth, enhances immune 
function, and improves school achievement.
    Millions of American children, many of whom I lay my hands 
on many days of the week, are intermittently but repeatedly 
deprived of this drug, both before and after birth.
    The programs which you have so wisely supported in the past 
are today more crucial than ever to sustain our children. Any 
legislative provision that would serve fewer rather than more 
children would be a child health catastrophe.
    Only you can write the prescription that prevents this 
catastrophe for America's children, and I tell you that it's 
stat, meaning urgent, to do so.
    Thank you.
    [The prepared statement of Dr. Frank follows:]

 Statement of Dr. Deborah A. Frank, Director, Grow Clinic for Children 
   at Boston Medical Center, and Principal Investigator, Children's 
                 Sentinel Nutrition Assessment Program

    Distinguished members of the committee, I am honored to come before 
you as one of many pediatric clinicians who daily treat malnourished 
American children. I am also one on the Principal Investigators with 
other pediatric researchers of the Children's Sentinel Nutrition 
Assessment Program (C-SNAP) initially funded by grant from the W.K. 
Kellogg Foundation and other private donors. Since 1998 we have 
monitored the impact of current public policies and economic conditions 
on the nutritional and health status of low income children less than 3 
years old in six medical institutions serving Baltimore, Boston, Little 
Rock, Los Angeles, Minneapolis and Washington DC. CSNAP provides some 
of the most current information available about the status of food 
security and health among America's youngest children. I will share 
with you some of our newest data comparing July 1 2002-May 30 2003 to 
similar data collected by CSNAP from June 1998- until July 1, 1999 when 
child nutrition programs were last re-authorized. But first I would 
like to give you a ``crash course,'' compacting into a few paragraphs a 
month or two of medical school to explain why pediatricians are so 
deeply concerned about the nutrition of mothers and children. From the 
pediatricians' perspective, re-authorizing and enhancing national 
investment in child nutrition programs is a life or death matter, or I 
would not be here on a Wednesday, but would be back where I belong, on 
the fifth floor of Boston Medical Center, doctoring a dozen or more 
malnourished children in a single day in our outpatient clinic. It is 
not only health professionals who are concerned, but all who work in 
public-private partnerships to serve poor and near poor children and 
their families. I would to request to insert in the record this 
National Call to Congress signed by multiple organizations in all 50 
states attesting to the crucial need for strengthening these programs 
which protect America's children from conception to high school 
graduation including WIC, Child and Adult Care Food program, school 
meals, and summer and after school feeding programs, and feeding 
programs for children tragically residing in homeless and domestic 
violence shelters.
    As clinicians and as scientists we know that food insecurity 
(defined by the Life Science Research Office of the Federation of 
Associations and Societies for Experimental Biology as limited or 
uncertain availability of nutritionally adequate safe foods or limited 
or uncertain ability to acquire acceptable foods in socially acceptable 
ways) is not a political or a sentimental issue but a major health 
problem.
    Food insecurity threatens human health at all stages of life, but 
particularly in prenatal life and early childhood when critical growth 
occurs. Hunger threatens the well being of the next generation even in 
the womb. Even after considering all other important factors 
influencing pregnancy outcome such as cigarette and other drug use, 
infections and other stressors., the nutritional status of a woman as 
she enters pregnancy and the amount of weight she gains during 
pregnancy are critical predictors of infant birth Low birth weight is 
the most important contributor to infant mortality. The majority of low 
birth weight infants survive in this country, but the lower the birth 
weight the more likely that the child will suffer from lasting 
impairments, including blindness, deafness, cerebral palsy and school 
failure. Even more subtle variations of birth weight not sufficient to 
require neonatal intensive care appear to have lasting implications for 
adult health. Data have emerged from around the world showing that 
there is a continuous inverse relationship between birth weight and the 
likelihood the adult will suffer from cardiovascular disease and its 
associated disorders, including hypertension and non-insulin dependent 
diabetes and its precursors. In other words the lower an adult's 
birthweight, the greater the likelihood that adult will suffer from 
cardiovascular disease. In addition, there is evidence that severe 
maternal malnutrition in pregnancy is associated with increased 
likelihood of both schizophrenia and major affective disorder 
developing in her children when they reach adulthood. Even 
micronutrient deficiency in the presence of adequate maternal weight 
gain in pregnancy can have devastating consequences. There is a well 
established relationship between inadequate maternal folate intake at 
the time of conception and the risk of neural tube defects (spina 
bifida) in children. This is a particular concern since food insecure 
women have been shown to have seriously inadequate intake of folate, 
along with other critical micronutrients. WIC, as you know, has been 
repeatedly shown to decrease the risk of low birth weight and thus of 
all its lifelong consequences.
    After birth, even subtle deficits in nutrition continue to exert 
major influences on health and development. As my distinguished 
colleague the Surgeon General would confirm from his career as a trauma 
surgeon, malnutrition impairs the body's ability to heal. At all ages 
malnutrition decreases immune function leading to the infection/
malnutrition cycle. With any acute illness all children lose weight. 
However, in food secure homes once the acute illness is resolved, 
children are able spontaneously to increase their dietary intake to 
restore normal growth and body composition. For the many low-income 
food-insecure families, where food supplies are marginal even for 
feeding well children, once a nutritional deficit has been established 
by even a normal childhood illness there is no additional food for 
repletion. The child is then left malnourished and more susceptible to 
the next infection, which is likely to be more prolonged and severe, 
and followed by even greater weight loss. It is this infection/
malnutrition cycle, which in settings without adequate medical care 
leads to the death of malnourished children. In this country the cycle 
often manifests in preventable recurrent illness and a need for costly 
therapeutic health resources.
    Here too we have found WIC works. When in CSNAP we evaluated 5,923 
WIC eligible infants less than 12 months of age between August 1998-
December 2001, we found .after taking into account numerous other 
family characteristics that those who did not receive WIC due to access 
problems had statistically significantly higher rates of food 
insecurity (28%) than WIC participants (23%), p = .001. This food 
insecurity was manifested in hard evidence of inadequate nutrition 
measured on the bodies of the infants. Income eligible infants who did 
not receive WIC were significantly more likely to be underweight or 
short, and nearly twice as likely as infants who did receive WIC to be 
perceived as having only fair or poor health. In contrast, rates of 
overweight did not differ significantly among groups.
    This relationship between food insecurity and illness persists 
beyond infancy in findings of our research and that of many other 
investigators. When we looked at data from the larger CSNAP sample of 
11,539 children ages 36 months and younger collected over the period 
1998-2001 at inner-city hospitals and clinics in six states, we found 
21% of these little children lived in food insecure households. 
Children in food insecure households were 25% more likely to have been 
hospitalized since birth than those whose households were food secure.
    WIC supplies only 40% of the calories needed for children older 
than a year of age. Day care attendance increases the risk of 
infectious illness in young children of all social classes. Thus, in 
addition to WIC, the Child Care feeding programs are also crucial to 
child health, reaching preschoolers in family and center based child 
care centers whose mothers work long hours and to do not necessarily 
have either the time or the financial resources to prepare adequate 
meals.
    Even though, with refeeding and medical care, a malnourished child 
can be brought eventually into the normal range for immunocompetence, 
malnutrition can inflict concurrent and lasting deficits in cognitive 
development with grave implications for the malnourished child's future 
ability to participate in the knowledge economy. The last two prenatal 
trimesters and the first years of life constitute a critical period of 
brain growth, a time when the brain has biosynthetic ability to 
generate new brain that it will never have again. Different regions of 
the brain undergo their critical development at different developmental 
periods. The cerebellum, which is involved in later reading ability, 
for example, completes much of its development in the first year of 
life. Lack of nutritional building blocks during a critical period will 
lead to actual distortions and deficits in the part of the brain under 
development. Initially, the greatest concern about the developmental 
effects of malnutrition were expressed about those children who had 
actual lasting deficits in brain size reflected by small head 
circumference. However, as knowledge of the importance of nutrition as 
substrate for neurotransmitters has evolved, awareness has grown that 
although brain size and structure can be most affected by malnutrition 
in early life, brain function can be seriously affected at all ages.
    Even in the absence of measurable deficits in body size, food 
insecure or malnourished children may miss many opportunities for 
learning. The first physiologic strategy for maintaining growth and 
body heat in the face of inadequate nutrient intake is for a child to 
decrease their ``discretionary activity,'' particularly their voluntary 
exploration of their environment and interactions with other people. 
Such discretionary activity is essential experience for children's 
learning about the inanimate and social worlds. By the time a child has 
actually developed a deficit in weight or height, this compensatory 
mechanism has already failed repeatedly. By the time a health 
professional detects physiological signs and symptoms of malnutrition 
in a child, there have already been many opportunities of missed 
learning that were not detected. Although certain aspects of brain 
structure and function can recover with refeeding, others appear to be 
permanently altered, such that the previously malnourished organism can 
function under baseline conditions, but has more difficulty than the 
previously well nourished organism in functioning under conditions of 
stress and challenge. Both early and concurrent malnutrition are two 
critical and entirely preventable causes of school failure from 
impairments of cognition, attention, and behavior. As you know, 
participation in school breakfast programs has been repeatedly shown to 
decrease absenteeism, raise children's academic test scores, and 
decrease behavioral difficulties in elementary school. No amount of 
standardized testing will alleviate the impact of hunger on children's 
ability to learn--to educate children first you must feed them, and you 
must feed their mothers so that from conception through high school 
tomorrow's future work force will be sufficiently well-nourished to 
participate fully in an information economy. As children age out of WIC 
and into the school age, school meals, after school and summer feeding 
become crucial
    C-SNAP research shows food insecure children are more likely to be 
iron deficient and anemic and thus more susceptible to lead toxicity, 
which together further jeopardizes their cognitive development.
    Preliminary C- SNAP data from Minnesota and Boston suggests that 
the need for child nutrition programs has become even more urgent in 
the post 9/11 economy than it was even 5 years ago, when these programs 
were last re-authorized. In a sample of more than 3000 infants and 
toddlers under 3 (average age 12 months) we saw no significant change 
from 1998-1999 to 2002-2003 in rates of parents' employment (about 40% 
both years) or receipt of WIC (about 80%). However, we did find 
decreased rates of receipt of welfare and food stamp benefits and a 29% 
increase in risk for families of young children to be food insecure and 
an astounding 83% increase in risk that children would require 
hospitalization at the time of emergency room visits to the Boston 
site. These figures make me concerned that America's poor children may 
be getting both more food insecure and sicker. There is ample 
physiologic evidence to support that the first problem is probably 
playing a causal role in the second.
    I am aware that some commentators without medical credentials have 
suggested that child nutrition programs contribute to the childhood 
obesity. Although obesity among American children is indeed increasing, 
I know of no medical data which supports this claim. There is, however, 
a preliminary but growing body of empirical work which shows that in 
certain sub-populations such as impoverished African-American and 
Hispanic/Latino adolescent girls food insecurity is associated with 
obesity, This might be expected from what we know of the physiology of 
weight cycling related to alternating under and over consumption that 
is found not only in dieting and eating disorders, but among those who 
if they are able to eat on one day do not know if they will be able to 
eat on the next. Child nutrition programs are crucial to assure 
children and their families that they can eat every day so they can eat 
wisely and not in fear of tomorrow's hunger.
    I do not wish to over-simplify the complex phenomenon of the 
obesity epidemic, which, as physicians say, is over-determined by 
multiple factors so that no one can offer the full explanation. These 
factors include not only by food insecurity in poor families, but in 
all families increased intake of sweetened beverages lack of 
opportunity for healthy exercise, over dependence on ``supersized'' 
fast food meals (which again cannot be purchased with any federal 
feeding money) and the millions of ads that our children see each year 
encouraging poor food choices. However, none of these determinants of 
childhood obesity have been shown in the peer reviewed scientific 
literature to be caused by, or even associated with, participation in 
WIC, school meals, summer or childcare feeding.
    That does not mean that perhaps in certain cases the menus of some 
of these useful programs could not be improved to make them more 
consistent with the most recent nutritional knowledge. Just as the 
optimal treatment of pneumonia is different now from ten years ago, so 
too is the most current thinking about the healthiest dietary choices, 
thinking which may not yet be fully reflected in standards set in 
earlier eras. However, I would not let a baby's pneumonia go untreated 
if I did not yet have the most current antibiotic available and neither 
should you should decide not to fund child nutrition programs because 
there is still work in progress to update their content.
    By now you may be feeling somewhat overloaded with facts and 
figures, but pediatric clinicians can never forget that cold statistics 
reflect the lives of real and suffering children and families. I wish 
that you could have sat with me in my office several weeks ago in the 
hungry time between the end of school in mid-June and the beginning of 
summer feeding programs after the fourth of July. A father came in with 
four children ranging in age from a baby in a stroller to a second or 
third-grader, who, he proudly told me, could ``read chapter books.'' 
The children were so hungry, that they were trying to grab jars of baby 
food out of the scant supply on the shelves of my office. I tried to 
distract them while my assistant typed out a food pantry referral and 
then I went off on rounds. When I came back, my assistant said, ``They 
were so hungry I just gave them spoons. You should see how much baby 
food they ate.'' I do not have to tell those of you who are parents and 
grandparents that when second or third-graders are eating baby food 
they are really hungry. Indeed my staff found another school age child 
eating dry dog food out of a plastic bag in order to stave off hunger 
pangs. I also wish you could have rounded with me a month or so ago on 
the wards of Boston Medical Center and seen the little eight-month-old 
son of two working parents born at normal birth weight who at six 
months weighed less than 14 pounds, which is the weight of a normal 
three-month-old. As you saw his pitiful ribs sucking in and out trying 
desperately to catch his breath from a viral infection that his 
weakened immune system could not resist, you would not have had any 
doubt about the importance of child nutrition programs. On a happier 
note, I wish you could have been with me in clinic at the end of last 
summer, when I talked to a formerly malnourished six-year-old for whom 
we had found a campership to the Salvation Army Day Camp. He had 
clearly had a good summer and gained nearly a pound. When I asked him 
what he did in day camp, expecting of course to hear about swimming and 
soft ball, he looked at me with his eyes glowing and said, ``we sang 
songs about God and ate breakfast, lunch and snack,!'' None of these 
meals would have been available to this child without the summer 
feeding programs.
    Distinguished members of the committee, I am here today to urge you 
to prescribe a miracle drug for America's families, by expanding and 
enhancing child nutrition programs at all levels. This miracle drug 
which perhaps we should name foodamycin decreases premature birth, 
enhances immune function, and improves school achievement. Millions of 
American children are intermittently but repeatedly deprived of this 
drug both before and after birth. Any legislative provision that would 
serve fewer rather than more children would be a child health 
catastrophe. Only you can write the prescription to treat their 
deprivation and it is ``stat'' (urgent) that you do so.

    Additional reports and data from the Children's Sentinel Nutrition 
Assessment Program are available at: http://dcc2.bumc.bu.edu/
CsnapPublic/.
                                 ______
                                 
    [Attachments to Dr. Frank's statement have been retained in 
the Committee's official files.]
    Chairman Castle. Thank you, Dr. Frank. We're all a little 
drug-price-sensitive right now, so watch your comparisons.
    [Laughter.]
    Chairman Castle. We've had some problems with that here in 
Congress.
    We now have our option to ask questions. The way this is 
structured, we have 5 minutes to ask the questions and get the 
answers from all of you, so if you could be helpful in terms of 
fairly concise answers.
    I can't possibly ask Members of Congress to be too concise. 
It's not the way we function. But if you could help us with 
that, that would be very helpful.
    Dr. Cullen, you didn't get a chance to testify, so I do 
want to hear about your five-a-day programs that you have 
worked on, and your introduction also mentioned innovative 
snack programs involving healthier foods. That may or may not 
relate to the five-a-day.
    If you could, bring us up to date on what you're doing in 
those areas.
    Ms. Cullen. We recently finished a 2-year program and we 
spent the first year talking with students in middle schools in 
three different districts in Houston, two primarily Hispanic 
districts, one African American, trying to find out what they 
would purchase, what fruit and vegetables they liked, what they 
would purchase, how it should be marketed, because I think we 
forget that students, when they reach fifth or sixth grade and 
get into middle school are actually consumers and they have 
definite preferences and likes and dislikes.
    We developed the intervention. The schools agreed to put 
fruit and vegetables in the snack bar. Based on what the 
students told us, we cycled them over about a school year. We 
developed posters, different kinds of materials to entice it 
with strictly environment. You know, can we make the food in 
the cafeteria and the snack bar fruit and vegetables that they 
want to purchase, and we did that over last year.
    Chairman Castle. Did it seem to work?
    Ms. Cullen. We were able to move fruit consumption. We 
served fresh fruit, fresh vegetables, canned fruit, because the 
students said they would purchase that, and 100 percent fruit 
juice, and we did get some results in fruit consumption in the 
second semester.
    We did have students who said they would never, ever buy 
fruit and vegetables in the snack bar. We did not see any--we 
couldn't tease out whether it was snack bar or school lunch.
    We had students, again in some low-income schools, where we 
asked students to fill out lunch records during lunchtime, so 
we actually have their consumption. We're doing analysis right 
now to see did snack bar consumption increase, did the school 
lunch meal consumption increase. Vending we also measured. So 
we know exactly what students are eating in these schools, and 
the food source. So we're looking at that data right now.
    Chairman Castle. Don't even answer this, but I mean, I look 
at it as a form of convenience. I tend to eat what is 
convenient. I sit here and rail against fat and everything, and 
I show up at a fast food place or whatever, because it's there 
and it's convenient; and with kids, it's probably convenient 
and cool.
    Ms. Cullen. Well, you know, we found out they can't--I 
mean, middle school students with braces can't bite into 
apples, so the apples were wedged, the oranges were sliced. I 
mean things like that--
    Chairman Castle. You learn these things.
    Ms. Cullen. Yeah. You need to make it so kids are not going 
to--they don't have time to go to the bathroom and wash their 
hands if they peel an orange.
    So we have to look at them as consumers. They don't want 
brown lettuce.
    Chairman Castle. Right.
    Ms. Cullen. I mean, they're consumers.
    Chairman Castle. Dr. Baranowski, you mentioned something 
that everyone virtually touched on some way or another, and 
that is restoring physical education to schools.
    As one who excelled in recess and virtually nothing else in 
school, I'm a great believer in that, but how do you do it?
    I mean, schools, in the time I've been in government, 
schools tend to be trending away from physical education, 
recess, those kinds of things, because of academic pressures 
and perhaps lack of teachers or whatever.
    Do you have a method, a secret answer to make sure this 
restoration takes place so we can get this 60 minutes of 
physical activity a day in, that has been recommended here by 
the earlier panel?
    Dr. Baranowski. We don't have any answers. We're 
participating in programs where we're trying to introduce 
activities that teachers can use that would get moderate to 
vigorous physical activity during the program.
    We're working with trying to change the PE teachers' use of 
time, so rather than use 15 minutes on the front end and 15 
minutes on the back end to change, use 5 minutes on the front 
end and 5 minutes on the back end to add more time available 
for physical activity.
    We're trying to work on making physical activity cool. Like 
Karen was saying, kids are consumers. They want cool, and how 
can we sell physical activity at school?
    A project recently done in California showed that if the PE 
program is reoriented toward sports, which is something that 
boys like, the boys become much more physically active, but it 
doesn't affect the girls; so we need to find programs that are 
reaching the different segments of the child market.
    Chairman Castle. Thank you.
    I'm going to skip quickly to Ms. MacDonald, and I obviously 
have other questions, but I'd like, if you can tell me, I think 
you'd be the best person on the panel to do this, what are 
these kids actually eating?
    And let me tell you why I ask that question. In our 
Delaware schools, I go to the schools a lot, and I go into the 
cafeterias a lot, and actually occasionally eat there, and I 
see, frankly, a lot of foods that I guess that send off signals 
that maybe we shouldn't be eating these things --you know, 
pizza and other areas that perhaps are not as healthy as green 
vegetables or whatever may be.
    So to me, it's clearly, you clearly could put together a 
pretty wretched meal from a nutritional point of view, if you 
wanted to, in our school cafeterias.
    On the other hand, the foods you should eat are all there, 
as well.
    I understand that the kids are pretty clever about making 
sure they get the fat foods if they possibly can, even though 
it may not seem that way in terms of what they're taking, with 
swapping and other things that go on. I'm not an expert on 
that. I'm not suggesting that that is the case, but I've heard 
that.
    And I am concerned that what they're actually consuming is 
not necessarily as nutritionally balanced as we would like it 
to be, meaning that maybe we have to make some of these kinds 
of foods less available.
    I've talked to our Delaware nutritionists a little bit 
about this, but I'd be interested in your views on it, on a 
national level, as to how we need to try to direct the kids to 
eating the right food.
    Ms. MacDonald. Thank you for that question.
    As was alluded to earlier, we need to look at foods 
available at school in the context of the entire campus--what's 
available in the cafeteria as well as what might be offered 
elsewhere on campus.
    Actually, according to the most recent USDA study on the 
subject, schools are making and have made very significant 
progress in implementing the dietary guidelines in school meal 
programs. The fat content of a reimbursable meal is 
significantly down, and an increasing variety of fruits and 
vegetables are being available.
    One of the things that you may not see is what we do behind 
the scenes in the school cafeteria, and that is we've modified 
food preparation methods, we have rewritten product 
specifications to specify lower fat, lower sodium and sugars, 
and industry has responded to our requests.
    So familiar student favorites, such as the pizza that you 
mentioned, are part of school meals that meet the dietary 
guidelines.
    Chairman Castle. Before I yield to Ms. Woolsey, I might add 
we probably eat pizza around here in our meetings three times a 
week, but we'll let that slide by.
    Ms. Woolsey is recognized for 5 minutes.
    Ms. Woolsey. Where is that pizza? It's lunch time.
    I have to make a comment. The Pilot School Breakfast 
Program is because of a lot of the people out in the audience, 
and legislation that my office has put together.
    I want to tell you what the experience is there, Mr. 
Chairman. It's elementary school. I give it that. It's harder 
to tell high school kids what to do. But it is a forced 
balanced program.
    The kids come for the school breakfast. They are given so 
many units of each food group. They can't have three muffins 
and nothing else. They have a muffin. They have--I mean, they 
get to choose among those food groups, but they don't get to 
fill it all up with just one food group.
    The kids love it, the teachers adore it, the parents love 
it, and the administration loves it, because these kids are 
learning something about eating, and they're eating.
    They may already have eaten at home. We're learning that 
elementary kids do. But we don't know what they eat at home. 
They come to school, and they learn about balance.
    They all sit down. I visit these programs, of course, 
because one is in Santa Rosa, California in my district, and 
the kids are sitting and talking politics. I mean, they are so 
cute. They love being there, and they love doing this, and it 
works.
    So, OK. Now, that's enough of me. I want to ask Dr. Frank. 
I don't want to waste her.
    Tell us if there are barriers that you know of preventing 
participation in the child nutrition programs for infants and 
children, and what you think we could do to eliminate them.
    Dr. Frank. First of all, the barriers in parents' work 
schedules make it very difficult, often, to access WIC sites, 
to come to school and present all the paperwork and miss a day 
from work, and also having to recertify, I think, you know, 
frequently, because so many people have fluctuating incomes. 
When the hotel is full, they're working; when the hotel is 
empty, they're not working.
    So anything that requires frequent recertification that 
doesn't have evening and ideally Saturday hours, and anything 
that frighten people, because remember, you know, in our 
multi--people are readily frightened, and therefore, many 
eligible people, if you increase paperwork barriers and this 
and that, just get frightened, and they--we spend a lot of time 
handholding individual families to get them onto Food Stamps, 
you know, to fill out the paperwork for school lunch.
    And also, in Boston, we have the horrible situation where 
we can't deem child care feeding, because we have a very few 
wealthy neighborhoods, even though everybody in the child care 
programs is very poor, and so every single home has to do this 
unbelievable paperwork to get feeding, so many of them don't 
participate.
    So again, things that sound like--I forget, what was--there 
was a lovely word that was used, accountability, something like 
that. It makes sense, but it has to be looked at from the other 
perspective, which is what harm are they doing to children who 
need it?
    You know, the first thing you teach to med students, you 
bring them in the first day at med school and you look at them 
and you say, ``Do no harm.''
    So that, I would think, would be step first, in thinking 
about how to enhance the administrative issues in these 
programs.
    Ms. Woolsey. I'm going to ask a question that I didn't 
think Secretary Bost answered very well, and that's about the 
upcoming reauthorization and what we need to do for WIC.
    Ms. MacDonald, you start, and then Dr. Frank, and then 
maybe all of you could answer that, if you would.
    What do you think in our reauthorization is the most 
important thing that we do on this Committee?
    Ms. MacDonald. For WIC or for school meals, for anything?
    Ms. Woolsey. Yeah, let's go for anything. Each of you gets 
to pick your No. 1 thing you want us to do. We better hurry.
    Ms. MacDonald. Our primary priority is to eliminate the 
reduced price category, at least begin to look at that.
    We also--
    Ms. Woolsey. OK. That's all you get.
    Ms. MacDonald. That's all I get? That's good. That's my 
primary priority.
    Ms. Woolsey. Now we'll go down here.
    Dr. Baranowski. I advocate for enhanced funding for 
behavioral research, so it could guide policy in the future.
    Ms. Woolsey. OK. Dr. Cullen.
    Ms. Cullen. From the research perception, I would agree 
with Dr. Baranowski, but I also think we don't know much about 
how to encourage kids to eat foods when other kids are not 
eating healthy foods, and the whole atmosphere around school 
lunch and the negative stigma.
    Ms. Woolsey. OK.
    Ms. Clarke. The proportion of the WIC funding that can go 
for nutrition services is our biggest problem.
    Ms. Woolsey. And Dr. Frank, you are the cleanup batter.
    Dr. Frank. I wish for all programs the same way you have to 
have an environmental impact statement, you would have to have 
a baby impact statement, as to what is this change going to do 
to poor, young children.
    Ms. Woolsey. Thank you very much.
    Chairman Castle. Thank you, Ms. Woolsey.
    Mr. Osborne is recognized for 5 minutes.
    Mr. Osborne. Thank you, Mr. Chairman. I'd like to thank the 
panelists for being here today.
    Dr. Baranowski, you mentioned in your testimony that 
particularly in middle school and higher grades, children seem 
to know what's healthy. They simply, at times, refuse to eat 
what is healthy, and so a stigma to school lunch and motivation 
is a problem.
    In our society, obesity is a problem, too, and I would 
think that those who are overweight would be motivated, and I 
wonder if you had ever looked at special counseling or special 
programs for those who are suffering from that stigma, because 
I would think they would be the most likely to be highly 
motivated to do something about whatever situation they're in.
    Dr. Baranowski. That's an excellent question, Mr. Osborne.
    Behavior change is very, very difficult, by anybody. The 
obese have the same kinds of difficulties in changing their 
behaviors as anybody else.
    For children, the parents are particularly important. Many 
of the parents don't recognize the difficulties and challenges 
of obesity or changing behaviors.
    In many cases, the families have, from a research 
perspective, dysfunctional feeding practices that encourage 
over-consumption of foods, perhaps permissive feeding practices 
that also permit over-consumption of foods.
    In general, obese children have a very difficult time 
changing the behavior, just like obese adults do. We see many 
obese adults, and while they feel guilty, there's huge anxiety 
associated with it, the motivation to change in the sense that 
it results in effective behavior change isn't there.
    Mr. Osborne. I appreciate your response. I used to be 
involved in an environment where we did have a nutritionist who 
worked with our people, and I would think that nutritional 
counseling that also included the parents at times might have 
some effect. I don't know. And of course, you're always 
concerned with cost.
    Ms. MacDonald, I don't know if you read Secretary Bost's 
testimony or not, but he indicated in that testimony that only 
5 percent of the households who are available for multiple 
programs use all of them.
    In other words, there are many households who are eligible 
for reduced lunch and breakfast costs, and also the WIC program 
and Food Stamps, and yet it seems like most households just use 
one.
    So I noticed that you said that we should eliminate the 
reduced fee, and yet I would wonder if we have so many people 
who are eligible for more than what they're using, if we're 
adequately informing people of what's available, because 
certainly if they're eligible for multiple programs and they're 
struggling to pay the 30-or-40-cent fee, you would think that 
if they used all the programs, that they would not have that 
trouble.
    I wonder if you had thought about that or if you had 
noticed the testimony that Under Secretary Bost brought to us.
    Ms. MacDonald. I have not had a chance to read his 
statement, but I did hear that fact, and I think what's 
important is, about the elimination of the reduced price 
category, is that that 40 cents or 30 cents is keeping children 
out of the program.
    They may be qualified for WIC when they're four or five. 
When they come to school, they are not qualified for free. They 
may fall into that reduced category, and they cannot pay that 
fee.
    I think it's important to note that even Under Secretary 
Bost said that the extent of, you know, the problem of program 
integrity is not, it's not clear, and we're very, very 
concerned, and strongly urge Congress to not make any changes 
in the current application or verification system that might 
deny eligible children access, since we know that they're not 
participating.
    We need a more accurate picture of the problem, if it 
exists, and as Dr. Frank said, to analyze the impact of 
whatever solution might have on that population.
    Mr. Osborne. If I might follow that comment up with another 
question, in your testimony you did indicate that income 
verification was needed and you also stated that you didn't 
want this to be burdensome, you didn't want to scare people 
off.
    So that's kind of a tightrope, and what would you suggest? 
Because, you know, we're at a point here where something has to 
be implemented, and what do you think would be effective in 
making the system more accurate and more accountable, and yet 
avoid driving people who need the service off?
    Ms. MacDonald. Well, one of the proven strategies is, as 
Secretary Bost mentioned, direct certification where, if a 
family currently qualifies for temporary assistance for needy 
families on Food Stamps, they are automatically qualified in 
some states for free meals.
    We would like to see the expansion of direct certification 
to programs such as Medicare, Children's Health Insurance, and 
SSI, because these parents and families have to apply and 
provide income documentation to become eligible for those 
programs, and we feel that it is very reasonable to expand that 
so that they will not have to fill out a separate set of 
paperwork.
    Mr. Osborne. Thank you.
    Chairman Castle. Thank you, Mr. Osborne.
    Ms. Majette is recognized for 5 minutes.
    Ms. Majette. Thank you, Mr. Chairman, and thank all of you 
for being here today and for what you are doing to make sure 
that every child is able to be fed and prepared to learn.
    I'm still wondering if there is some way that we can 
streamline this process and reduce the stigma, and I know that 
you're concerned about that, the stigma.
    I guess I would ask if you have some ideas in terms of the 
use of technology that might enable us to have people--well, 
maybe that's a little vague.
    But we have new technology in the grocery store where I 
shop, at Kroger, in Georgia, where you get a card and you can 
scan the items and they can keep track of everything that you 
do.
    It's my understanding that there are some systems that 
might be available for schools to be able to give children a 
card and maybe they wouldn't have to deal with money and having 
somebody know how much they paid, and we could also track what 
they're eating, what they're buying, what they're consuming, 
and use that information in order to determine if there need to 
be adjustments nutritionally, or those kinds of things.
    Have any of you had any thoughts on using those kinds of 
processes to address some of these issues?
    Ms. MacDonald. Well, if I could answer that, actually, we, 
in my district, we use that type of technology, and it is very, 
very effective.
    Students enter a PIN number. Even students who qualify for 
free have an account balance that comes up on the screen, so if 
someone is behind them, they don't know that they are qualified 
for free.
    However, that technology can cost quite a bit of money and, 
as you know, in our programs, the recent GAO study that was 
released showed that the current reimbursement for the cost to 
produce and sustain the infrastructure to deliver meals is 
inadequate. There's a gap between the free of 6 cents, 18.5, or 
36 cents for reduced and 18.5 for free, or for paid.
    So the schools are struggling. We would appreciate some 
looking into that, so maybe some of this technology could be 
incorporated.
    Mr. Osborne [presiding]. Obviously, we have a vote coming, 
and we have two more people to ask questions, so we'll try to 
expedite things.
    Ms. Majette. I'm sorry. Should we go on, Mr. Chairman?
    Mr. Osborne. Certainly. Go ahead. Proceed.
    Ms. Majette. When we talk about the cost, you know, I'm 
always concerned about us being--and excuse the pun--penny wise 
and pound foolish.
    If we already know that on the back end, the cost of obese 
children or undernourished children or undernourished young 
people has an effect on their ability to learn and therefore 
their ability to be well-educated, properly prepared citizens 
or workforce, as well as the health concerns and the health 
costs if you're dealing with diabetes and cancers and those 
kinds of things that really do cost us in dollars and cents and 
lots of other ways, would you suggest to us that it might be, 
or perhaps would you agree with it that it might be more 
effective in the long term to spend a little extra money to 
eliminate the paperwork and get people on the track of being 
able to meet those needs on the front end so that we don't have 
to deal with it on the back end?
    Ms. MacDonald. We would absolutely agree with that, and to 
that point, that's one of the reasons why the elimination of 
the reduced price category has such support from industry.
    As you know, as I mentioned, they have a very strong 
interest in a healthy and well-educated workforce, and these 
programs not only benefit our children nutritionally now, but 
they benefit the economy, as well, and of course, health costs, 
as you mentioned, down the road.
    So industry would rather put their money into research and 
development, product development, rather than remedial programs 
for employees who can't read or high health care costs.
    So we would agree that it is a fine investment in the 
future of this country to invest dollars in child nutrition 
programs.
    Ms. Majette. Thank you.
    Mr. Osborne. Thank you. I think we probably better proceed. 
We have a series of four votes and we'd like to conclude the 
panel.
    We have Mr. Van Hollen, who would like to ask question, and 
Mr. Davis, so we'll try to get this finish. We have about five 
or 6 minutes left.
    Mr. Van Hollen. Thank you, Mr. Chairman. I'll try and be 
brief. I want to thank all the members of the panel.
    I have a question for Ms. MacDonald, about your proposal to 
phaseout the reduced lunch portion and bring up the free lunch, 
up to 185 percent of poverty. It's something I support. I think 
it's a great proposal.
    It obviously will require some resources to do it. I don't 
have the exact estimates, but my understanding is it could be 
$600 million additional per year when fully phased in, 
somewhere in that range.
    My concern is that, for those who sort of take half of your 
proposal, but not the full proposal, and look for ways to 
eliminate some of those kids who are on reduced price lunch and 
pay for it by not replacing them with free lunches, and I would 
ask what your response to that would be.
    In other words, my sense is if we move forward, we should 
also move forward with the understanding we should do no harm, 
that children who are currently receiving reduced lunches, that 
none of them should end up having to pay, because as I 
understand your testimony, your reason for proposing free 
reduced lunches is they're already having trouble paying what 
they're paying. Is that right?
    Ms. MacDonald. That's absolutely right, and it's very 
important, the point that you make, because as our 
reimbursements haven't kept up, the price to the paying child 
has been raised higher and higher.
    So we would want the caveat that, you know, certainly no 
children who are currently eligible would be eliminated from 
the program.
    Ideally, we would love to just go the whole way, but we are 
willing to, you know, work with Congress to explore if there 
are other ways to get there.
    One of the things that I find quite interesting is that the 
current administrative cost to verify and do the applications 
is about $640 million a year. That's a lot of lunches at 40 
cents.
    Mr. Van Hollen. Right. Thank you, Mr. Chairman. I had some 
others, but in the interest of time, I will--
    Mr. Osborne. Thank you.
    Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    I'd like to just ask if I can submit written questions for 
the Secretary.
    Chairman Castle. Without objection.
    Mr. Davis. Many of my questions were, in fact, generated by 
his testimony. Unfortunately, I had some duties on the floor 
that kept me from getting here, but I will ask one question, 
and maybe if the panel would respond, if they would care to.
    In the Secretary's written testimony, he supported 
expanding the portion of students that would be subject to 
income verification.
    Under current law, the number of approved applications that 
must be verified by any single district is capped at 3,000. The 
Secretary's testimony did not mention retaining such a cap.
    However, retaining a cap on the number of applications that 
large districts like mine--I come from Chicago--must verify is 
extremely important, even if it is a higher cap than what we 
now have.
    Without a cap, what the Chicago public schools had to 
verify, 12 percent of approved applications, we would face a 
900 percent increase in the number of applications that we'd 
have to verify. It would be extremely difficult for us to 
absorb such an increase in our administrative responsibilities 
and would have a great impact on our budget.
    Moreover, we're concerned that eligible children in Chicago 
and other big cities would be disproportionately affected if 
there were no cap because the verification non-response rate 
tends to be higher in urban areas.
    If our Committee were to include a cap, even if it were a 
slightly modified cap, on the number of approved applications 
that the largest districts must verify, would you be opposed to 
such a provision?
    You can answer this if you would care to. If not, I 
certainly will understand. It's not within your testimony and 
it's not necessarily within your purview, but if any of you 
would care to respond to that, I'd appreciate it if you would.
    Ms. MacDonald. Well, I think that we look forward to 
working with you and resolving those concerns, because we are 
very, very concerned about the impact of any various potential 
solution to that problem.
    The Center on Budget and Policy Priorities has done 
significant analysis on the extent of what the Secretary was 
talking about, and we would be happy to ask the Center to share 
those facts with you.
    Mr. Davis. All right. Thank you very much. Anyone else?
    [No response.]
    Mr. Davis. If not, just a quick--obesity has been generated 
and has generated a great deal of conversation lately relative 
to child obesity.
    What can we really do about it, quickly? You know, anybody? 
Dr. Frank?
    Dr. Frank. Well, first of all, interestingly enough, if you 
prevent low birth weight, you will prevent later obesity, 
because that turns out to be a huge predictor, paradoxically.
    The other things I think are rational, but probably not 
politically acceptable.
    You can't advertise tobacco to kids, but you can advertise 
any kind of unhealthy food, about millions, literally millions 
of ads a year on the children's television programming.
    Also, there's issues of things like neighborhood safety. We 
just had a 3-year-old shot and paralyzed, in my hospital.
    So it's all very well to tell people to go for a walk, but 
they realistically understand that, you know, it's bad to be 
obese, but it's worse to be paralyzed, and anytime one of those 
happens, everybody locks their kids up indoors, and then once 
the kids are indoors, all they've got to do is watch TV.
    So you have to sort of have a real sense of real life when 
you address these things.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Mr. Osborne. Thank you, Mr. Davis.
    I'd like to thank the witnesses for your testimony, and 
members for their participation.
    If there's no further business, the Subcommittee stands 
adjourned.
    [Whereupon, at 12:32 p.m., the Subcommittee was adjourned.]
    [Additional materials submitted for the record follow:]

    [GRAPHIC] [TIFF OMITTED] T0132.010
    
    [GRAPHIC] [TIFF OMITTED] T0132.011
    
    [GRAPHIC] [TIFF OMITTED] T0132.012
    
    [GRAPHIC] [TIFF OMITTED] T0132.013
    
    [GRAPHIC] [TIFF OMITTED] T0132.016
    
    [GRAPHIC] [TIFF OMITTED] T0132.001
    
    [GRAPHIC] [TIFF OMITTED] T0132.017
    
    [GRAPHIC] [TIFF OMITTED] T0132.002
    
    [GRAPHIC] [TIFF OMITTED] T0132.003
    
    [GRAPHIC] [TIFF OMITTED] T0132.004
    
    [GRAPHIC] [TIFF OMITTED] T0132.005
    
    [GRAPHIC] [TIFF OMITTED] T0132.006
    
    [GRAPHIC] [TIFF OMITTED] T0132.007
    
    [GRAPHIC] [TIFF OMITTED] T0132.008
    
    [GRAPHIC] [TIFF OMITTED] T0132.009
    
    [GRAPHIC] [TIFF OMITTED] T0132.014
    
    [GRAPHIC] [TIFF OMITTED] T0132.015
    

</pre></body></html>
